<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 114-575]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-575

                           OVERSIGHT OF THE 
                   FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
 
 
                   U.S. GOVERNMENT PUBLISHING OFFICE
24-521 PDF                 WASHINGTON : 2017                   
 
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>  
 
 
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                  Adrian Arnakis Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2016...............................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     4
    Letter dated February 12, 2016 to Hon. Tom Wheeler, Chairman, 
      Federal Communications Commission from Hon. Bill Nelson....    70
Statement of Senator Wicker......................................    29
Statement of Senator Cantwell....................................    31
Statement of Senator McCaskill...................................    32
Statement of Senator Fischer.....................................    33
Statement of Senator Blunt.......................................    34
Statement of Senator Klobuchar...................................    36
Statement of Senator Moran.......................................    38
Statement of Senator Schatz......................................    40
Statement of Senator Daines......................................    41
Statement of Senator Markey......................................    43
Statement of Senator Gardner.....................................    46
Statement of Senator Booker......................................    48
    Article dated August 28, 2016 from The New York Times 
      entitled ``Broadband Law Could Force Rural Residents Off 
      Information Superhighway'' by Cecilia Kang.................    48
Statement of Senator Sullivan....................................    52
Statement of Senator Udall.......................................    54
Statement of Senator Blumenthal..................................    56
    Article dated March 2, 2016 from the Seattle Times entitled 
      ``FCC right to think outside the cable set-top box'' by the 
      Seattle Times editorial board..............................    58
    Article dated February 10, 2016 from The Boston Globe 
      entitled ``FCC Should Unlock Savings for Cable Consumers''.    59
    Article dated April 20, 2016 from Bloomberg View entitled 
      ``Cheaper Cable TV Starts With A Better Box''..............    60
    Article dated February 15, 2016 from the Chicago Tribune 
      entitled ``Imagine your viewing options if the FCC unlocks 
      the cable box'' by the Editorial Board.....................    62
    Article dated September 9, 2016 from the Los Angeles Times 
      entitled ``It's time to kill the cable box'' by The Times 
      Edirorial Board............................................    63
    Article dated September 15, 2016 from The New York Times 
      entitled ``Free TV Viewers from Cable Box Fees'' by the 
      Editorial Board............................................    65
Statement of Senator Peters......................................    65
Statement of Senator Johnson.....................................    67

                               Witnesses

Hon. Tom Wheeler, Chairman, Federal Communications Commission....     5
    Prepared statement...........................................     7
Hon. Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................    11
    Prepared statement...........................................    13
Hon. Ajit Pai, Commissioner, Federal Communications Commission...    14
    Prepared statement...........................................    15
Hon. Michael O'Rielly, Commissioner, Federal Communications 
  Commission.....................................................    18
    Prepared statement...........................................    20
Hon. Mignon L. Clyburn, Commissioner, Federal Communications 
  Commission.....................................................    21
    Prepared statement...........................................    23

                                Appendix

Response to written questions submitted to Hon. Tom Wheeler by:
    Hon. John Thune..............................................    75
    Hon. Roger F. Wicker.........................................    82
    Hon. Roy Blunt...............................................    87
    Hon. Kelly Ayotte............................................    88
    Hon. Dan Sullivan............................................    89
    Hon. Ron Johnson.............................................    89
    Hon. Cory Gardner............................................    89
    Hon. Bill Nelson.............................................    90
    Hon. Maria Cantwell..........................................    91
    Hon. Claire McCaskill........................................    93
    Hon. Amy Klobuchar...........................................    94
    Hon. Brian Schatz............................................    95
    Hon. Edward Markey...........................................    96
    Hon. Cory Booker.............................................    96
    Hon. Joe Manchin.............................................   100
Response to written questions submitted to Hon. Jessica 
  Rosenworcel by:
    Hon. John Thune..............................................   101
    Hon. Deb Fischer.............................................   102
    Hon. Cory Booker.............................................   103
    Hon. Joe Manchin.............................................   104
Response to written questions submitted to Hon. Ajit Pai by:
    Hon. John Thune..............................................   105
    Hon. Deb Fischer.............................................   106
    Hon. Ron Johnson.............................................   106
    Hon. Claire McCaskill........................................   107
    Hon. Joe Manchin.............................................   109
Response to written questions submitted to Hon. Michael O'Rielly 
  by:
    Hon. John Thune..............................................   109
    Hon. Deb Fischer.............................................   111
    Hon. Ron Johnson.............................................   111
    Hon. Cory Gardner............................................   111
    Hon. Claire McCaskill........................................   112
    Hon. Joe Manchin.............................................   112
Response to written questions submitted to Hon. Mignon L. Clyburn 
  by:
    Hon. John Thune..............................................   113
    Hon. Roger F. Wicker.........................................   113
    Hon. Maria Cantwell..........................................   114
    Hon. Joe Manchin.............................................   114

 
                           OVERSIGHT OF THE 
                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Wicker, 
Cantwell, McCaskill, Fischer, Blunt, Klobuchar, Moran, Schatz, 
Daines, Markey, Gardner, Booker, Sullivan, Udall, Blumenthal, 
Peters, Johnson, Heller, and Manchin.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. This hearing will come to 
order.
    We're delighted to have the FCC Commission Chairman and the 
other four Commissioners with us today for an oversight 
hearing.
    And let me just preface what I'm going to say. My opening 
statement is fairly hard-hitting. It is designed in the 
interest not of my personal feelings but the importance of the 
relationship between the Congress and this institution. I want 
people to understand as I make my remarks that that's the vein 
in which it is intended.
    In the past, people used to say that the telecom policy was 
not particularly partisan and that both parties could often 
find common ground to work together. The voting record at the 
Commission certainly bears that out with the previous five 
permanent FCC chairmen combining for just 14 party-line votes 
in open meetings during their tenure.
    In this Commission, under Chairman Wheeler, this agency has 
too often pursued a highly partisan agenda that appears driven 
by ideological beliefs more than by a sober reading of the law. 
Chairman Wheeler has forced 3-2 votes on party-line items a 
total of 25 times. And just to put that in perspective, in 3 
years under Chairman Wheeler, the FCC has seen nearly twice as 
many partisan votes than in the previous 20 years combined.
    What were once very rare events are now standard operating 
procedure at the Commission. A free and open Internet, 
universal broadband access for all Americans, innovative 
offerings for pay-TV customers, and necessary privacy 
protections all have broad bipartisan support.
    So why has the current FCC continually advanced divisive 
policies at the expense of certainty for consumers and 
innovators that only bipartisan solutions can offer?
    Of course, consensus is not always achievable on every 
issue, and I would be the first to acknowledge that, but when 
there have been opportunities for common ground, the Commission 
has frequently chosen a partisan path over collaboration. By 
relying on unnecessarily partisan tactics, Mr. Wheeler has, I 
believe, missed opportunities for bipartisan accomplishments.
    Chairman Wheeler at times has seemed to use even the 
distribution of information about Commission proceedings as a 
political weapon. Too often, we have seen conveniently timed 
leaks and disclosures used as tools to benefit a partisan 
agenda.
    But he and I spoke earlier this week, and I reiterated my 
call for the FCC to be as transparent as possible. Treating all 
Commissioners fairly, not using the disclosure of non-public 
information as a sword, would lead to a better process at the 
agency, which, in turn, could only improve the Commission's 
work product.
    While process issues at the FCC may seem to be just a minor 
transgression that can be chalked up to business as usual in 
Washington, D.C., in this case, it illustrates a divisive 
leadership approach which threatens to undermine the 
credibility of the agency now and into the future.
    This partisanship has been used to do the following things: 
a complete upending of how the Internet is regulated, creating 
years of uncertainty for everyone; stripping important consumer 
protection responsibilities from the Federal Trade Commission; 
a failed attempt to override States' rights on municipal 
broadband in a power grab that was overturned by the courts; 
increasing the size of the Universal Service Fund by billions 
of dollars while simultaneously undermining bipartisan efforts 
to improve the program's accountability; the unnecessary and 
unlawful disclosure of trade secrets; and a plan that could 
possibly be adopted later this month to have the FCC and its 
Media Bureau design and dictate the future of television apps.
    The common thread among these partisan actions by the 
agency is a clear intent to install the Federal Communications 
Commission as the most important player in the communications 
landscape, the arbiter through which all new marketplace 
developments and innovations must pass.
    If you're an innovator working to develop a new consumer-
friendly Internet-based app, sorry, you need to first make sure 
it conforms to the license required and regulated by the FCC.
    If you're a mobile subscriber enjoying competitive service 
plans that make data more affordable for you, enjoy it while it 
lasts, because while the Commission might be OK with that 
today, they could easily deem it unlawful next year or even 
tomorrow.
    And if you're a small business seeking a new way to promote 
your company online, sorry, the FCC is going to saddle would-be 
disruptors with rules preventing them from challenging the 
dominant players in the online advertising market.
    Rather than exercising regulatory humility and putting 
faith in the marketplace, over and over again, the FCC has 
required companies to beg for government permission to 
innovate.
    And Republicans are not alone in noticing the FCC's 
overreach. On several occasions, other Federal agencies have 
refused to support the FCC's actions. The Copyright Office 
strongly criticized the earlier proposal for set-top boxes, 
which was far less complex than the new one.
    The staff at the Federal Trade Commission called the FCC's 
privacy rules ``not optimal,'' which is bureaucrat-speak for 
``really bad.''
    And the Department of Justice refused to defend the FCC's 
unlawful action on municipal broadband.
    This all stands in contrast, I might add, to good-faith 
efforts by Republicans and Democrats in Congress to work 
together on telecom policy. The bipartisan MOBILE NOW Act is 
the most prominent example of this in the Senate, but other 
examples abound: FCC reauthorization, Kari's Law, the Amateur 
Radio Parity Act, the SANDY Law, the Improving Rural Call 
Quality and Reliability Act, and more.
    In Congress, communications policy is often a rare oasis of 
cross-aisle cooperation. But even here, the partisan toxicity 
of the Commission has reached across D.C. and infected our 
bipartisan work. For proof of this, one need look no further 
than Senator Reid blocking the Senate's telecom agenda while 
admitting that this committee has done its work, including 
reporting nominees in bipartisan fashion.
    What is perhaps most unfortunate is that we have clear 
examples of the good the Commission can do when it truly works 
toward bipartisanship. Earlier this year, Chairman Wheeler and 
Commissioner O'Rielly worked together to address the standalone 
broadband problem that threatened rural communities. More 
recently, the FCC issued its Spectrum Frontiers Order, which is 
an important downpayment toward making much-needed spectrum 
available to fuel the next generation of gigabit wireless 
services.
    I just want to urge all members of the Commission to treat 
each other fairly, to respect the law, and to be willing to ask 
Congress for guidance, and to seek consensus wherever and 
whenever possible. Doing so will result in agency actions that 
are more likely to ensure. Further, less controversy at the 
Commission will improve its credibility, providing it with more 
wherewithal to carry out its statutory responsibilities.
    And on a side note, while this agency is far from the 
largest in our Committee's expansive jurisdiction, its 
importance to the future of our economy and our society is hard 
to overstate. Communications and media networks are at the 
center of Americans' lives, and that role is only going to 
increase over time.
    Regardless of how the agency operates or who is in charge 
of leading the Commission, it's important and worthwhile for 
the Commerce Committee to hold regular oversight hearings of 
the FCC, and today's hearing should be viewed as establishing a 
regular biannual schedule for FCC oversight.
    Thank you. And I will recognize the Ranking Member, Senator 
Nelson, for his opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I, too, have a rather hard-
hitting opening statement. And I certainly acknowledge with you 
the highly charged partisan times. And I acknowledge also that 
this committee, indeed with the relationship that you and I 
have personally, cuts through a lot of that partisanship and 
comes up with bipartisan solutions on issue after issue.
    And as you look back across that chart that your staff just 
held up, indeed, administrative agencies often reflect the 
times in which they are holding their administrative hearings 
and their votes, and this has been one of the most contentious.
    As a matter of fact, it is still beyond my understanding 
when one of the two Republican members were confirmed with the 
direct agreement between the two leaders of the Senate that 
Jessica Rosenworcel would, in fact, be confirmed as a follow-
up, and that was the agreement.
    Can you imagine Everett Dirksen, and can you imagine Mike 
Mansfield--as a matter of fact, I've heard stories about Mike 
Mansfield, when a Democratic Senator did not keep his word to a 
Republican Senator, Mike Mansfield, in the home state of that 
Democratic Senator, rebuked him. Where have those days gone? 
And why do we still sit around and wait for the confirmation of 
Mrs. Rosenworcel?
    So, indeed, and I say this with a heavy heart, but at the 
same time with an encouraged heart, because of the relationship 
that you and I have and how we have been able to get some 
things done here, not the least of which just recently was the 
FAA bill.
    And so here we have the session of the Federal 
Communications Commission. It's a very full agenda. It's an 
ambitious agenda. And while proceedings like this one on 
broadband and privacy, are incredibly important, I want now to 
touch on Chairman Wheeler's latest proposal to free consumers 
from having to pay annoying and excessive monthly rental fees 
for set-top boxes.
    Everybody agrees, I don't see much dissent, that we need to 
move beyond set-top boxes as technology rapidly advances. The 
marketplace should constantly strive for ways to give consumers 
what they want. Congress said as much in 1996, thank you, 
Senator, from Massachusetts.
    Congress said as much in 1996 when we required the FCC give 
consumers some alternatives to the boxes, and yet 20 years have 
passed and consumers are still renting these boxes month after 
month. We're beyond that.
    That's why this Senator is fully supportive of the FCC's 
efforts to use its authority to give consumers relief. As 
Chairman Wheeler and I have discussed, I'm encouraged that your 
leadership and your relentless drive have gotten us so close to 
that shared goal.
    Now, we've spent a great deal of our time here in the 
Senate trying to put politics aside, as we have stated on a 
number of issues, in order to reach agreement, and I learned 
long ago that no matter how good intentioned a proposal, if 
consensus can't be reached, then it's not going to be a 
success.
    So we sit here 2 weeks from a planned vote on the proposal 
in the Commission, and I continue to hear from many 
stakeholders that there are elements, Mr. Chairman Wheeler, of 
your proposal that continue to need work. Much of that concern 
comes from the approach that you've taken on copyright and 
content, and, in fact, I share those concerns and have stated 
those concerns to you, and I've stated those concerns publicly 
months ago.
    If we stay on the present course, I fear the FCC's actions 
to promote set-top box competition would be tied up in court 
and hamstrung for years. We just experienced that reality with 
net neutrality, which created a decade-long fight and left 
consumers without effective consumer protections as they use 
their broadband service.
    And so it's my hope that the Commission will take the time 
necessary to reach out to stakeholders in good faith to try to 
resolve some of these concerns so that we can once and for all 
free consumers from the monthly set-top box fees. It's very, 
very important to consumers, and it needs to be done.
    Let me just mention a couple of other issues. At our last 
oversight hearing, Mr. Chairman, you and I talked about the 
need for Congress to act to help advance the ongoing evolution 
of our Nation's 911 infrastructure to the Next Generation of 
911.
    It's a public safety priority for the Federal Government, 
and states to further this transition to make sure that 911 
service remains robust and able to respond adequately and 
effectively in an emergency.
    We all rely on it. It's a call that we hope we never have 
to make, and it's time for all of us to do everything that we 
can to make it a reality throughout the entire country.
    So I will be offering for cosponsorship in the near future 
legislation to promote the development and deployment of the 
Next Generation of 911 services, and to make this transition a 
success. And I invite all of our colleagues to join.
    And so with that, Mr. Chairman, thank you for the 
opportunity, and thank you for the opportunity of working with 
you.
    The Chairman. Thank you, Senator Nelson. I appreciate that. 
Thanks for your opening remarks.
    We'll turn to the panel, and we'll start on my right, and 
your left, with the Chairman, and then Commissioner 
Rosenworcel, Commissioner Pai, Commissioner O'Rielly, 
Commissioner Clyburn. Welcome to all of you. As always, we're 
delighted to have you in front of the Committee and look 
forward to hearing from each of you today.
    So, Mr. Chairman, if you would please proceed.

           STATEMENT OF HON. TOM WHEELER, CHAIRMAN, 
               FEDERAL COMMUNICATIONS COMMISSION

    Chairman Wheeler. Thank you, Mr. Chairman, Senator Nelson, 
Members of the Committee.
    You know, as a certain November event approaches and a new 
administration is on the horizon, this may be my last 
appearance before this committee. I will cooperate fully with 
the new administration to assure a smooth transition at the 
FCC, but I do want to take this opportunity to observe that it 
has been a privilege to work with this committee over the last 
3 years. I'm grateful to the Committee for recommending my 
confirmation and for the dialogue that we have had throughout 
my tenure, and I look forward to that dialogue continuing 
today.
    One of the dialogues that we have had ongoing Senator 
Nelson just raised, and that's the issue of the Next Generation 
911. The benefits of IP networks are simply not being realized 
because for far too many Americans, Next Generation 911 
networks don't exist. This not only defers the advantages of 
next-generation technologies, but it increases the risk of 911 
failure to those communities remaining on legacy 911.
    As we meet today, our old 911 networks are under attack. 
Last Saturday's Washington Post had a big article describing 
how telephone denial-of-service attacks can and have shut down 
911 networks. And the FBI and DHS are reporting record levels 
of ransomware attacks on 911 systems. There is a crisis cooking 
in our 911 networks. The decisionmaking of Congress will be 
necessary on this important public safety issue.
    Now, as has been referenced, later this month the 
Commission will vote on whether to fulfill a mandate that the 
Congress gave us 20 years ago to assure that consumers have 
competitive choice in how they access cable and satellite 
programming.
    Last February, we put forth a proposal to follow the 
statutory command of the Communications Act that, quote, The 
Commission shall adopt regulations to assure the commercial 
viability of competitive navigation capability to the satellite 
and cable services consumers pay for.
    Now, I've heard the question asked, ``Why are you doing 
this if the market is working?'' It isn't. Ninety-nine percent 
of consumers have no choice despite the statutory mandate that 
they shall have choice.
    The cable industry has been playing rope-a-dope with that 
statutory mandate for 20 years. First, they created a licensing 
body to license, but failed to license that technology, in a 
meaningful manner. Then in 2008, Comcast announced, ``The age 
of the closed proprietary set-top box is behind us; the era of 
open cable is here.'' Eight years ago. Consumers have seen 
nothing happen.
    Then in 2010, in a CTA filed in an FCC proceeding, 
``Consumers should have the option to purchase video devices at 
retail that can access their multi-channel provider's video 
services without a set-top box supplied by that provider.'' Six 
years ago, and consumers have seen nothing happen.
    A recent Harris poll showed that 74 percent of consumers 
believe set-top box rental fees are too high, and with good 
reason. One study submitted for our record found that while 
set-top box fees increased 180 percent, during that same 
period, the cost of other consumer electronics fell by 95 
percent. Yet every month, by one estimate, consumers are 
charged $1.6 billion that Congress mandated they should have an 
alternative to paying.
    For the last 7 months, we have been working with the 
affected parties to improve and simplify the original proposal. 
When the cable industry proposed a much simpler apps-based 
approach, we adopted it. We also adopted the programmers' 
suggestions to assure that copyrights and contracts are 
protected end-to-end.
    We are now at that point in the rulemaking process when 
each Commissioner reviews the work and makes his or her 
suggestions for improvement. We have demonstrated our 
willingness to make significant changes in the original 
proposal while remaining faithful to the mandate in the 
statute.
    I look forward to my colleagues' input and to working with 
them. The beauty of this Commission is the deliberative process 
in which we are now engaged.
    When the Los Angeles Times, the Hollywood hometown 
newspaper, editorialized that our proposal, ``Shows how the FCC 
can live up to that Congressional mandate while still 
protecting copyrights and saving U.S. consumers billions of 
dollars and the Commission should move forward with it,'' they 
correctly assessed how both consumers and creators are 
protected by the improvements that have been made to the 
original proposal.
    As Commissioner Rosenworcel said when we adopted the NPRM, 
``It is time, past time, to live up to our statutory 
obligations and foster the competition that consumers 
deserve.''
    Finally, Mr. Chairman, let me close by expressing how much 
I hope that Commissioner Rosenworcel will be able to continue 
to serve on the FCC. This committee knows, from her service on 
its staff, her tremendous abilities, and her depth of 
understanding of the issues before the Commission.
    As Chairman of this agency, I hope we can continue to count 
on Commissioner Rosenworcel's insights and leadership.
    Thank you very much.
    [The prepared statement of Chairman Wheeler follows:]

           Prepared Statement of Hon. Tom Wheeler, Chairman, 
                   Federal Communications Commission
Introduction
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for this opportunity to discuss our work at the 
Federal Communications Commission.
    Since we last met six months ago, the Commission has continued to 
make strong progress on our policy agenda. While I am pleased with this 
progress, our work is far from done. With each passing day, 
communications technology grows more important to our economy and 
quality of life. That means there's no letting up at the Commission. We 
must continue to promote core values like universal access, public 
safety, consumer protection, and competition at the same bold pace we 
have consistently maintained.
    This testimony recaps major developments since our March hearing, 
and highlights some key priorities as we move forward.
Key Developments
Incentive Auction
    After years of planning, and at the direction of Congress, we are 
in the midst of the historic incentive auction to make available 
greenfield low-band spectrum by repurposing a portion of the broadcast-
TV band for wireless use.
    When I last visited this Committee I noted that the auction's 
design allows for multiple stages of bidding in order to match the 
supply of spectrum from broadcasters with the demand expressed by 
wireless bidders. That process is playing out as designed. In the first 
stage of the auction we made available an initial clearing target of 
126 MHz, but the cost to clear that amount of broadcast spectrum 
exceeded the bid prices of the wireless bidders. We therefore began the 
second stage on September 13 with a reverse auction to determine the 
cost to clear a reduced amount--114 MHz--of spectrum. A second stage 
forward auction will follow the conclusion of the reverse.
    We also continue to plan for the post-auction transition and 
repacking of TV stations. The Incentive Auction Task Force will soon 
release for discussion and comment transition models to calculate the 
order and schedule of station relocation efforts. These models reflect 
the input we've received from broadcasters, wireless companies, tower 
crews, equipment manufacturers, and other stakeholders.
    Getting the transition right is as important as getting the auction 
itself right. We continue to prioritize planning for an efficient and 
effective transition with minimal disruption to the viewing public. 
With the continued engagement of industry stakeholders, that's exactly 
what we'll get.
5G--Spectrum Frontiers
    This July, the Commission unanimously adopted the Spectrum 
Frontiers Report and Order, our most significant step yet to accelerate 
the development and deployment of 5G wireless technology. This next 
generation of wireless connectivity promises quantum leaps forward in 
three key areas: speeds resembling fiber that are at least 10 times and 
maybe 100 times faster than today's 4G LTE networks; responsiveness 
less than one-thousandth of a second, which enables real-time 
communication; and network capacity multiples of what is available 
today.
    Coupling this ultra-fast, low-latency, high-capacity connectivity 
with the almost unlimited processing power of the cloud will enable 
life-saving healthcare advances, smart-city energy grid and water 
systems, immersive education and entertainment, and, most importantly, 
new applications yet to be imagined.
    By approving the Spectrum Frontiers item, the United States became 
the first country in the world to open up high-band spectrum for 5G 
networks and applications.
    We are repeating the proven formula that made the United States the 
world leader in 4G: one, make spectrum available quickly and in 
sufficient amounts; two, give great flexibility to companies that can 
use the spectrum in expansive ways; and three, stay out of the way of 
technological development. We will also balance the needs of various 
different types of uses in these bands through effective sharing 
mechanisms; take steps to promote competitive access to this spectrum; 
encourage the development of secure networks and technologies from the 
beginning; and remove unnecessary hurdles to siting and infrastructure 
deployment.
Business Data Services
    The Commission's Business Data Services proposal seeks to promote 
competition that will encourage innovation and investment. Long known 
as Special Access, Business Data Services offer the kind of dedicated 
access that wireless providers need to connect cell towers and antennas 
to their networks. Such dedicated network connections are also used by 
small businesses, retailers, banks, manufacturers, schools, hospitals, 
and universities to move large amounts of data.
    In many areas, however, competition in the supply of Business Data 
Services remains limited, and that can translate into higher prices for 
wireless networks and businesses, which then translates into higher 
prices for consumers. In April, the Commission launched its Business 
Data Services proceeding to help address this challenge.
    To seize the opportunities to increase the deployment of mobile 
networks and to move towards 5G connectivity, we're going to need a lot 
more backhaul to handle the massive increase in data traffic. Lack of 
competition doesn't just hurt the deployment of wireless networks 
today, it also threatens to delay the buildout of 5G networks with its 
demand for many, many more backhaul connections to many, many more 
antennas. And it hurts the many businesses and institutions that rely 
on these services in an ever-increasing data-driven world.
    The Commission has a long and complicated history with Business 
Data Services and the time has come for action. Reform is supported by 
the Nation's leading wireless carriers, save one, and my goal is to 
conclude this proceeding no later than the end of this year.
Set-Top Boxes
    Today, 99 percent of pay-TV consumers pay hundreds of dollars in 
set-top box rental fees on top of their monthly bill every year because 
they don't have meaningful alternatives. This February, the Commission 
launched a proceeding to assure consumer choice in the set-top box 
marketplace, as Congress mandated.
    Over the past seven months, the Commission has conducted an open 
proceeding where we heard from pay-TV providers, programmers, device 
and software manufacturers, consumers groups, and, most important, the 
American people. I was heartened to see the industry and other 
stakeholders step up to tackle the issue with constructive feedback.
    Last week, I circulated proposed rules to fulfill our Congressional 
mandate and provide consumers with choice in how they access pay-TV 
content. If adopted, consumers will no longer have to rent a set-top 
box, month after month, just to watch the programming they already pay 
for. Instead, pay-TV providers will be required to provide apps--free 
of charge--that consumers can download to a variety of devices to 
access all the programming they pay for.
    Among other consumer benefits, these rules would enable integrated 
search across different sources of content and open the door for 
innovation, spurring new apps and devices, giving consumer more choice 
and control. Expanded access to programming created by independent and 
diverse voices on the same platform as your pay-TV provider's would 
mean consumers will more easily find content that is buried behind 
guides or not available from a pay-TV provider.
    To ensure that all copyright and licensing agreements will remain 
intact and in response to feedback we received, the delivery of 
programming will continue to be overseen by pay-TV providers from end-
to-end. The proposed rules also maintain important consumer protections 
regarding emergency alerting, accessibility and privacy.
Privacy
    After months of talks with stakeholders, the Commission launched a 
proceeding in March to give consumers the tools they need to make 
informed decisions about how Internet Service Providers use and share 
their data, and confidence that ISPs are taking steps to keep that data 
secure--all while encouraging continued innovation by ISPs and other 
actors.
    For the past six months, we've been listening, learning, and 
speaking with the public to figure out the best way to achieve these 
goals. Parties engaged in this process have included--among others--
consumer and other public interest groups, fixed and mobile ISPs, 
advertisers, app and software developers, academics, other government 
actors, and individual consumers. The FTC's input has been particularly 
helpful as a key partner in consumer privacy protection.
    I am confident we'll be able to arrive at final rules that are good 
for consumers and good for innovation later this year.
Robocalls
    Robocalls are the top consumer complaint we receive at the 
Commission. Aside from simply being annoying, they are an invasion of 
privacy, and are rife with attempted, and unfortunately often 
successful, fraud and identity theft.
    The Commission has taken strong action to crack down on robocalls. 
Last summer, we closed loopholes in the Telephone Consumer Protection 
Act, ensuring that robocallers face stiff consequences when they make 
unwanted calls and send unwanted texts. More recently, we imposed 
strong consumer protections on specific debt collection robocalls. But 
TCPA enforcement only works against those robocallers we can find and 
want to play by the rules.
    This July, I wrote letters to major wireless and wireline telephone 
carriers, as well as the major gateway providers that sometimes 
transmit calls between other carriers, to say that consumers can no 
longer wait for additional tools to stop robocalls. I called on them to 
offer robust call blocking to their customers, free of charge. Industry 
responded aggressively by establishing the Robocall Strike Force, which 
is led by AT&T and includes representatives from telecommunications 
carriers, device manufacturers, operating system vendors, app 
developers, and other segments of the industry.
    On August 19, the Commission hosted the first meeting of the 
Robocall Strike Force, where they set forth an aggressive timeline of 
60 days to submit recommendations. On behalf of consumers, I am pleased 
that the Strike Force members have volunteered their time to come 
together to attack the robocall epidemic, and I look forward to the 
results in October.
Lifeline Modernization
    Three weeks after I last appeared before this Committee, the 
Commission adopted an Order to modernize the Lifeline program. Lifeline 
was established during the Reagan administration and updated during the 
second Bush administration based on one simple concept: that we must 
provide assistance so that low-income Americans can access the dominant 
communication network of the day. In the Reagan era, that was the 
telephone network. In the Bush era, that was the cell phone network. 
Today that's broadband.
    Accordingly, the first thing the Order does is to allow the support 
that the Bush administration extended to cell phone service to now be 
applied to broadband, whether wired or wireless, under the same kinds 
of conditions.
    The Order also institutes good management practices that will 
dramatically reduce waste, fraud, and abuse. We started from a strong 
foundation laid by Chairman Genachowski and Chairwoman Clyburn who 
established a database to see if Lifeline consumers were double 
dipping. Correcting this flaw in the program's earlier expansion has 
already paid off by reducing payments by over a billion dollars to 
ineligible recipients who gamed the system.
    I am proud of the work that has been done over the years to shore 
up the Lifeline program and prevent future fraud. We will continue to 
work diligently to make sure that important safeguards are in place for 
this vital program.
Open Internet Decision
    On June 14, the D.C. Circuit upheld the FCC's Open Internet Rules. 
The court's ruling is a victory for consumers and innovators who 
deserve unfettered access to the entire web, and it ensures the 
Internet remains a platform for unparalleled innovation, free 
expression, and economic growth. After a decade of debate and legal 
battles, this ruling affirms the Commission's ability to enforce the 
strongest possible Internet protections--both on fixed and mobile 
networks--that will ensure the Internet remains open, now and in the 
future.
Looking Ahead
Next-Generation 911
    During my tenure as FCC Chairman, and in my prior testimony before 
this Subcommittee, I have been very vocal about the urgent need to 
improve our 911 system. The recent tragedies in Orlando, Louisiana, and 
too many other cities highlight the importance of 911 in times of 
crisis.
    The Commission has taken action to improve the quality and accuracy 
of 911, and there is good news to report. We see industry is stepping 
up to many of the challenges, improving 911 location accuracy, 
supporting text-to-911, and generally investing to improve network 
reliability and resiliency.
    But effective 911 service depends on our Nation's 911 call centers. 
These Public Safety Answering Points, or PSAPs, must have technology to 
receive and process calls quickly, accurately locate callers, and 
dispatch an appropriate response. The unfortunate fact is that 911, 
designed originally for analog voice, doesn't scale effortlessly to the 
advanced digital, wireless, and multi-media technology landscape. In 
too many communities, the PSAPs are relying on dangerously out of date 
technology, and the transition to Next Generation 911 (NG911)--
envisioned by Congress in 1999 when it established 911 as the national 
emergency number--has not started or is stalled. Resource-strapped 
local jurisdictions struggle to maintain existing 911 service, let 
alone to achieve Congress's NG911 vision.
    Industry and many states, counties, and cities are working hard to 
address transition risk and achieve NG911 capabilities. Nearly 20 
percent of counties now support text-to-911. Many jurisdictions are 
building out their Emergency Services IP Networks--the basic backbone 
for NG911 in their communities.
    But these islands of progress are the exception, not the rule. 
Unless we find a way to help the Nation's PSAPs overcome the funding, 
planning, and operational challenges they face as commercial 
communications networks evolve, NG911 will remain beyond the reach for 
much of the Nation. Let me be clear on this point: 911 service quality 
will not stay where it is today, it will degrade if we don't invest in 
NG911.
    Congress has the unique ability to accelerate the transition to 
NG911. A clear national call to action, with timely application of 
resources, would actually lower NG911 transition costs by shortening 
the transition period and enabling 911 authorities to retire costly 
legacy facilities more quickly. Here are three ways that Congress could 
help:

        National 911 Map: PSAPs are increasingly dependent on 
        electronic maps for 911 routing and location, but the maps that 
        they rely on should not end at the county or state line. 
        Congress could authorize and fund the FCC (in collaboration 
        with DOT) to create a national 911 map that would be available 
        to every PSAP and would eliminate the seams between commercial 
        communications network infrastructure and emergency response 
        dispatch systems.

        Cybersecurity Defenses for PSAPs: PSAPs face the same cyber 
        vulnerabilities that have proven so challenging to both 
        government and commercial organizations, but most lack trained 
        workforce and the necessary tools for cyber defense. Congress 
        could bring PSAP IP Networks under the protective umbrella of 
        DHS's ``Einstein'' program by funding the deployment of 
        intrusion detection sensors for NG911 networks.

        National NG911 Implementation Date with Matching Funds: 
        Currently, there is no national timetable or target date for 
        completing the transition to NG911. Congress could establish a 
        nationwide NG911 implementation date (e.g., to complete the 
        transition by the end of 2020) and authorize matching funds to 
        help state and local communities achieve this goal. Congress 
        can further jump start this effort by ensuring that federally 
        run PSAPs and Emergency Operations Centers make achievement of 
        NG911 capability a funding priority.

    This Committee has commendably made public safety a priority, and I 
urge you to do everything in your power to make sure our Nation's 911 
system evolves safely as it adjusts to achieve your NG911 vision and 
that PSAPs have the tools and support they need to avoid undue risk in 
the transition.
Cybersecurity
    One of the most important missions of the FCC is to ensure our 
Nation's commercial communications infrastructure supports public 
safety and national security. The vulnerability of advanced 
telecommunications networks to physical and cyber-attack is not lost 
upon us. We have and will continue to work closely with industry and 
our agency partners to identify, mitigate and where possible reduce 
cybersecurity risk.
    Cybersecurity principles--availability, integrity, and 
confidentiality--are now routinely incorporated in our engagement with 
industry. Our advisory committees are doing important work tackling 
tough cybersecurity issues for current and future networks. Our 
approach is to have communication providers and their industry partners 
lead while the FCC brings useful assistance and transparency to ensure 
that this effort benefits from early peer review and serves to 
accelerate development of 5G devices and services. We believe that this 
approach will accelerate U.S. deployment of secure, reliable, and 
highly functional 5G networks.
Conclusion
    The Commission remains focused on harnessing the power of 
communications technology to grow our economy and enhance U.S. 
leadership while preserving timeless values like universal service. 
While there are disagreements about many of the issues I've outlined, 
we can all agree on the importance of the Commission's core functions 
that are critical to U.S. economy, businesses, and consumers. I look 
forward to continuing to work with members of this Committee on these 
and other matters.

    The Chairman. Thank you, Chairman Wheeler.
    With that, Commissioner Rosenworcel.

 STATEMENT OF HON. JESSICA ROSENWORCEL, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Commissioner Rosenworcel. Good morning, Chairman Thune, 
Ranking Member Nelson, and the Members of the Committee. Thank 
you for the opportunity to appear before you today.
    I'm going to start by noting what is important and what is 
obvious. We began this week on the anniversary of one of our 
darkest days. What happened 15 years ago on September 11 
changed us all. It left an indelible mark. And in my family, 
that mark is personal because one of my relatives died in the 
Twin Towers.
    But it's just as important to recognize what has not 
changed. We are resilient, we are optimistic, and we are 
strong, and I think communications networks also make us 
strong. They strengthen our economy, they give rise to digital 
age opportunity, and they support public safety. And in light 
of this week's anniversary, it's public safety that I want to 
focus on today, and specifically what can be done right now to 
improve our Nation's emergency number system.
    911 is the first telephone number I taught my children. 
It's a number that every one of us knows by heart, but none of 
us hopes to ever have to use. But use it we do. In fact, across 
the country, we call 911 over 240 million times a year, and 70 
percent of those calls are made over wireless phones. In other 
words, the vast bulk of our calls are coming into our Nation's 
911 centers over technology that the system was not designed 
for.
    This is a problem because while technology has changed so 
much in our lives, our communications systems that are used by 
our Nation's 911 call centers, they just haven't kept pace. I 
know because I visited nearly two dozen 911 call centers all 
across the country from Alaska to Arkansas, Nevada to New 
Jersey, California to Colorado, and a whole bunch of places in 
between.
    And it's not that work isn't being done. In the last 2 
years alone, the FCC has put in place policies to facilitate 
texting to 911. We've devised a framework to improve the 
ability of 911 call centers to be able to locate callers using 
wireless phones, and this is progress.
    But what comes next is so much bigger because Next 
Generation 911 services can support a whole range of data and 
video communications. So for those who call in an emergency, it 
will mean the opportunity to offer real-time video from an 
accident, it will mean the ability to provide first responders 
with an instantaneous picture of a fleeing suspect or emergency 
incident, which can especially help rural public safety 
officials prioritize and deploy limited resources.
    But to remake the Nation's 911 system to fully reflect the 
digital age takes funding. And historically, supporting our 
Nation's 6,000 911 call centers has been strictly a local 
affair. There is no national program or annual Federal revenue 
source. But, still, there are two things we can do right now to 
kick-start local 911 modernization.
    First, we need to end fee diversion. Approximately $2.5 
billion is collected each year by local and state authorities 
to support 911 service, and those funds, they're typically a 
small line item on your phone bill. But not all states follow 
through and actually use the dollars collected from that line 
item for 911 purposes. In fact, in the last year for which the 
FCC has data, eight states transferred funds collected for 911 
for other purposes, including things that have nothing to do 
with public safety. In fact, in the past, some of those have 
used these funds for overtime pay for state workers and dry 
cleaning services for state agencies. This has to stop.
    Second, tucked in the Middle Class Tax Relief and Job 
Creation Act of 2012 is another way to jolt-start 911 
modernization. As you know, this legislation authorized a 
series of wireless spectrum auctions that are being run by the 
FCC. And these auctions, which are still ongoing, have already 
raised enormous sums. A portion of those funds, $115 million, 
was set aside by Congress for a grant program to help support 
Next Generation 911, but somehow this program has stalled and 
is yet to begin more than 4 years after Congress passed this 
legislation.
    It's time to get this program up and running. It's the best 
near-term and national resource we have to put Next Generation 
911 in place. And while those funds are limited, they can have 
broad impact if we use them wisely and fund projects that can 
be a blueprint for updating 911 in communities nationwide, and 
when we do, those states that are shortchanging their own 911 
programs with fee diversion, they should be at the end of the 
line.
    Thank you. I look forward to answering any questions you 
might have.
    [The prepared statement of Commissioner Rosenworcel 
follows:]

     Prepared Statement of Hon. Jessica Rosenworcel, Commissioner, 
                   sFederal Communications Commission
    Good morning, Chairman Thune, Ranking Member Nelson, and members of 
the Committee. Thank you for the opportunity to appear before you along 
with my colleagues at the Federal Communications Commission.
    Let me begin by noting what is important and obvious. We began this 
week on the anniversary of one of our darkest days. What happened 
fifteen years ago on September 11 changed us all. It left an indelible 
mark. In my family, that mark is personal--because one of my relatives 
died in the Twin Towers.
    But it is also important to identify what has not changed. We are 
resilient. We are optimistic. We are steadfast in our shared 
determination to move forward as individuals and as a Nation--because 
that is what makes us strong.
    Communications networks make us strong. They strengthen our 
economy, give rise to digital age opportunity, and support public 
safety. In light of this week's anniversary, it is public safety I want 
to focus on today--and specifically what can be done right now to 
improve our Nation's emergency number system.
    911 is the first telephone number I taught my children. It is a 
number that every one of us knows by heart but every one of us hopes 
that we will never have to use. But use it we do. In fact, across the 
country we call 911 240 million times a year. More than 70 percent of 
those calls come from wireless phones rather than traditional landline 
phones. That means that the bulk of our emergency calls come over a 
different technology than the 911 system was designed to use.
    This is a problem. Because while technology has changed so much in 
our lives, the communications systems used by our Nation's 911 call 
centers have not fully kept pace. I know--because I have seen this 
firsthand in the nearly two dozen 911 call centers I have visited all 
across the country--from Alaska to Arkansas, California to Colorado, 
Nevada to New Jersey, Vermont to Virginia and many more places in 
between.
    It's not that work is not being done. In the last two years alone, 
the Commission has put in place policies to facilitate texting to 911. 
We have devised a framework to improve the ability of 911 call centers 
to identify the location of emergency calls made from wireless phones.
    This is progress. But what comes next is even bigger. Next 
Generation 911 services can support a whole range of data and video 
communications. For those who call in an emergency, it will mean the 
opportunity to offer real-time video from an accident. It will mean the 
ability to provide first responders with instantaneous pictures of a 
fleeing suspect or emergency incident, helping rural public safety 
officials prioritize and deploy limited resources. These capabilities 
can make public safety both more effective and more responsive.
    But to remake the Nation's 911 systems to fully reflect the digital 
age takes funding. Historically supporting our nations roughly 6,000 
911 call centers has been a local affair. There is no national program 
or annual Federal revenue source. But, still, there are two things this 
Committee can do to kick-start local 911 modernization.
    First, we need to end fee diversion. Approximately $2.5 billion is 
collected each year by local or state authorities to support 911 
service. These funds are typically from a small line item on our phone 
bills identified as support for 911 service. But not all states follow 
through and actually use these funds for 911 purposes. In fact, in the 
last year for which the Federal Communications Commission has data, 
eight states transferred funds collected for 911 to other purposes--
including uses that have nothing to do with public safety. In the past, 
some of those uses have included overtime pay for state workers and dry 
cleaning services for state agencies. This has to stop.
    Second, tucked into the Middle Class Tax Relief and Job Creation 
Act of 2012 is a way to kick-start 911 modernization. As you know, this 
legislation authorized a series of wireless spectrum auctions. These 
auctions, which are still ongoing, have raised billions--and the 
proceeds are dedicated to some initiatives that get a lot of attention, 
like establishing the First Responders Network Authority, assisting the 
relocation of broadcasters in the 600 MHz band, and reducing the 
deficit. But there is one program these spectrum auctions fund that has 
not yet gotten the glory it deserves--a program for Next Generation 
911.
    Section 6503 reinstates the joint 911 Implementation Office and 
authorizes a $115 million grant program to update 911. You might be 
familiar with it--because this Committee helped develop this 
legislation. But this program has stalled and has yet to begin more 
than four years after Congress authorized its creation.
    It is time to get this program up and running. It is the best near-
term and national resource we have to help put Next Generation 911 in 
place. While these funds are limited, they can have broad impact if we 
use them wisely and fund Next Generation 911 projects that can be a 
blueprint for updating services in communities nationwide. And when we 
do--states that are short-changing their own 911 programs with fee 
diversion should be at the end of the line.
    Thank you. I will be happy to answer any questions you might have.

    The Chairman. Thank you, Commissioner Rosenworcel.
    Commissioner Pai.

           STATEMENT OF HON. AJIT PAI, COMMISSIONER, 
               FEDERAL COMMUNICATIONS COMMISSION

    Commissioner Pai. Chairman Thune, Ranking Member Nelson, 
Members of this Committee, thank you for holding this hearing 
and giving me the opportunity to testify this morning.
    Since 2012, it has been a privilege to work alongside you 
on issues as varied as broadband deployment and freeing up more 
spectrum for consumer use.
    In my opening statement, I would like to build upon the 
sentiments expressed by the Chairman and the Ranking Member in 
their opening statements, sentiments that I share. In 
particular, I would like to focus on four issues where I think 
we can reach a bipartisan consensus and benefit the American 
people. This committee and its Members have shown tremendous 
leadership on many of these issues.
    The first is ensuring direct access to 911. Earlier this 
year, Senators Fischer and Klobuchar, along with Senators 
Cornyn, Cruz, and Schatz, introduced the Kari's Law Act of 
2016. This bill would require that all multi-line telephone 
systems sold, leased, or installed in the United States will 
allow direct 911 calling as the default setting. It would 
ensure that calling 911 always works. I hope that this worthy 
legislation becomes law soon.
    Second, I want to commend, among others, my home state 
Senators, Senators Roberts and Moran, for introducing the 
Kelsey Smith Act. This bill would help law enforcement to 
locate wireless 911 callers in emergencies by ensuring that 
they have critical access to location information. It is 
inspired by the sad story of 18-year-old Kelsey Smith, whose 
parents I had the opportunity to meet earlier this year.
    Days after she graduated from high school, Kelsey was 
kidnapped in Overland Park, Kansas. Almost four excruciatingly 
long days later, law enforcement found Kelsey's body. She had 
been raped, killed, and left about 20 miles from where she had 
been abducted.
    It never should have taken that long to find Kelsey. She 
had her cell phone with her, but her family, local law 
enforcement, and even the FBI were not able to get the cell 
phone's geographic coordinates from her carrier for days. Once 
they did get that information, it took law enforcement 
approximately 45 minutes to locate her body.
    We already know that the law that bears her name works. 
Over 20 states have enacted similar bills, and they've helped 
locate victims and saved lives. I heard for myself firsthand 
from law enforcement that a 5-month-old baby in my home state 
of Kansas was saved as a result of this solution.
    I hope that a bipartisan compromise can be reached that 
would allow this Federal Kelsey Smith Act to be enacted.
    I'll turn next to spectrum, an area where this committee 
has been leading. In particular, I want to commend the Chairman 
and the Ranking Member on the introduction of the MOBILE NOW 
Act and this committee for passing it.
    I'm especially grateful to you for asking the FCC to move 
forward on opening up spectrum above 24 gigahertz in what are 
known as the millimeter-wave bands. As your legislation 
recognizes, opening up these bands is going to be a key part of 
our 5G future and a critical input into American leadership in 
this space.
    Thanks in no small part to your efforts, the FCC recently 
expanded its millimeter-wave proceeding to include over 17 
gigahertz of additional spectrum. Many of these bands were 
identified in the MOBILE NOW Act. I'm glad that we reached a 
bipartisan agreement on this issue at the FCC, and I hope we 
move quickly to reach a final resolution to this part of the 
proceeding.
    Finally, I would like to touch on another area where I hope 
that the Commission can move quickly and in a bipartisan 
manner. It involves something called ATSC 3.0, which is the 
next-generation broadcast standard.
    In April, broadcasters and the consumer electronics 
industry filed a petition asking the FCC to give broadcasters 
the option of using this next-generation standard. In turn, we, 
the FCC, asked for input on ATSC 3.0, and the result was clear: 
widespread support.
    There is no dispute that this next-generation broadcast 
standard will allow broadcasters to provide better service to 
the American people. It will be easier for consumers, for 
instance, to watch over-the-air programming on their mobile 
devices. Picture quality will improve. And broadcasters will be 
able to provide advanced emergency alerts with localized 
information and much greater amounts of data.
    I believe it's important for the FCC to act with dispatch 
on this petition. Just as America is leading the way on mobile 
technologies, such as 5G, so, too, we should be at the 
forefront of innovation in the broadcast space. I therefore 
hope that the FCC will issue a Notice of Proposed Rulemaking on 
ATSC 3.0 no later than the end of this year.
    Chairman Thune, Ranking Member Nelson, Members of the 
Committee, thank you once again for giving me this opportunity 
to testify. I look forward to answering your questions and 
continuing to work with you and your staffs in the time ahead.
    [The prepared statement of Commissioner Pai follows:]

          Prepared Statement of Hon. Ajit Pai, Commissioner, 
                   Federal Communications Commission
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for giving me the opportunity to testify this 
morning. Since 2012, it has been an honor to work with you on a wide 
variety of issues, from encouraging broadband deployment in rural 
America to freeing up more spectrum for consumer use.
    These days, we hear a lot about communications issues that engender 
vigorous disagreement, often along partisan lines. In my testimony, 
however, I want to focus on five important issues where we can reach 
consensus in the short term and benefit the American people. This 
Committee and its Members have shown tremendous leadership in many of 
these areas.
    The issues I will focus on are: (1) ensuring direct dial 911; (2) 
helping law enforcement locate 911 callers in emergencies, (3) freeing 
up 5 GHz spectrum for the next generation of unlicensed use; (4) 
opening up spectrum bands above 24 GHz for 5G and other innovative 
wireless technologies, and (5) moving forward with ATSC 3.0, the next-
generation broadcast standard.
    I'll start with the two public safety issues.
    Direct Dial 911.--Ensuring direct access to 911 is important both 
to me and the Members of this Committee. Earlier this year, Senators 
Deb Fischer and Amy Klobuchar, along with Senators John Cornyn, Ted 
Cruz, and Brian Schatz, introduced The Kari's Law Act of 2016. I 
commend those Senators for their leadership.
    Many people now know the tragedy that inspired this legislation. In 
December 2014, Kari Rene Hunt Dunn was attacked and killed by her 
estranged husband in a Marshall, Texas, hotel room. Her nine-year-old 
daughter, who was with her, tried calling 911 four times as she had 
been taught to do. But her calls for help never went through. That's 
because the hotel's phone system required guests to dial a ``9'' before 
calling 911.
    When I learned about this nearly three years ago now, I started an 
inquiry into the status of 911 dialing at properties across the country 
that use multi-line telephone systems. I wanted to understand the scope 
of the problem and what we could do to fix it. At the time, I gave 
Kari's father, Hank Hunt, my personal commitment that I would do my 
best to ensure that no one would ever again confront that situation.
    Hank has been a tireless advocate for this cause. And significant 
progress has been made.
    But the job isn't done. The Kari's Law Act of 2016 would take us 
one step closer to accomplishing Hank's mission. It would require that 
all multi-line telephone systems sold, leased, or installed in the 
United States allow direct 911 calling as the default setting. So I 
applaud the efforts of Hank, Members of this Committee, and the many 
others who are making a difference on this issue. Indeed, since I last 
testified before this Committee, the Committee approved Kari's Law as a 
part of the FCC Reauthorization Act of 2016 and the U.S. House of 
Representatives passed its own version of Kari's Law. So I hope that 
this bill soon becomes law.
    Locating 911 Callers.--The sad story of Kelsey Smith highlights 
another important step that can be taken to improve public safety.
    Days after she graduated from high school, minutes after she got 
off the phone with her mother, and seconds after she bought an 
anniversary present for her boyfriend, 18-year-old Kelsey Smith was 
kidnapped. She was abducted in broad daylight as she got into her car 
outside a department store in Overland Park, Kansas. Almost four 
excruciatingly long days later, law enforcement found Kelsey's body. 
She had been raped and then strangled to death. Her body was left in a 
wooded area about 20 miles from where she was abducted.
    It never should have taken that long to find Kelsey. She had her 
cellphone with her, so her wireless carrier knew her location. Kelsey's 
family, local law enforcement, and even the FBI asked that company to 
help them find Kelsey by supplying the cellphone's geographic 
coordinates. There was no question that this was an emergency--
surveillance video showed a man running up behind Kelsey and forcing 
her into a car--but days passed before the company agreed to provide 
the phone's location.
    Once they got that information, law enforcement took approximately 
45 minutes to locate her body.
    As a parent, I cannot imagine the pain that Melissa and Greg Smith, 
Kelsey's parents, have endured. As Melissa has put it, ``What does a 
parent go through when a child is missing? You do not eat because you 
do not know if your child is eating. You do not sleep because you 
wonder if they are sleeping. It is pure hell.'' And of course, no 
parent should ever have to bury a child.
    It would be completely understandable if the Smiths decided to 
grieve privately over such a terrible crime. But they chose a different 
path--a public one. They became national advocates for change.
    This is where the Kelsey Smith Act, sponsored by Kansas Senators 
Pat Roberts and Jerry Moran, among others, comes into play.
    Right now, Federal law doesn't prohibit telecommunications 
companies from providing location information to the police in actual 
emergencies. But, as Kelsey's parents discovered, it doesn't require 
them to do so, either. So companies take different approaches. 
Sometimes they provide the information, sometimes they don't. Sometimes 
they respond quickly, sometimes they don't. This inconsistent approach 
puts lives at risk.
    We know that this bill can make a difference. The Kelsey Smith Act 
is currently the law in over 20 states. And it is already helping law 
enforcement save lives. For example, one month after it passed in 
Tennessee, police obtained location information in time to rescue a 
child who had been kidnapped by a suspected child rapist. Back in 
Kansas, not far from where Kelsey grew up, police officials told me how 
they invoked the law to quickly track down and save a 5-month-old baby 
who was strapped into the back seat of a vehicle that had been 
carjacked. Luckily, the mother's cellphone was in the stolen car; 
police used that phone's location information to find the vehicle and 
the baby, who miraculously was sleeping peacefully in the back seat.
    To ensure that these successes become the norm across the country, 
I hope that a bipartisan compromise can be reached in order to help the 
Kelsey Smith Act become law.
    I'll turn next to two spectrum issues that this Committee has been 
considering.
    5 GHz Band.--I want to thank the Committee for its leadership in 
identifying and drawing attention to the 5 GHz band, a band ideally 
suited for unlicensed use. The Spectrum Act, which was signed into law 
four years ago, called on the FCC to begin the administrative process 
for opening up the 5 GHz band. The FCC did that in 2013.
    Since then, Senators Marco Rubio and Cory Booker have introduced 
the Wi-Fi Innovation Act. This bill has helped kept the 5 GHz band 
front and center in our spectrum discussions. And the efforts of 
Chairman Thune and others have also played key roles in helping to move 
the ball forward on this part of the 5 GHz band. I applaud those 
efforts.
    Taken together, in the U-NII-4 band as well as the lower, U-NII-2B 
band, there are up to 195 MHz of spectrum that the FCC could open up 
for consumer use. It is not hyperbole to say that this could transform 
the wireless world. For this spectrum is tailor-made for the next-
generation of unlicensed use. Its propagation characteristics minimize 
interference in the band, and the wide, contiguous blocks of spectrum 
allow for extremely fast connections, with throughput reaching one 
gigabit per second. The technical standard to accomplish this, 
802.11ac, already exists, and devices implementing it are already being 
built. All of this means we can rapidly realize the benefits of more 
robust and ubiquitous wireless coverage for consumers, more manageable 
networks for providers, a new test bed for innovative application 
developers, and other benefits we can't even conceive today.
    So the FCC needs to open up these bands for consumer use. While the 
FCC recently issued a public notice that seeks to refresh our 
rulemaking record, I would have liked to see the Commission move more 
quickly in this proceeding. Indeed, I have been calling on the FCC to 
open these bands up since 2012. Both Qualcomm, through its re-
channelization approach, and Cisco, through its detect-and-avoid 
proposal, have identified paths forward. I hope the agency gets this 
proceeding across the finish line, and soon.
    Spectrum Above 24 GHz.--I want to commend Chairman Thune and 
Ranking Member Nelson on the introduction of the MOBILE NOW Act and 
this Committee for passing it. In particular, I commend you for calling 
on the FCC to move forward on opening up millimeter-wave bands for 
mobile use. Your efforts are already paying dividends.
    Not long ago, most would have thought of the millimeter wave bands 
as dead zones when it came to mobile services. After all, nearly all 
commercial mobile networks operate in frequencies below 3 GHz. But, as 
has been the hallmark of the communications sector, engineers are 
finding a way and technology is advancing.
    Companies are now investing heavily in mobile technologies that 
rely on spectrum above 24 GHz as part of their work on 5G mobile 
technologies. Over a year ago, I visited Samsung's 5G research lab near 
Dallas, Texas. There, engineers are hard at work developing base 
stations and mobile technologies that are crossing into these spectrum 
frontiers. Their experiments with multiple-input, multiple-output 
antennas no bigger than a Post-it note have already demonstrated that 
5G technologies can use millimeter wave bands to deliver mobile speeds 
in excess of 1 gigabit per second.
    More recently, I attended Intel's demonstration of its millimeter 
wave technology at the FCC's headquarters. It showed how spectrum above 
24 GHz can be used to beam signals off tables, buildings, or other 
objects to find the most efficient, highest-capacity connection between 
a base station and mobile user. These and many other efforts will 
enable consumers to enjoy the next generation of wireless connectivity.
    What is the FCC's role here? In my view, we should put a framework 
in place that will allow 5G to develop in the United States as quickly 
as the technology and consumer demand allow. The U.S. has led the world 
in 4G, and there is certainly a lot of running room left with LTE and 
LTE-Advanced. But we must continue to lead as mobile technologies 
transition to 5G. The key is to make sure that the FCC does not become 
a regulatory bottleneck or send signals that would lead companies to 
focus their research and investments abroad.
    Thanks, I believe, in no small part to your efforts, the FCC 
recently expanded our millimeter wave proceeding to include over 17 GHz 
of additional spectrum bands--many of which are bands that were 
identified for further study in the MOBILE NOW Act.
    I'm glad to see that the Commission is looking to move these 
massive swaths of spectrum into the marketplace. I hope those efforts 
bear fruit and that the Commission will move quickly to bring this part 
of our proceeding to an order.
    Next-Generation Broadcast Standard.--Another area where I hope that 
the Commission can move forward quickly in a bipartisan manner involves 
ATSC 3.0, the next-generation broadcast standard. In April, 
broadcasters and the consumer electronics industry filed a petition for 
rulemaking with the Commission asking the FCC to provide broadcasters 
with the option of using the next-generation broadcast standard.
    The Commission sought comment on this petition, and following the 
close of comments in late June, there was widespread support for it. 
There is no dispute that the next-generation broadcast standard will 
allow broadcasters to provide better service to the American people. 
Consumers will easily be able to watch over-the-air programming on 
mobile devices. Picture quality will improve with 4K transmissions. 
Accurate sound localization and customizable sound mixes will produce 
an immersive audio experience. And broadcasters will be able to provide 
advanced emergency alerts with localized information and greater 
amounts of data.
    I believe that it is important for the Commission to act with 
dispatch. Just as the United States is leading the way on 5G in the 
mobile space, so too should we be at the forefront of innovation in the 
broadcast space. Other countries aren't standing still. Earlier this 
year, for example, South Korea adopted the ATSC 3.0 standard, and ATSC 
3.0 broadcasters are scheduled to begin there in February 2017. We 
should get moving, too.
    I therefore hope that the Commission will issue a Notice of 
Proposed Rulemaking on ATSC 3.0 no later than the end of this year. Put 
simply, the FCC should not stand in the way of innovation. This is 
especially true because all we are talking about is giving broadcasters 
the option of using ATSC 3.0. No one would be required to do so. Let's 
allow broadcasters who wish to move forward with ATSC 3.0 pursue this 
pro-consumer path as quickly as possible.
                                  ***
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you once again for holding this hearing and allowing 
me the opportunity to testify. I look forward to answering your 
questions, listening to your views, and continuing to work with you and 
your staff in the days ahead.

    The Chairman. Thank you, Commissioner Pai.
    Commissioner O'Rielly.

   STATEMENT OF HON. MICHAEL O'RIELLY, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Commissioner O'Rielly. Thank you, Chairman Thune, Ranking 
Member Nelson, and the Members of the Committee for the 
opportunity to participate in the Committee's oversight of the 
FCC.
    As I have stated before, while fundamental differences 
remain on many matters, individual Commissioners still seek to 
find areas of agreement. Today I will focus on just three 
issues, but look forward to answering all of your questions.
    First, 5G and wireless infrastructure. The enormous 
functionality of worldwide wireless services has helped 
cultivate an insatiable demand for even more. This development 
has helped produce a global race among certain countries to be 
the world leader in the market for the next iteration of 
wireless services, commonly referred to as 5G. If successful, 
it could effectively produce a type of wireless fiber with 
amazing speeds, enormous capacity, and infinitesimal latency.
    Thankfully, the United States is on an accelerated pace to 
bring 5G to American consumers and help shape the global 
marketplace for these services for the next decade or two. My 
colleagues deserve credit for an expedited bipartisan effort to 
make the requisite bandwidth available. My effort was to push 
to successfully conclude the adoption of four spectrum bands 
and to expand the spectrum review to new additional bands.
    Standing in the way of progress, however, are some 
localities, tribal governments, and states seeking to extract 
enormous fees for providers and operating siting review 
processes that are not conducive to a quick and successful 
deployment schedule. At some point, the Commission may need to 
exert authority provided by Congress to preempt the activities 
of those delaying 5G deployment without justifiable reasons.
    Switching topics to the Commission's consideration of the 
new set-top box rules, Chairman Wheeler recently circulated an 
order based on a new apps-centric alternative, an approach that 
I have advocated for as a realization of the direction of the 
current marketplace.
    I should state that I appreciate that the Chairman and his 
team jettisoned the previous NPRM model, but the new effort 
comes with its own baggage. Instead of embracing the video 
distributors' filed proposal, the latest version adds 
complicated and flawed provisions to that offer, effectively 
threatening and undermining the viability of the entire apps 
approach.
    The proposed rule would ultimately set the Commission up as 
an arbiter of a compulsory license, which the Copyright Office 
confirmed we have no authority to do. And although the proposal 
is touted to leave programming contracts between MVPDs and 
programmers intact, MVPDs would be prohibited from signing 
contracts with programmers that would create unreasonable 
limits on consumer access, complete with a convenient starter 
list of terms that would be allowed, some that would be 
unquestionably unreasonable, and, of course, a wide gray space 
in between. This draft is unacceptable in my opinion.
    My last issue is the Commission's overall functionality. 
During my time at the Commission, I have highlighted certain 
shortcomings in the Commission's processes. I certainly believe 
that there are better ways to operate the Commission that would 
not jeopardize the prerogative or power of the Chairman, 
whoever that may be.
    To facilitate this, I have given speeches, testified, 
written blogs, and discussed at length the many steps the 
Commission can take to correct bad practices and improve 
general operations. Unfortunately, little has been accomplished 
to make these or other changes, notwithstanding Chairman 
Wheeler's public comments, in favor of many of my suggestions.
    Process reforms are necessary at the Commission, and if the 
Commission won't fix itself, I hope Congress will continue to 
review the subject.
    Thank you, and I look forward to engaging with you on these 
subjects and others as well.
    [The prepared statement of Commissioner O'Rielly follows:]

      Prepared Statement of Hon. Michael O'Rielly, Commissioner, 
                   Federal Communications Commission
    Thank you, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee for the opportunity to participate in the Committee's FCC 
oversight process. Since our last visit in March, a lot has occurred at 
the Commission and more difficult issues are expected in the coming 
months. As I have stated somewhat before, while fundamental differences 
remain on many matters, individual Commissioners still seek to find 
some areas of agreement. Today, I will focus on just three issues, but 
look forward to answering all of your questions.
5G and Wireless Infrastructure
    The enormous functionality of worldwide wireless services has 
helped cultivate an insatiable demand for even more. Consumers want 
increased mobility and now expect to be able to use their wireless 
devices for additional purposes, meaning the applicable industries and 
governments cannot rest on their respective laurels. This development 
has helped produce a global race among certain countries to be the 
world leader in the market for the next iteration of wireless services, 
commonly referred to as 5G. If successful, it could effectively produce 
a type of ``wireless fiber'' with amazing speeds, enormous capacity and 
infinitesimal latency.
    Thankfully, the United States is on an accelerated pace to bring 5G 
to American consumers and help shape the global marketplace for these 
services for the next decade or two. My colleagues deserve credit for 
an expedited, bipartisan effort to make the requisite bandwidth 
available. My effort was to push to successfully conclude adoption of 
four spectrum bands and to expand the spectrum review to new, 
additional bands. In short order, the Commission was able to move from 
draft proposal to relatively reasonable final rules, including the 
framework for the upcoming spectrum auctions to be held in the near 
future, but more issues are being considered as part of the further 
notice.
    Despite this, the Commission can only create a climate for future 
success and deployment of 5G. The real work, and ultimate overall 
success of this effort, will depend on the private sector 
participants--our nation's wireless providers. And they seem ready to 
do their part to champion this opportunity. They have done the 
research, conducted the testing, established pilot markets and are on 
the verge of commercially deploying 5G services in the years ahead. 
Hopefully, these efforts will not be waylaid by other Commission 
actions.
    One area that the Commission, and perhaps Congress, can provide 
greater assistance is removing barriers to the wireless infrastructure 
necessary to deploy 5G. As I have previously outlined, experts estimate 
that the propagation capabilities (short distances) will require a ten-
fold or greater siting of wireless towers and antennas. Some have 
argued that we may see a million new small cells and DAS antennas 
deployed in the next five years. All of this infrastructure can't be 
sited without approval of decision makers, including private land 
owners and municipal managers.
    Standing in the way of progress, however, are some localities, 
Tribal governments and states seeking to extract enormous fees from 
providers and operating siting review processes that are not conducive 
to a quick and successful deployment schedule. At some point, the 
Commission may need to exert authority provided by Congress to preempt 
the activities of those delaying 5G deployment without justifiable 
reasons.
Set-Top Boxes
    Seven months ago, on a 3-2 vote, the Commission stretched our 
statutory authority beyond recognition to produce a troubled NPRM in 
the name of ``unlocking the box.'' Since then, significant concerns and 
fundamental objections to the Commission's approach were raised almost 
daily. Not surprisingly, the proposal previously circulated was exposed 
as unworkable and inadvisable. Accordingly, Chairman Wheeler has 
circulated an order based on a new apps-centric alternative, an 
approach that I have advocated for as a realization of the direction of 
the current marketplace. I should state that I appreciate that the 
Chairman and his team jettisoned the failed NPRM model, but the new 
effort comes with its own baggage. Instead of embracing the video 
distributors' filed proposal, the latest version adds complicated and 
flawed provisions to that offer, effectively threatening and 
undermining the viability of the entire apps-based approach.
    Fundamentally, the video marketplace has expanded radically since 
Congress enacted section 629. Innovation spurred by fierce competition 
is bringing many new options to the table, and prompting pay-TV 
providers to develop their own mobile apps, all without a set-top box 
anywhere to be seen. But as the market innovates past the Commission's 
limited section 629 jurisdiction, my colleagues have reinterpreted that 
provision to shut down all this experimentation and force the modern 
video marketplace into a mandatory new framework that is likely both 
illegal and infeasible.
    The proposed rule would ultimately set the Commission up as arbiter 
of a compulsory license, which the Copyright Office confirmed we have 
no authority to do under current law. Though the Commission has stated 
that the one-size-fits-all Model License would be developed by an 
outside licensing body established by MVPDs and content providers, the 
proposed language is clear that the job of this licensing body is 
merely to develop recommendations for a consensus license, 
recommendations that the Commission may accept, micromanage, or retool 
at will. Actually, since the authority is delegated to the Media 
Bureau, it is not even the Commissioners that will make the decisions. 
And although the proposal is touted to leave programming contracts 
between MVPDs and programmers intact, MVPDs would be prohibited from 
signing contracts with programmers that would create ``unreasonable'' 
limits on consumer access, complete with a convenient starter list of 
terms that would be allowed, some that would be ``unquestionably 
unreasonable,'' and of course a wide gray space in between.
    Meanwhile, when you look at the magnitude and the constraints of 
the actual project being demanded, it is highly unlikely that it can 
even be accomplished, given unlimited time and resources, let alone in 
two years and with the resource demands of a highly competitive 
industry. The proposal requires that every MVPD create a separate 
working app for every widely deployed operating system that receives or 
displays video programming. How many would that be just to start? Roku, 
Amazon, Google, Android, AppleTV and Apple iOS, Windows, TiVo . . . 
Blackberry? Linux? And here is the key: each of these apps must provide 
the exact same functionality as a set-top box provided by the MVPD. 
Given the differences in standards and capabilities among different 
devices, not to mention among different set-top box options provided by 
each MVPD, this seems like a heavy lift to say the least.
    I look forward to continuing the dialogue with my colleagues on 
this issue, but I remain skeptical, given my experiences with the NPRM, 
that my views will be welcome or fully considered.
Process Reform
    During my time at the Commission, I have highlighted certain 
shortcomings in the Commission's processes. I simply believe that there 
are better ways to operate the Commission that would not jeopardize the 
prerogative or power of the Chairman, whoever that may be. To 
facilitate this, I have given speeches, testified, written blogs and 
discussed at length many steps the Commission can take to correct bad 
practices and improve general operations. Unfortunately, little has 
been accomplished to make these or other changes, notwithstanding 
Chairman Wheeler's public comments in favor of many of my suggestions. 
In sum, the Process Review Task Force, created by the Chairman, has 
failed to deliver and practically no procedural changes have been 
permitted.
    The lack of action on these improvements runs counter to a process 
reform just issued last week by the Chairman pertaining to the disposal 
of personnel matters. Without getting into the substance, the Chairman 
contemplated, decided and declared a new procedure for addressing 
personnel changes that he believes are taking too long. Specifically, 
the Commission will now vote on these items at its monthly Open 
Meetings, without discussion or comment.
    One telling thing from this new procedural decree is how fast it 
was issued and without any input from my colleagues or me. The Chairman 
issued the new memorandum that established the new procedures. There 
was no internal review task force where Commissioners were asked their 
opinion and debate was allowed. It begs the question, why can't the 
Chairman adopt the many process review ideas I have proposed--at least 
the ones that he is in agreement with--as quickly? In other words, if 
the Chairman has such unilateral power to change the Commission's rules 
at will, why can't this be used to implement the process review changes 
I have suggested?
    Thank you, and I look forward to engaging with you on these issues 
and others.

    The Chairman. Thank you, Commissioner O'Rielly.
    Commissioner Clyburn.

  STATEMENT OF HON. MIGNON L. CLYBURN, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Commissioner Clyburn. Chairman Thune, Ranking Member 
Nelson, and Members of the Committee, good morning. Please 
excuse the red eye. Despite an overnight flight that arrived 
about 6:57 a.m. out at Dulles, know that I am honored to be 
here and thankful for the opportunity to outline my vision--the 
vision is blurred, though----
    [Laughter.]
    Commissioner Clyburn.--for bringing robust, affordable, and 
ubiquitous connectivity to all Americans.
    There is much to report in the 6 months since I last 
testified before this committee. In April, I launched my 
Connecting Communities Tour, a concept formed out of a desire 
to see and hear from rural and urban communities as well as 
those with and without connectivity.
    Just last month, I visited New Mexico, where I joined 
Senator Udall for a roundtable discussion on expanding 
broadband access.
    In the days following my visit, I heard from Randy, a 
software developer from Edgewood, New Mexico. Despite living 
just 20 miles east of Albuquerque, his fastest option for fixed 
broadband is 7.5 megabits per second at a price of around $62 
per month. In his letter, he described broadband as a cold, 
hard necessity in the digital age.
    Unfortunately, my experience in traveling the country has 
demonstrated that Randy's story is not unique. When my 
Connecting Community Tour wraps up on October 19, with a 
solutions-focused policy at Georgetown University, I will have 
visited 10 states, including Arizona, California, Colorado, 
Massachusetts, New Mexico, New York, Pennsylvania, South 
Carolina, of course, Washington, and West Virginia.
    I am also excited to share that the Commission with tee up 
a Notice of Proposed Rulemaking later this month, which stems 
from our inquiry on independent programming. Following more 
than 36,000 filings from our prior Notice of Inquiry, the 
Commission has built a record that shows there are real 
challenges facing independent programmers. For consumers, this 
can mean higher monthly programming costs as well as 
restrictions that limit their ability to watch their favorite 
content through online platforms.
    Third, the Commission, through its Connect2Health Task 
Force, continues to focus on the intersection of broadband and 
health policy. Just last month, we launched our new broadband 
health mapping tool, which allows Federal, State, and local 
agencies, as well as the private sector, to examine the 
relationship between connectivity and health at the local 
level, identify current issues, and develop future solutions to 
address connectivity gaps and promote positive health outcomes.
    From this initiative, we have learned that rural counties 
are 10 times more likely than urban areas to have low broadband 
access and higher rates of diabetes. Similarly, the neediest 
counties when it comes to the intersection of broadband and 
health are concentrated in the South and Midwest. Knowing this 
information will help both the public and private sectors 
target limited resources to improve infrastructure and deploy 
connected health technologies.
    Finally, I believe the Commission is on the cusp of 
something big when it comes to the deployment of 5G wireless 
services. We have seen the need for mobile data continue to 
grow as more American consumers take advantage of their 
smartphones and tablets in ways unheard of even a few years 
ago.
    Opening up spectrum above 24 gigahertz is just the next of 
many steps in the path toward 5G technologies. As we move into 
this new age of increased connectivity, it is essential that 
those who live in rural and high-rent urban areas are part of 
this new frontier and that industry and government work 
together to make sure to narrow, rather than widen, the digital 
divide in this country.
    Thank you once again for allowing me to share my priorities 
with you this morning. And I look forward to answering any 
questions you may have.
    [The prepared statement of Commissioner Clyburn follows:]

      Prepared Statement of Hon. Mignon L. Clyburn, Commissioner, 
                   Federal Communications Commission
    Chairman Thune, Ranking Member Nelson and Members of the Committee, 
good morning and thank you for the opportunity to outline my vision for 
bringing robust, affordable and ubiquitous connectivity to all 
Americans. There is much to report in the six months since I last 
testified before this Committee.
#ConnectingCommunities
    In April, I launched my #ConnectingCommunities Tour, a concept 
formed out of a desire to see and hear from rural and urban communities 
as well as those with and without connectivity. Just last month, I 
visited New Mexico, where I joined Senator Udall for a roundtable 
discussion on expanding broadband access. We discussed how costly it is 
to deploy services, particularly on Native lands. Even in places where 
broadband is deployed, the lack of internal infrastructure amongst 
anchor institutions like a school or library, can make it inaccessible 
to populations most in need.
    In the days following my visit, I heard from Randy, a software 
developer from Edgewood, New Mexico. Despite living just 20 miles east 
of Albuquerque, his fastest option for fixed broadband is 7.5 megabits 
per second (Mbps), at a price of around $62 per month. In his letter, 
he described broadband as a ``cold hard necessity in the digital age.'' 
Unfortunately, my experience in traveling the country has demonstrated 
that Randy's story is not a unique one.
    By the time my #ConnectingCommunities tour wraps up with a 
``solutions-focused'' policy forum on October 19, I will have visited 
10 states including Arizona, California, Colorado, Massachusetts, New 
Mexico, New York, Pennsylvania, South Carolina, Washington, and West 
Virginia. The forum, which will be held at Georgetown University Law 
Center, will highlight my observations from the visits and focus on 
proposing answers to some of the toughest challenges facing the 
communications sector, including broadband affordability, viewpoint, 
diversity and inmate calling reform.
Advancing Opportunities for Independent Programming
    I am also excited to share that the Commission will tee up a Notice 
of Proposed Rulemaking (NPRM) later this month, which stems from our 
inquiry on independent programming. Following more than 36,000 filings 
in the docket in response to our prior Notice of Inquiry, the 
Commission has built a record that makes clear that there are real 
challenges facing independent programmers and consumers are paying the 
price with higher monthly programming costs and restrictions that limit 
their ability to watch their favorite content through online platforms.
    Since launching the inquiry in February, I have continuously asked: 
Is there an answer for those frustrated consumers seeking more diverse 
programming, as well as programmers looking to expand their reach to 
more households? Is there a disconnect and if so, where is it? And does 
this all mean that our existing system is broken and if the answer is 
yes, who should fix it? The NPRM that the full Commission will consider 
on September 29 continues the process of asking and ultimately 
answering these questions.
Connect2Health--Examining the Intersection between Broadband and Health 
        Policy
    Third, the Commission through its Connect2Health Task Force 
continues to focus on the intersection of broadband connectivity, 
advanced technology and health. I am incredibly proud to tell you about 
our new broadband health mapping tool, which allows federal, state and 
local agencies as well as the private sector to examine the 
relationship between connectivity and health at a local level, identify 
current issues, and develop future solutions to address connectivity 
gaps and promote positive health outcomes.
    We have learned from this initiative that rural counties are ten 
times as likely as urban areas to have low broadband access and high 
diabetes. Similarly, the neediest counties when it comes to the 
intersection of broadband and health are concentrated in the South and 
Midwest. Knowing this information, will help both the public and 
private sectors target limited resources to improve infrastructure and 
deploy connected health technologies.
    It is for these reasons that I applaud the bipartisan introduction 
of the RURAL Telehealth Act by Senators Wicker and Schatz. The bill 
recognizes that non-rural hospitals and health-care providers may be 
best positioned to bring telehealth services to rural communities. By 
limiting Healthcare Connect funds to providers who predominantly serve 
rural areas, the legislation preserves the FCC's goal of delivering 
advanced telehealth services to communities most in need.
Advancing 5G Connectivity
    Finally, I believe the Commission is on the cusp of something 
``big'' when it comes to the deployment of 5G wireless services. 
According to the latest research, mobile data traffic has grown 4,000-
fold over the past 10 years and almost 400-million-fold over the past 
15 years. We have seen the need for mobile data continue to grow as 
more American consumers take advantage of their smartphones and tablets 
in ways unheard of even a few years ago.
    In July, the FCC took a momentous step towards bringing next 
generation wireless technology to consumers by making available nearly 
11 gigahertz (GHz) of high-band spectrum available for licensed and 
unlicensed use. The governing rules, which balance different approaches 
such as exclusive use licensing, shared access and unlicensed access, 
will enable established industry players and entrepreneurs to develop 
innovate offerings for consumers.
    Opening up spectrum above 24 GHz is just the next of many steps in 
the path towards 5G technologies. As we move into this new age of 
increased connectivity, it is essential that those who live in rural 
areas and high-rent urban areas are a part of this new frontier and 
that industry and government work together to make sure to narrow, 
rather than widen the digital divide in the country.
    Thank you again for allowing me to share my priorities with you 
this morning. I look forward to answering any questions you may have.

    The Chairman. Thank you, Commissioner Clyburn.
    Can we get you a cup of coffee?
    [Laughter.]
    The Chairman. Well, despite the charisma of the Members of 
this committee, our hearings have a tendency to put people to 
sleep anyway, so if you're already--if you've been up all 
night.
    We'll proceed with questions. And I've got a list here of 
Members. But let me start.
    Chairman Wheeler, as I pointed out in my opening statement, 
you've presided over the most partisan FCC in the agency's 
history, and twice the number of 3-2 party-line votes as the 
five previous Commissioners combined.
    I say that because I am concerned about the precedent that 
it creates for future FCC chairs. And what is to prevent a 
Republican FCC to come in and just reverse what you and your 
colleagues have done? Or then another Democrat administration 
come in and reverse the previous Republican majority, and on 
and on and on? I think you see where I'm going with this.
    And so my concern is, and I'm wondering what your view on 
this is, is whether that approach could lead to a destabilizing 
and endless cycle of regulatory uncertainty, which is what I 
think everybody who follows these proceedings, and everybody 
that's involved with telecommunications policy is concerned 
about, is creating certainty. And it seems to me, at least, 
that the current pattern, trend, if continued, could create 
greater uncertainty because future Commissions could come in 
and do things, everything, by party-line vote.
    Your thoughts.
    Chairman Wheeler. Thank you, Mr. Chairman. And I think you 
raise a legitimate issue. I mean, one of the interesting saving 
graces the Commission has is the need to make a decision on the 
record. And I agree that we don't want to have this up-and-
down, in-and-out kind of situation. And any changes would, of 
course, as I say, have to be based on the record.
    I think it's important--your chart is correct, I presume. I 
haven't done a box score, but I presume that you did. And, you 
know, but about 90 percent of the decisions that we make are 
unanimous.
    And just for the record, I was trying--sitting here trying 
to think about the times when some of those 3-2 votes were me 
voting against one or both of my Democratic colleagues. I mean, 
I recall that on the question of whether there was effective 
competition for cable, that it was Commissioner Pai and 
Commissioner O'Rielly and I who were the three. I recall that 
on the Alaska Plan for carriers in Alaska, it was Commissioner 
Rosenworcel and Commissioner Pai--and Commissioner O'Rielly and 
I that were the three. My memory is weak in terms of pulling 
things out on the spur of the moment.
    But this is a collegial body, this is a body where the 
deliberative process is important. And I, too, hope that we can 
find ways to resolve issues in a concomitant manner.
    The Chairman. Let me shift gears for just a minute to one 
of the issues that you talked about earlier, and I'll pose this 
to Commissioner O'Rielly. But Chairman Wheeler in his opening 
statement said that all copyright and licensing agreements 
remain intact under his set-top box proposal, and his fact 
sheet says that deals made between pay-TV providers and content 
providers are not affected by this proposal.
    Commissioner O'Rielly, you stated that the order prohibits 
MVPDs from signing contracts with programmers that the agency 
deems to be unreasonable. And so I'm wondering, I'll direct 
this to you to start with, and then perhaps widen it out, but 
do you think it's accurate or is it potentially misleading to 
say that the draft order would have no effect on the freedom of 
negotiation between content orders and MVPDs for programming 
carriage?
    Commissioner O'Rielly. I don't want to characterize it as 
misleading, but I will say that I think it's inaccurate. I have 
outlined why. Because it is putting the Commission right in the 
middle between the programmer and the MVPD. We're preventing 
the MVPD from signing contracts that contain certain things 
that we deem, that Tom Wheeler deems, as unreasonable. We 
won't--the Commissioners won't get a chance to do that because 
it will be done at the Bureau level with the Chairman's 
oversight. So that imposes that Commission in the middle of 
those decisions.
    So I think it's inaccurate to say that we are leaving those 
intact. Now, whether it goes retroactive or not, it's unclear 
from the item, but nothing prevents the Commission from going 
backward.
    The Chairman. Chairman Wheeler, in your opening statement, 
you called the FTC's input on your privacy NPRM particularly 
helpful. And during our discussions, you have indicated that 
the FTC filed good comments, so the FCC's final rule will look 
a lot like that--the FCC's rule I should say. And I appreciate 
your deference to the FTC's experience regarding consumer 
privacy protection.
    But I would like to know, will the FTC have an opportunity 
to review and publicly comment on the FCC's new privacy 
proposal before you all vote on it? And if not, could you tell 
us why?
    Chairman Wheeler. Thank you, Mr. Chairman. If I can go back 
to the previous question, I'll come to this one, too, but just 
to make sure. This is what the deliberative process is about. 
And if there is a desire to remove the specific provision that 
Commissioner O'Rielly just talked about, we can do that.
    The matter of interfering with contracts, however, I want 
to make a real clear point on. What we've been saying is that 
we're not setting up ourselves to second-guess a contract after 
it's been done. What the provision that the Commissioner was 
referring to says that MVPDs cannot behave in the kind of 
anticompetitive manner in contracts with programmers.
    As you know, for 7 or 8 weeks this summer, we held 
extensive discussions with both the cable industry and 
programmers. This was a provision that the programmers 
specifically asked needed to be in to protect their contracts. 
I keep saying I am for protecting programmers' contracts. If 
that was a mistake, as with anything else in that item, and my 
colleagues have a different approach or different thoughts, 
let's do it, let's get at it, and deal with those through this 
ongoing deliberative process. So the door isn't closed on 
anything.
    Now, to your privacy question, the FTC did file with us on 
privacy, and they have made multiple suggestions to us in terms 
of how to improve our original proposal. And as I indicated to 
you the other day, and you just referenced, we take those 
seriously and are embracing them in what we do, and we have an 
ongoing dialogue with the FTC.
    As you know, the situation with the FTC's authority on 
privacy has been significantly constrained, however, by a 
recent Ninth Circuit decision in which in a suit brought by 
AT&T, AT&T alleged that the FTC did not have any jurisdiction 
over any activity, any activity, of any company regulated by 
the FCC, and the Ninth Circuit agreed with them.
    So, therefore, there is not an ability, if there ever were, 
for the FTC to exert its jurisdiction, to exert authority, over 
the question of the privacy activities of common carriers.
    The Chairman. But the question I had was, will they have an 
opportunity to publicly comment on the privacy proposal----
    Chairman Wheeler. As recently as yesterday, we were working 
with them on this.
    The Chairman. That's different than publicly commenting, 
though.
    Chairman Wheeler. They can certainly publicly comment, sir, 
certainly.
    The Chairman. All right. Anybody else on set-top boxes or 
the privacy issue before I hand it over to--Commissioner Pai, 
do you want in on it?
    Commissioner Pai. Senator, I would agree with Commissioner 
O'Rielly's assessment, and I think it underscores the 
importance of releasing these documents publicly so that 
everybody can have a chance to see exactly what the terms are 
that the FCC is going to be voting on.
    Because as I read the document, I share Commissioner 
O'Rielly's concern, that the FCC declares per se unreasonable 
certain contractual terms that MVPDs will not be allowed to 
enter into even if the programmer is asking for those to be 
included in the contract.
    The Chairman. Thank you.
    Senator Nelson?
    Senator Nelson. I noticed in each of your opening comments 
that you all picked up on the bipartisan flavor that the 
Chairman and I had commented upon earlier in our comments and 
the need for building consensus.
    And, Commissioner O'Rielly, I remember in your 
confirmation, you actually were asked how you could ensure that 
there is not a partisan divide at the Commission, and you 
responded that you have a history of working across the aisle. 
I think that's good.
    Just a few months ago, you said in a press conference, 
quote, It reminds me of an old phrase on Capitol Hill, never 
count on a Democrat to hold their vote.
    Now, as you have already heard the Chairman and me talking 
about how we try to operate in the best traditions of the 
Senate, so when I hear comments like that made publicly in 
which you in effect insult every Democratic Member of the 
Senate, then I wonder, how is this going to bring about 
consensus----
    Commissioner O'Rielly. Sure.
    Senator Nelson.--and attempts at unanimity? So can you 
explain those comments in that press conference?
    Commissioner O'Rielly. Sure. So the phrase that I used or 
the comment that I used has been mentioned--I worked 20 years 
in Congress, it was used repeatedly, and so I, you know, was 
repeating--it wasn't my comment, I was repeating something that 
was repeatedly said by many of my employers over the years.
    What we had just come from is a situation where we had an 
agreement on a particular item, and I don't, unless you want 
to, go into the subject, but we had an agreement, a bipartisan 
agreement, on an item, and it was the third time where one of 
my colleagues had backed out of the deal.
    And so it's hard--you know, I think I also said as part of 
my confirmation process, that when I give you my word, it is my 
word, and so I will be there. We've had instances where people 
have backed out of the deal 5 minutes before the open meeting. 
Actually, in one instance, we postponed the open meeting a 
number of times so the item could be rewritten against my 
interest even though we had had a previous agreement.
    So it's a frustration level, and maybe the comment is 
impolite, but it wasn't my comment, it was a frustration level 
to the fact that we had an agreement, and we can't count on the 
word of my colleagues. And I've had difficulty with that going 
forward, and it's been harmful to our relationships to--but I 
turn back to the point that since then, we have had different 
agreements since then. So things like 5G, things like the 
Alaska Plan, where we can--I have put those things aside and 
made deals that sometimes not all my colleagues agreed with.
    Senator Nelson. Let me ask you about another one.
    Commissioner O'Rielly. Sure.
    Senator Nelson. This was a statement that you made 
following the Open Internet Order, ``The D.C. Circuit's 
decision is more than disappointing, it also confirms why every 
parliamentary trick in Congress was used to pack this 
particular court.''
    Do you think that accusing Senate Democrats of packing the 
D.C. Circuit Court to determine the outcome in the net 
neutrality case, don't you think that enflames the partisan 
divide?
    Commissioner O'Rielly. Well, I think it was pointing out 
the fact that I believe that occurred. I was here during the 
time that we went to--I left just before the nuclear option was 
initiated. November 2013 is when I was confirmed and took my 
job.
    So I lived through 3 years of threats of the nuclear 
option, and then eventually it did happen, and participated in 
all of the meetings at the leadership level when this was 
discussed. So I was at the highest conversations. And so I 
don't think my comments are inaccurate.
    I'm not trying to enflame any Member of this body in my 
thoughts. I still return to the point that I am willing to sit 
down and negotiate any item that is before the Commission, and 
have done so on multiple occasions.
    So I'm not trying to insult you in any way. I was just, 
again, to the previous comment, it was just an accurate 
statement that my views were reflecting what had happened. So I 
don't--it's not trying to insult you in any way.
    Senator Nelson. Do you think the D.C. Court was packed in 
order to determine the net neutrality outcome?
    Commissioner O'Rielly. Net neutrality in and of itself? No, 
sir. Do I believe it was done to change the outcome of many 
proceedings, including the direction of multiple 
administrations? Yes. It was a comment I pulled because I--I 
know we had talked about this before, but, you know, there are 
a couple comments from Senator Reid, and he said, you know, we 
put onto the Court three people, and I don't think they deserve 
to be on any court, but they, we put them on there, and they 
have been terrible. They're the ones that said the President 
can't have recess appointments, which we've had since this 
country started. They've done a lot of bad things, and we're 
focusing very intently on the D.C. Circuit. We at least need 
one more. There are three vacancies. We need at least one more, 
and that will switch the majority.
    Senator Nelson. I think what is happening is this hyper-
partisan atmosphere is causing these venting comments to come 
out when in order for our government to function, we've got to 
have a modicum of stability and respect for the rule of law. 
And I would encourage people to be mindful of their comments in 
the future when observing that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, I think this committee has worked on 
a bipartisan basis, and I have the highest regard for the 
Chairman and the Ranking Member.
    I will simply say this because I don't want it to go 
unchallenged. Commissioner O'Rielly has not said anything today 
in testimony that isn't accurate, and I agree with what he 
said. And it may sound partisan coming from the Commissioner, 
but it was absolutely what happened to the D.C. Court. And in 
quoting the Democratic leader, he's correct.
    Now, I would like to get on with other issues, but I feel 
that I have to defend the Commissioner in that what he said is 
factual. But let's talk about something that is bipartisan.
    Chairman Wheeler, 26 of us sent you a letter July 11, and 
it was led by Senator Manchin and by this Senator regarding the 
build-out of rural broadband and the Mobility Fund. On July 11, 
26 of us on a bipartisan basis signed that. So thank you, 
Senator Manchin, for helping with that, and thank you all who 
signed it.
    We got an answer yesterday. And I would just say, Mr. 
Chairman, it's disappointing to me that we have to have a 
hearing to get a letter back on something that over a quarter 
of this body asked about. And basically the response was, We're 
looking into it, we hope to get back to you by the first of the 
year. No decisions have been made on how best to target the 
Mobility Fund Phase II support, but Commission staff is 
continuing to process reviewing the record.
    So, you know, I appreciate the fact that apparently this 
hearing being scheduled today persuaded you to write a letter 
to us dated yesterday. Can you give us any specific steps 
beyond what you said in the letter, or are you unable to do 
that, about how the Commission might be expanding broadband 
into the rural community?
    Chairman Wheeler. Thank you, Senator. Yes, let me be 
specific in that regard, I think in two areas.
    The first thing that we have to know is, where is there not 
coverage?
    Senator Wicker. We pretty much know that.
    Chairman Wheeler. The record available on that, with all 
due respect, sir, has not been good because of the manner in 
which the Commission collected the data.
    The first way that we did that was the National Broadband 
Plan, in which we relied on the states to provide information, 
and it wasn't very good information.
    So then we went out and we hired a third party to collect 
information on a census block basis. Gee, that's pretty small, 
getting down to a small area. But it wasn't granular enough 
because, OK, well, there's coverage in this census block, but 
it could be on the left side of the census block, but not the 
right side of the census block. So it was insufficient 
information.
    It is my hope that by the end of this month, we will have 
the analysis of the new Form 477 that we have required the 
carriers to provide with us for the first time. So we put a new 
third bite at the apple. Let's get the carriers to give us 
specific information with responsibility for that data, and 
then let's put that into what is called a shapefile, and that 
means let's see it in this area and show where there's coverage 
here, there's not coverage here, specifically, and not just the 
generalities.
    We expect to have that information by hopefully the end of 
this month. So that's kind of step one. We will have the 
information on which to make a decision.
    Step two then is, how are we going to fund that? I am 
hopeful that by the end of this year, we will have moved a 
broadband Mobility Fund revision, and it's going to have to 
make some really tough decisions because there are recipients 
of our funds today who are serving areas where there is already 
coverage.
    And the question we're going to have to decide is whether 
we should be funding only those areas where there is not 
coverage, where we now have this very granular information, and 
if that's the case, how do you be fair to those who have been 
continuing--who have been receiving Universal Service funding 
in competitive situations to give them some kind of a glide 
path? That's the challenge we're working on right now.
    Senator Wicker. Well, let me say your answer is certainly 
more comprehensive today than it was yesterday, and I hope you 
can move quickly on that.
    Let me just say, I've got to ask a question about set-top 
boxes, and the answer from Chairman Wheeler was long and 
extensive.
    Mr. Pai, Chairman Wheeler's talking points say this: The 
proposed final rules will allow consumers to access their pay-
TV content via free apps on a variety of devices so they no 
longer have to pay monthly rental fees. And I think Mr. 
O'Rielly said that an apps-centric approach was what he wanted. 
Enable integrated search, content protection and privacy.
    Is at least that much of his talking points accurate? And 
are there going to be more or fewer set-top boxes if this 
proposal by Chairman Wheeler goes forward?
    Commissioner Pai. Thanks for the question, Senator. I wish 
I could say it were, but I don't think it is, and I think the 
last point of that, for example, is critical. The protection of 
content is something that I think a lot of people have focused 
on, and, again, it underscores the importance of making this 
public so people can judge for themselves. Don't rely on our 
word about it.
    The proposal on the table would interject the FCC into two 
different relationships: the MVPD programmer relationship in 
terms of regulating the terms that they would be allowed to 
agree with, and the relationship between those two and the 
third-party device manufacturers in terms of the standard 
licensing.
    So with respect to the standard licensing agreement, the 
FCC says, well, the Media Bureau could second-guess any 
consensus that the MVPDs and programmers might come to in terms 
of what should be in that agreement. And if they don't reach a 
consensus at all, the FCC itself will directly write the 
standard licensing agreement.
    And so I think unfortunately the combination of those two 
provisions makes it highly unlikely, I think, that content 
would be adequately protected in the view of all stakeholders.
    Senator Wicker. Thank you, sir.
    The Chairman. Thank you, Senator Wicker.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And I'm not sure I understand every nuance of the 
discussion that we've been having about partisanship, but one 
thing I can say is I'm very glad that the FCC stood up and 
decided to protect the Internet with the net neutrality rules. 
So thank you so much for that.
    To me, the Internet is one of the most important economic 
tools and drivers of our economy, and continuing to have 
consumer protections to prevent being charged for fast or slow 
lanes is vitally important.
    So I think as you go through this discussion, continue to 
look at the consumer interests here because it's very 
important.
    So one thing I wanted to ask about that, and the Ranking 
Member brought this up a little bit, there was a little bit of 
discussion during that whole net neutrality discussion that we 
were going to see a flight of capital outside because of this 
rule. Have you seen that thus far, Mr. Chairman? And do you 
have any comments on this ICANN discussion and some of my 
colleagues' concepts about what they think they can be done 
here in controlling the Internet as a U.S. domestic product?
    Chairman Wheeler. Thank you very much, Senator. We have 
seen increased investment in broadband networks. We have seen a 
13 percent increase in fiber. This is all since the Open 
Internet Order. We have seen an increase in venture-backed 
activities using the now open Internet. We have seen an 
increase in usage in the Internet, and, as a result, we have 
seen an increase in the revenues coming from the Internet to 
the carriers all since the development of the adoption of the 
Open Internet Order.
    Insofar as your question about ICANN is concerned, that's a 
matter that's in the Department of Commerce, and I'm glad of 
it.
    [Laughter.]
    Senator Cantwell. You have no thoughts on----
    Chairman Wheeler. It is not in my arena, ma'am.
    Senator Cantwell. Well, I just--we had a discussion long 
ago on this committee in which one of our colleagues called it 
a bunch of tubes, which obviously wasn't really what this is. 
And to have a global network is critically important for that 
functionality. We want to access international markets, and 
having it work is very important. So thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you. So many subjects, so little 
time.
    [Laughter.]
    Senator McCaskill. It's really hard. Very briefly, I do 
just want to make a comment on BDS. You know, the Business Data 
Services has been in front of the Commission for 10 years; 
count them, 10 years. You were waiting on data. You've got 
data. Let's go. Let's go. Let's make a decision. This is 
important. BDS is important. So I just wanted to be a 
cheerleader for a decision on BDS within the coming weeks.
    Set-top boxes. Interesting about this is I am big on 
competition. I think competition is really important. And as 
I'll speak to in a moment, I think the set-top boxes have been 
a source of some of the many scams involved with billing in the 
cable and satellite industry. But I've never seen a unanimous 
opposition from providers, programmers, and the creative 
community. I mean, usually in this chair they're on different 
sides. They're all arguing with each other. They're all unified 
in their opposition to this.
    So, you know, the licensing part of this, can you, Chairman 
Wheeler, or any of the other members explain to me where 
Congress has granted you the authority to involve itself in 
copyright licensing like this as it relates to the creative 
community? The copyright licensing part, this is new, and I 
would like to know where the authority comes from.
    Chairman Wheeler. Thank you very much, Senator. Your first 
comment, the report that you put out on cable pricing and 
consumer activities, as you know, one of the major issues in 
there was the surprise that comes at the end of the month, 
``Oh, my golly, I've got to pay this for this box, and nobody 
ever told me? I don't have any choice.'' That's what we're 
trying to deal with.
    On your specific question insofar as copyright authority, 
what the Commission is trying to do is not to write copyright 
policy, but to write a policy inside its authority which does 
not interfere with existing copyright authority and with the 
contractual terms that copyright holders do inside that 
authority.
    As I said, we worked for months with the copyright holders 
to try and find the way to do that. We're probably 90 percent 
there. I'm looking forward to working with my colleagues on, 
``What does it take to lock things down?'' Because it is not 
our goal to become a judge of the contracts between MVPDs and 
programmers.
    Senator McCaskill. Well, I'm glad you acknowledge you're 
not there yet. So let's keep working.
    Chairman Wheeler. This is the--we're down to the 
deliberative process at the Commission, and we've got five 
smart Commissioners, and I'm sure we're going to have a very 
fulsome discussion back and forth on this, and this is an 
important part of it.
    Senator McCaskill. You mentioned our investigation through 
the Permanent Subcommittee on Investigations. Senator Portman 
and I have been doing a bipartisan investigation on the cable 
and satellite industry. We've done the first hearing. We have 
another one coming up.
    This report talks about a lot of what we found, and if any 
of you haven't read it, I hope you will because it's startling. 
It's startling the practices that have been embraced.
    And I know you have the authority to issue customer service 
and truth-in-billing guidelines for cable, but it's my 
understanding, disagree with me if I'm wrong, that you do not 
have that authority with satellite. Correct?
    Chairman Wheeler. Correct.
    Senator McCaskill. So I would certainly urge you to listen 
to the phone call I taped when I called my satellite provider 
about an item on my bill, and I taped the conversation. I said 
clearly who I was. And they were charging me a maintenance fee 
for the equipment they own.
    So I was trying to get them to explain to me, ``Why are you 
charging me to maintain equipment that you own, that if it 
doesn't work, I can't see the programming, and so I don't have 
to pay you. Why would you be charging me for that? I want it 
taken off.''
    And I want you to know they tried to tell me they were 
going to charge me to quit charging me, and it's all on tape, 
it's on the website. And it was a startling--and this was 2 
days before the hearing.
    So this is the kind of stuff that has been going on, and I 
just hope that we deal with the fact that you do not have the 
authority with satellite to clean up some of these practices. 
And people are outraged at the bait-and-switch in the business 
model that this uncovers that is not consumer-friendly.
    So thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCaskill.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Chairman Wheeler, welcome. As you know, in June, I sent you 
a letter along with several other Members of Congress, and we 
were raising concerns about the FCC's recent Lifeline Order. 
This letter echoed the concerns of nearly 100 State 
Commissioners, that by creating a new Federal lifeline 
broadband provider designation, the FCC is effectively 
eliminating the States' role in deciding which carriers can 
offer Lifeline within their borders.
    This new designation directly contradicts the language of 
the Communications Act, which gives states primary 
responsibility for designating carriers to participate in the 
Federal Universal Service programs. Twelve States, including 
mine in Nebraska, are suing the FCC, so it appears to agree.
    So, Mr. Chairman, do you assert that the FCC's recent 
preemption of the states is lawful?
    Chairman Wheeler. Thank you, Senator. Nothing that we did 
changed the existing authority of any State PUC. The question 
that had to be dealt with was, How do you determine an ETC when 
for broadband service that broadband provider is a nationwide 
provider, and unlike a telephone company, not just located in 
Nebraska or wherever, and with a relationship with the PUC? And 
we were being told that by broadband, by national broadband, 
providers, that they would not be able to offer broadband if 
they had to do individual State ETC certification.
    The goal was, How do we get broadband to all Americans? So 
the decision that got made was not to reduce any existing State 
authority but to say that for broadband, which the statute does 
provide for, the FCC can say you are an ETC, and that's what we 
did.
    Senator Fischer. First of all, I would ask, did you share 
the broadband providers' concerns with State commissions?
    Chairman Wheeler. Throughout the proceeding, there was a 
healthy back-and-forth on this.
    Senator Fischer. And haven't the states always designated 
carriers where they took jurisdiction by State law, and then 
the FCC, by law, only fills in the gaps?
    Chairman Wheeler. I think you just specifically put your 
finger on the issue when you said the state-identified 
carriers. We were talking about companies that are broadband 
providers that are not carriers under State jurisdiction.
    Senator Fischer. Commissioner Pai, how would you answer my 
question?
    Commissioner Pai. Senator, thanks for the question. I do 
think that the FCC essentially divested states of the authority 
to decide which eligible telecommunications carriers could be 
certified, which I think is an obvious legal problem given the 
statute, as I read it.
    But it also creates an important policy problem, and that's 
because the states have been on the front lines in rooting out 
a lot of the waste, fraud, and abuse we see in the system. In 
Oklahoma, for example, it was the State commission which was 
critical in determining that a carrier had fleeced taxpayers, 
you and me, of over $27 million.
    So I think we definitely want to keep states as a 
cooperative partner as opposed to essentially shutting them out 
on the front end, which is one of the reasons why a wide 
variety of states have unfortunately seen fit to sue us to make 
us follow the law.
    Senator Fischer. And, Mr. Chairman, in your response to my 
letter, you mentioned a partnership between the states and the 
FCC. And I've heard that the states and the program 
administrator, USAC, are unclear about what role the states are 
supposed to play after the FCC's order. How do you plan to 
remedy that?
    Chairman Wheeler. Well, I did not realize that USAC was 
unclear. We will move immediately to get USAC the appropriate 
authorities together with NRIC or whoever the appropriate State 
body is to work through what our belief is to what the process 
is.
    Senator Fischer. And you will work with the State 
commissions as well in trying to clarify the issues that are 
before them that are----
    Chairman Wheeler. I'm sorry, I said USAC, I meant NRIC to 
work with the State commissions. I'm sorry.
    Senator Fischer. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Blunt has returned, and he's up next.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Mr. Chairman.
    Chairman Wheeler, I intended to talk about copyright law, 
but I think my colleague from Missouri and Senator Thune have 
both done that, so I will look at what you all had to say about 
that. I chair the Rules Committee, which is the Committee that 
has jurisdiction over the Library of Congress, which has the 
copyright rules, and I may very well have to--want to submit 
some questions on that topic.
    I want to talk about two other things that we've talked 
about before. In August, the Commission adopted, like in many 
other cases, apparently on a party-line vote, its quadrennial 
review of broadcast ownership rules. Nothing substantially 
changes in those except there are two areas I want to mention, 
just to be sure that we're understanding what you've done in 
the way I believe it's been done, one on joint sales agreements 
where one broadcaster is selling advertising time on behalf of 
another in local markets.
    Now, as you know, this committee has been particularly 
active in challenging a sense earlier of how these agreements 
would go forward, but after multiple bipartisan letters, two 
acts of Congress, and a court ruling by the Third Circuit 
Court, the FCC, I believe in its new rule, acknowledges 
grandfathering in joint sales agreements when there's a 
transfer of ownership.
    And then the second thing that I think is new is in another 
joint agreement, joint service agreements. Those are contracts 
to share resources, like a helicopter that two news teams might 
use. There are new disclosure levels in these rules that 
stations have never had to disclose before in terms of the 
specific, as I understand it, the specific economic terms 
involved. That would be outside anything a station 
independently would have to disclose.
    So is this a step toward regulation? is the second 
question.
    The first question is, Am I right in believing that now the 
new rules allow these joint sales agreements to go forward and 
then----
    Chairman Wheeler. Yes, sir, you are correct. And what we 
tried to do was to take the specific language or the specific 
intent of the language, as it was explained to us and the 
appropriations writer, about grandfathering and to adopt that.
    Insofar as----
    Senator Blunt. Joint service?
    Chairman Wheeler.--SSAs, the issue here is, How do we make 
a judgment as to whether or not the rules are being 
circumvented through contractual arrangements? And one of the 
ways you do that is to have information. What you cited was a 
collection of information, not a decision. But what is the 
information? We just had a discussion a minute ago about how we 
have had imperfect information on which to make decisions. This 
is an attempt to get good information.
    Senator Blunt. Two of you did not vote for this package. 
This may or may not have been one of the topics, but if either 
Mr. O'Rielly or Mr. Pai would like to comment on this, I would 
like to hear what you have to say.
    Commissioner Pai. Thank you, Senator. I did dissent from 
the decision in part because of the FCC's restrictions on joint 
sales agreements and shared services agreements.
    With respect to JSAs, the record is clear and, in my view, 
unchallenged, stemming from evidence that we have collected 
everywhere from Joplin to Springfield, that some of these 
agreements have been useful in helping broadcasters provide the 
public vital information.
    And with respect to shared services agreements, I think the 
writing is on the wall, that the FCC is collecting information 
as a step toward, as you put it, more regulation, essentially 
prohibiting shared service agreements, and that's something I 
think would be unfortunate for the marketplace and for 
consumers in particular.
    Senator Blunt. Mr. O'Rielly?
    Commissioner O'Rielly. I agree with my colleague on his two 
points. I think this is the first step. The SSA declaratory 
structure is intended to for a future Commission to impose new 
rules and limitations on stations and their ability to share 
such activities.
    Senator Blunt. Then can anyone tell me a way that these new 
broadcast ownership rules could now be appealed or ask for a 
change?
    Mr. Pai?
    Commissioner Pai. I think they will be appealed. I would 
imagine the Third Circuit would retain jurisdiction, and given 
the previous decision, the Prometheus III decision, where the 
court said the FCC needs to take a serious look at whether 
these regulations remain necessary. The FCC, having not just 
doubled down on them but made them stricter, I think the court 
is going to take to have serious concerns with what the FCC 
did.
    Senator Blunt. Thank you. Thank you, Chairman.
    Senator Fischer [presiding]. Thank you, Senator Blunt.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you. I also had some questions on 
the cross-ownership rules, and I will put those on the record.
    I thought I would start with you, Commissioner Rosenworcel, 
with your work that you've long done on the 911 issue. I 
appreciate that. You've come out to my state, and as you know, 
Senator Burr and I chair, have long chaired, that caucus along 
with Representatives Eshoo and Shimkus, and we've done some 
good work including getting the $115 million in grants for the 
Next Generation 911 Implementation Grant Program and have 
worked to further the technology. Could you talk particularly 
about the Grant Program and how it's best leveraged to pave the 
way for broader investments?
    Commissioner Rosenworcel. Thank you, Senator Klobuchar, and 
thank you for your leadership as the head of the 911 Caucus and 
also for visiting a 911 center in Minnesota with me.
    Here's the thing. This program was set up 4 years ago. We 
don't have many Federal programs to help accelerate 911 and 
bring it to next generation. Congress asked that rules would be 
developed within 120 days of passage. We are probably some 
1,500 days since this law was passed.
    So I think we should get it up and running, and when we do, 
we need to make sure that we have a national definition of Next 
Generation 911 based on nationally accredited standards. And 
then we also have to make sure that we take these funds and use 
them to develop blueprints in rural communities, urban 
communities, and everything in between so that when we're done 
with it, communities all across the country can copy and 
benefit.
    Senator Klobuchar. Thank you very much. As you all know, I 
worked hard on the broadband issue with the Chairman, and we 
appreciate the bipartisan work you did to get this done. That 
wasn't one of those votes up there.
    And as you know, there is still more work to be done. I 
think I'll just put some record questions here about the 
Universal Service reforms, Chairman Wheeler, and just the 
concerns we have in getting those done.
    I thought I would turn to one question about Business Data 
Services, and if you could just answer it briefly.
    Earlier this year, I joined several of my colleagues in 
writing to ensure that the Business Data Services proceeding is 
based on complete and accurate data. Do you have any other 
concerns that would prevent the proceeding from moving forward? 
I know that you indicated that you are confident that the 
Commission has the right data, but is there anything else that 
would hold it up?
    Chairman Wheeler. Is there anything else that would hold it 
up? I hope not. I hope that we are going to be moving on this 
very soon. And I believe we do have the data. And there are 
ongoing discussions virtually every day that generate more 
data.
    Senator Klobuchar. Very good. On the set-top box issue, I 
obviously support reducing the costs, increasing choice for 
consumers. I'm the Ranking Member of the Judiciary Antitrust 
Subcommittee, which also focuses on the FTC, and I know the 
issue was raised already, which I appreciate, on the FTC-FCC 
issue of enforcing the privacy standards. And there has also 
been major copyright discussions here.
    But I wanted to specifically focus on the copyright issues 
with regard to smaller programmers with the current proposal, 
which already face narrow margins, and a difficult competitive 
landscape.
    Chairman Wheeler. Right.
    Senator Klobuchar. Any changes that would inadvertently 
harm the value of their copyrighted material or increase the 
likelihood of piracy could force some of those innovative and 
competitive companies out of business. What assurances would 
you give them? I'm trying to figure out how this would work for 
them as well as some of the other concerns that have been 
raised by my colleagues.
    Chairman Wheeler. Thank you, Senator. Yesterday, we 
received a letter from the Writers Guild West endorsing our new 
proposal and specifically talking about how it created 
opportunity for independent programmers.
    Senator Klobuchar. So you believe that there aren't any 
problems at all for independent programmers?
    Chairman Wheeler. Well, the challenge that independent 
programmers face today is that, A, will the cable operator let 
them on; and, B, or are they subjected to some kind of a 
purgatory where they have to be out here and hard to find?
    If you have the kind of integrated search that we're 
talking about, it creates opportunity for independent 
programmers, and that's why we have a very robust record of 
independent programmers saying they support what we're doing 
here.
    Senator Klobuchar. I think I'll go back to my Universal 
Service reform question. When can carriers expect to have all 
the information they need to make a decision on the reforms to 
the USF?
    Chairman Wheeler. I'm glad you asked that question. As you 
know, they're going to make a decision November 1. Right now, 
we're out. We've got workbooks out. We're working with the 
various rate-of-return carriers to help them understand. And 
this is the question about whether they want to choose the new 
model or want to stay with the legacy approach, and we're 
working with them right now, including having a new workbook 
that's out. You've got to go through and say, ``OK, how are you 
going to be able to look at capital costs?'' There are all 
kinds of detailed questions in there. We're trying to walk 
through and give them tools to do that.
    Senator Klobuchar. OK. So do we know the timing on it, 
though?
    Chairman Wheeler. It's out.
    Senator Klobuchar. OK. So----
    Chairman Wheeler. The workbook. I mean the workbook is out.
    Senator Klobuchar. And so they have what they need now?
    Chairman Wheeler. I hope that the workbook is the beginning 
of the determination of what they need, and that we are 
available and working with them through various means to answer 
any questions they've got.
    Senator Klobuchar. So is all the information on their 
build-out obligations and budget caps, is that out?
    Chairman Wheeler. Yes, ma'am.
    Senator Klobuchar. OK. All right. Thank you.
    Senator Fischer. Thank you, Senator Klobuchar.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman, thank you very much. 
Commissioners, thank you and Mr. Chairman for being here. First 
of all, I recognize the member of the Commission from Kansas 
and thank him for his call to action in regard to broadband 
deployment in rural communities.
    There are a number of pending orders that are highly 
partisan and controversial before the FCC, and I want to make 
sure we don't forget every dollar spent on compliance with 
those orders, and potential regulations mean less dollars being 
spent in deployment of broadband particularly in rural areas.
    And rather than using the inadequate broadband deployment 
as a pretext for additional regulation, Commissioner, you seem 
to have tried to remove the barriers toward that broadband 
deployment, and I appreciate that.
    With the short time and the vote that has been called, I'm 
going to save Chairman Wheeler till the last so that he gets to 
keep talking and not cut into my time.
    [Laughter.]
    Senator Moran. But first of all, Commissioner Rosenworcel, 
on the set-box top proposal, tell me, what are you thinking? 
How do you see the proposal? What's on your mind?
    Commissioner Rosenworcel. Sure. Thank you, Senator, for the 
question. You know, set-top boxes are clunky and they're 
costly. Consumers don't like them and they don't like paying 
for them, and that is not just my professional opinion, it's my 
personal opinion, too. So we're taking a hard look at what the 
Chairman has put before us, and there's a lot in there that 
seems to work.
    I'm going to be very candid with you, that I have some 
problems with licensing and the FCC getting a little bit too 
involved in the licensing scheme here because when I look at 
the Communications Act in Section 629, I just don't think we 
have the authority, which I will commit to keep on working with 
my colleagues because I think bringing some change to the set-
top box market would be a good thing for consumers, my 
household included.
    Senator Moran. Chairman Wheeler, on this topic, under your 
final proposal, will device manufacturers be required to comply 
with Section 631, 338(i) of the Communications Act with respect 
to privacy or simply be subjected to the FTC and State attorney 
generals' unfair deceptive practices act?
    Chairman Wheeler. Thank you, Senator. Let me say one thing. 
I look forward to working with Commissioner Rosenworcel and all 
my other colleagues on the issue, the first issue, you raised.
    Second, insofar as--we do not have jurisdiction over device 
manufacturers. We have worked with the FTC on this issue and 
are advised that if our rule requires that devices warrant to 
consumers that they are complying with 338 and 631, that the 
FTC will have the ability to do the necessary enforcement to 
protect that privacy.
    Senator Moran. Thank you. We'll have the FTC in front of my 
subcommittee and this committee in the near future, and we have 
some preference in the way that they do business, and we're 
going to have that conversation with them.
    On the topic of broadband relocation, the auctions, 
following the incentive auction remains increasingly concerned 
about the potential funding shortfalls and timeline, and I'm 
committed to working with Senator Schatz and others on the 
Committee to see that we have a plan in case the things that 
we're fearful of happening actually do happen. So we look 
forward to your reports in regard to that as this process goes 
forward.
    And again on auctions, and I'll ask this to you, Mr. 
Chairman, I'm also particularly focused on 5G. And the last 
time you and I spoke here at Commerce Committee, I asked about 
Spectrum Frontiers and the upcoming high-band auctions. I 
appreciated that you moved to complete the Frontier proceedings 
quickly, and I would like to ask again about the timing for 
high-band spectrum auctions.
    As retention of auction funds in your budget request, I get 
to visit with you and the others as well. This year they 
totaled $124 million. I'm concerned about the ongoing incentive 
auction. When will we hear about the high-band auctions?
    Chairman Wheeler. So when I told you when you were wearing 
your appropriations hat, I'm seriously concerned about the cuts 
that have been proposed to the auction budget and our ability 
to do all the heavy lifting in auctions that we have.
    Insofar as specifically auctioning off the new millimeter-
wave spectrum, that is not scheduled because it has to work its 
way--the pig has to work its way through the python in the 
auction operation. But at the same point in time, there are 
some pieces of that spectrum, or of what we have identified, 
that already have licensees, and we are working to facilitate 
sharing transfers and whatever activities may be necessary 
there to get that spectrum to work even pre-auction.
    Senator Moran. Thank you, Mr. Chairman. You have added to 
my vocabulary. I have never heard of a pig working its way 
through a python, but it's an expression that I like and may 
borrow. Thank you.
    [Laughter.]
    Senator Fischer. Thank you, Senator Moran.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you very much. There are no snakes in 
Hawaii, so that was----
    [Laughter.]
    Senator Schatz. You know, this hearing started with a very 
important principle, which is to say that the Commerce 
Committee, and you all know this, having many of you worked on 
the Committee or certainly with the Committee, and the FCC has 
been a bastion of bipartisanship, but not recently. And so I'm 
struck by the collective desire, certainly described from sort 
of different ends of the elephant, to get to 5-0 where we can, 
and it seems to me that there are two principles to adhere to 
when we're trying to get to 5-0. Right? One is compromise, and 
I'll get to that, especially on set-top boxes, in a minute. And 
the other is conduct.
    And the exchange that Senator Nelson had with Commissioner 
O'Rielly I thought was important, not because we want to single 
you out, but because all of us say things that maybe don't lend 
themselves to getting to 5-0.
    So I just offer to you, Commissioner, and to all of us, 
that we ought to think through whether or not what we're saying 
is constructive and leads us to strengthen the institution of 
the FCC, which has done so much over so many years, and to 
strengthen the institution of the Senate and this committee to 
get back to that history, that disposition, of trying to get to 
5-0.
    So now on set-top boxes, I absolutely support the principle 
that people shouldn't be ripped off by being forced to rent a 
device. I think that is now a commonly held bipartisan 
principle, and it wasn't without some objections over the 
months and years. But now we are very, very close to getting 
across the finish line.
    My concern, both on process and on policy, is that the 
thing that I thought I was agreeing to and advocating for may 
be accomplished in the next 15 days, but lots of other things 
which I think deserve more scrutiny and oversight and 
discussion may also be accomplished, and it's not at all clear 
to me that it is necessary to do all of these other things in 
order to get across the finish line when it comes to providing 
consumers with some relief on set-top boxes.
    I am absolutely encouraged by all of the Commissioners' 
willingness to kind of get at what the offending provisions may 
be, and I heard Commissioner O'Rielly and Pai talk about these 
two offending provisions having to do with how licensing 
agreements would be overseen in the future by the Commission, 
and Commissioner Rosenworcel and Wheeler talking about their 
willingness to discuss and probably pursue a compromise.
    And so I want to just get as clear as I can without sort of 
refereeing the Commission's deliberations.
    First for Commissioner Wheeler, it sounds as though you are 
open to modifying this to accommodate some of these quite 
legitimate concerns. Is that accurate?
    Chairman Wheeler. Yes, sir, if we can do that and protect 
the mandate from Congress, which I believe we can.
    Senator Schatz. Commissioner Pai, part of the difficulty 
when conducting a negotiation is to find out whether or not 
these are two of the many objections that you may have to the 
current proposal or if these are the two main objections, 
because to the extent that Commissioner Wheeler makes 
accommodations, and then you pop up with three new objections, 
that would--and I'm not suggesting you would, I just want to 
get it clear that if we're trying to get to 5-0, and he does 
backflips to accommodate these concerns, that we don't find 
three new concerns 72 hours out. Commissioner Pai, do you want 
to comment on that?
    Commissioner Pai. Absolutely, Senator. And that's why my 
office makes it a practice to put our suggested changes to 
these orders that we vote on at our monthly meetings on our 
internal chain at least 1 week and sometimes several weeks in 
advance so that everyone knows what the universe of our 
concerns might be and what our proposals are. Those are two of 
the key ones.
    Another one is that I don't want anything to inadvertently 
delay or deter innovation. So, for example, any change to the 
standard licensing agreement has to be approved by the Media 
Bureau, and so that might end up slowing things down.
    And the other thing is that I don't want the MVPDs to be 
either deterred or just delayed in introducing new innovations 
in their own equipment, and one of the concerns I have is that 
they might be delayed or deterred because they would have to 
ensure that the consumer experience is replicated on every 
other app or every other wave accessing the programming. So 
essentially what any MVPD does, they have to make it available 
on every other platform.
    Senator Schatz. But those are--you're just fleshing out the 
original objections, are you not? These are not different 
objections.
    Commissioner Pai. No, well, this is a separate--it's 
related to it, it's related to that core concern. And so that's 
one of the things we're going to be hopefully talking about in 
the days to come.
    Senator Schatz. OK. Thank you very much.
    Senator Fischer. Thank you, Senator Schatz.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Madam Chair. In the spirit of 
Senator Schatz trying to perhaps help broker the peace process 
within the FCC, let me take a shot at that as well.
    In March of this year, the U.S. House passed the Small 
Business Broadband Deployment Act. If was a vote of 411 to 
zero. There are very few votes in the United States House where 
you have a zero on the end of anything. It then came over here. 
We had it in the Senate. This is my bill. It passed this 
committee 21 to 3, that's a pretty good shot. Three touchdowns 
versus a field goal.
    [Laughter.]
    Senator Daines. And so that's about as strong a 
bipartisanship as we'll see around here. The Commission is set 
to consider extending the exemption again in December.
    It's pretty clear that Congress has spoken on this issue. I 
would argue it hasn't stuttered, it hasn't spoken, it shouted 
pretty loud. And maybe I'll start with the Chairman. Do you 
agree that Congress's intent on this issue is clear? And will 
you vote to extend the exemption for small businesses?
    Chairman Wheeler. Thank you very much, Senator. You know, 
one of the issues about--on the whole small business question 
is, just what is the definition of a small business when you're 
in the broadband business? You know? The SBA defines a small 
business as $38 million or less in the broadcasting space.
    Senator Daines. Right. Yes. And I've spent a lot of time in 
the technology business looking and trying to stratify and 
looking at how you segment businesses certainly within a 
particular vertical. Congress has spent a lot of time, and we 
debated that. I worked very hard with some of my colleagues 
across the aisle, and we took a subscriber view of that versus 
a revenue view, of 250,000 subscribers. So I----
    Chairman Wheeler. And we're sensitive to what you----
    Senator Daines. Right.
    Chairman Wheeler. I'm fully--the interesting thing is that 
250,000 subscribers is about $250 million in revenue when take 
a revenue approach. And so you've got to say to yourself, are 
you going to keep transparency because it's, quote, too 
expensive away from consumers who are on companies that do a 
quarter billion dollars a year in revenue?
    And I'm not trying to be judgmental with that, I'm just 
saying that's kind of the facts. And what we're doing is, as 
you know, we have until the end of the year to decide, are we 
going to extend this or not? And that's the kind of thing we're 
wrestling with.
    Senator Daines. And I won't--OK, so it's not so much 
whether in principle you agree with there should be a line 
drawn, it's perhaps where the line is drawn.
    Chairman Wheeler. Where's the line, correct, sir.
    Senator Daines. And I guess I just would respectfully say 
in the spirit of trying to hopefully generate more bipartisan 
agreement at the FCC level, Congress has spoken very loudly on 
that and very clearly on that, and I hope you would respect at 
least our guidance there as you deliberate on where that line 
should be drawn.
    Chairman Wheeler. Yes, sir.
    Senator Daines. Thank you. In fact, I think the only 
difference between the two chambers was a 5 year versus 3 year 
is the difference, where agreement on the level where the line 
should be drawn.
    Chairman Wheeler. Yes.
    Senator Daines. I want to shift gears and talk about the 
wireless coverage Mobility Fund. In Montana, the wireless 
coverage is not just a convenience, it's really a public safety 
issue. Many Montanans, as many people who live in rural areas, 
live many miles from the next home, from a hospital, and having 
that kind of connectivity is very essential.
    Mr. Chairman, you talk about competition. I know we've had 
you in Montana, and thank you for coming to Montana. In 
Montana, competition can be limited. And I'm curious on your 
thoughts around what can be done. What are you doing to promote 
additional competition, particularly in rural America?
    Chairman Wheeler. Thank you very much, Senator. I think 
there are multiple things. One, I know your question was about 
competition, but first we've got to make sure everybody has got 
coverage, and that's what I was talking to Senator Wicker 
about. And we are going to adapt the Mobility Fund to work on 
that, to move toward that.
    Second, I think that there are new technologies that hold 
great promise. You know, there are--you know, Rwanda, which is 
worse than Montana in terms of dispersion, has some really 
interesting infrastructure-sharing things that they are doing, 
and I suggested at the cellular convention 2 weeks ago they 
might want to look at things like that.
    I think that 5G and the promise of 5G--you know, the folks 
at Verizon have been telling us that they think that 5G is a 
rural solution in many ways and that they refer to it as 
wireless fiber.
    So I think that there are multiple solutions, including our 
policies, innovative approaches, and 5G.
    Senator Daines. Thank you, Mr. Chairman. I'm out of time. 
Boy, it goes by fast when you're having fun.
    Just a closing comment. We are getting a fair amount of 
input from the people I represent back home about AM radio. 
I'll just leave it as a comment. I just want to share my 
concern.
    As it's written today, the proposal could actually leave 
some Montanans without AM radio service. I look forward to 
working with you to discuss it a little further because 
sometimes you have a--if you can't get connectivity, AM radio 
sometimes is sometimes your link back to--it is, and really it 
becomes a link for weather forecasts and so forth for folks who 
are out there spending time on tractors that we want to make 
sure we take care of.
    Chairman Wheeler. I look forward to helping you on that.
    Senator Daines. Thank you much.
    The Chairman [presiding]. Thank you, Senator Daines.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you. Two years ago I voted for 
Commissioner O'Rielly. I've known him for 20 years. He's a 
conservative. He's a Republican. I voted for him.
    Commissioner Rosenworcel two years ago was promised a vote. 
By unanimous consent, we can bring that vote up on the floor 
this afternoon so that Commissioner Rosenworcel doesn't have 
that cloud, you know, that is unnecessarily over her head, and 
I would ask, on a bipartisan basis, that we confirm her by 
unanimous consent out on the Senate floor. We can do it 
immediately. And I just think it's an important statement for 
the Committee to make.
    This is a relic of the past. It's a typical satellite 
Artelco set-top box. But it's today. This could be in your 
house 20 years ago; this could be in your house today.
    An investigation led by Senator Blumenthal and I found 
that, one, approximately 99 percent of all American pay-TV 
subscribers rent this set-top box from their pay-TV provider.
    Two, these subscribers spend on average $89 a year renting 
a single set-top box, but the average household spends $232 a 
year on set-top box rental fees, renting about two and a half 
boxes. In other words, over 10 years, the average family is 
paying $2,300 to rent this box, $2,300. That's a good business 
to be in. The set-top box rental market may be worth more than 
$19.5 billion per year.
    Now, this little device I have here in my hand, it's an 
Amazon Fire Stick. It costs $40 for a consumer to purchase. And 
there are many other devices like this out there, such as Roku, 
Chromebox, Apple TV. Consumers today can use these devices to 
watch content from multiple sources, Hulu, Netflix, but which 
they also pay. But this device cannot play the programming 
package that consumers pay for each month from their cable, 
satellite, or telco provider.
    Put another way, the only way for a consumer--the 
approximately 100 million households who subscribe to pay-TV--
is to watch the programming that they have paid for is to rent 
a box from their cable, satellite, or telco company. Consumers 
cannot watch their pay-TV programming on these third-party 
boxes. $2,300 every 10 years for this. Good business. So that's 
what the FCC is considering right now.
    How do we transition to the modern technology and not an 
archaic technology? We did it with the black rotary dial phone. 
You don't have to rent that anymore from the telephone company, 
you go down to the store and buy one. We had to change the 
laws.
    On programming, the program is--it was a big controversy in 
1992 because actually rural Americans wanted 18-inch satellite 
dishes, but the cable industry wasn't willing to sell HBO and 
Showtime and CNN to them. So we had to change the laws so that 
those 18-inch dishes could get access to the programming.
    It has to be reasonable. That's the standard. But we 
changed the law. Who would imagine the world today without 
DIRECTV? Huh? Who would imagine that world? We had to create it 
because they needed access to the programming.
    So this device is something that only the FCC now can do 
something about. The FCC's proposal will ensure that through an 
app created by the cable company, the cable programming package 
can be played on this third-party device so consumers aren't 
forced to continue paying exorbitant rental fees.
    It's that simple. That's what this debate is all about. We 
don't want consumers to be forced to rent a box from their pay-
TV provider in perpetuity when they can buy a device that gets 
the same job done. That lack of choice has to end now.
    So, Chairman Wheeler, you've heard these concerns on 
programming, on copyright. We had the same issues back with the 
18-inch satellite dish, but we worked it out, we created a 
standard that worked. So talk about how open you are to finding 
a common sense solution that can work so that over the next 14 
days the consumers can be freed from these chains that have 
been binding them since the day they first had a cable system 
installed in their house.
    Chairman Wheeler. Thank you very much, Senator. I hope that 
the significant departure from structure but not from principle 
that our new proposal represents is a real-life indication of 
how we are willing and seeking to resolve remaining concerns 
while allowing that chain to be dropped. Thank you.
    Senator Markey. And, again, if anyone wants to continue to 
rent this for the rest of their life, they're going to be 
allowed to under the law. No one is going to stop them from 
paying another $2,300 over the next 10 years. They'll still 
have options.
    Chairman Wheeler. And the interesting thing I read in 
Business Week a couple of weeks ago is that Comcast is shipping 
40,000 set-top boxes a day, a day, right now.
    Senator Markey. So that's our job and your job to find this 
common sense solution, but we have to find a solution. We did 
it for the 18-inch satellite dish. We did it for the black 
rotary dial phone. Past Commissions found the answer. That's 
your job, and I urge you to do it in the next 2 weeks. I think 
the American people will say that's one of the greatest days in 
the history of the Commission, to be freed from this kind of a 
chain.
    Thank you, Mr. Chairman.
    The Chairman. Will the Senator from Massachusetts hold up 
that Amazon Fire Stick again? OK. All right. There it is.
    The letter from Amazon to the FCC is opposed to this 
proposal, by the way, just a point of fact.
    Senator Markey. I will add one more fact. All of the 
programmers back in 1992 opposed having to sell their 
programming to the 18-inch satellite dish. Discovery came in to 
me and said, ``We don't want to have to sell to the satellite 
dish.'' I said, ``You can write a note to me in 5 years when 
you have like four Discovery channels up on a satellite.'' And 
I understand you've gotten a call that you can't refuse, but we 
all know that the only way this works is if we, that is, the 
government, steps in to free up these programmers so that they 
can sell it to as many devices as possible. It----
    The Chairman. It's not often that a company opposes their 
self-interest, but their statement here to the FCC is that the 
process to create such a license and oversight body will delay 
competition and delay customers from receiving the MVPD 
services they already pay for on the device of their choice. 
That's their statement.
    Senator Markey. That is a concern about the licensing 
board. It is not a concern about whether or not this device 
should be able to process the CNN and HBO. We can work out this 
licensing board issue. These Commissioners are brilliant and 
they have the capacity to be able to resolve it.
    The Chairman. Well, it would be good if they would work 
that out, and it would be good if they would also publish that 
so people could see it before they adopt it.
    Senator Markey. Yes.
    The Chairman. Next up is Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And, Senator Markey, I was just wondering if we finally 
found Al Gore's lock box. Is that it right there? Is that the--
--
    [Laughter.]
    Senator Gardner. Chairman Wheeler, as we've discussed 
before, satellite TV subscribers in La Plata and Montezuma 
Counties in southwestern Colorado, the Four Corners area, 
currently receive New Mexico-based broadcasts.
    Chairman Wheeler. Right.
    Senator Gardner. In addition, the geographic challenges 
unfortunately leave the vast majority of those viewers without 
access to over-the-air broadcast signals, obviously some 
significant mountains in between Denver, the Front Range, and 
Durango. And I commend the work that the broadcasters and 
satellite providers continue to engage in as they work to 
deliver Colorado TV to all four corners of Colorado.
    Congress also worked to address this issue in the 2014 
STELAR legislation----
    Chairman Wheeler. Right.
    Senator Gardner.--by extending the market modification 
process to satellite TV. As they crafted the final rules to 
carry out this provision, I, along with Senator Bennet and 
others, urged the FCC to permit county Commissioners to 
petition for market modification, and I thank you for adopting 
that option.
    In light of those rules, the Commissioners from La Plata 
County and Montezuma County have expressed interest in moving 
forward with the market modification process. DISH has also 
indicated that providing Colorado television is not technically 
infeasible. The Colorado broadcasters recently sent both 
Senator Bennet and I a letter stating that they are willing to 
provide their content to DISH in the two counties.
    With this progress, I'm calling on the county Commissioners 
in Colorado at this hearing, calling on the county 
Commissioners involved in Colorado, the broadcasters and DISH 
together, so that we can convene in a meeting next month in 
Colorado to discuss ways that we can reach a final resolution. 
I hope that Senator Bennet and Congressman Tipton will be able 
to join me in that meeting as well. We've got to get this 
finally solved.
    So, Chairman Wheeler----
    Chairman Wheeler. Senator, and if we can help in that, 
we'll be happy to be at that meeting, too.
    Senator Gardner. Thank you.
    Chairman Wheeler. You tell me how we can be helpful.
    Senator Gardner. Thank you. And I just again would 
reiterate that commitment. You have given it to me here and 
before. The FCC will expeditiously review any market 
modification petitions submitted by La Plata or Montezuma.
    Chairman Wheeler. Yes, sir.
    Senator Gardner. Thank you very much for that.
    And in light of the discussions--and I'm sorry, Senator 
Udall, I don't mean to offend New Mexico TV, if that's----
    [Laughter.]
    Senator Gardner. It's certainly not intended to be that 
way, just the Broncos.
    [Laughter.]
    Senator Gardner. Got to keep them there, got to keep them 
there.
    We talked about the complexity of these rules and 
regulations that Senator Markey brought up that Chairman Thune 
is talking about.
    Commissioner Rosenworcel, just a couple of months ago you 
expressed concern with the complexity of the initial set-top 
box proposal, calling it too complicated. And Washington, D.C., 
is the only place where we make things simpler by adding to its 
complexity.
    The FCC's fact sheet describes the new proposal as being, 
quote/unquote, simplified. Do you agree with that, that the new 
rule is simpler than the original plan? And have your concerns 
about this complexity been addressed?
    Commissioner Rosenworcel. Well, as I said before, it's time 
to inject competition into our set-top box market. Nobody has 
ever written me telling me that they love their set-top boxes. 
Maybe that's happened to you, but I pretty much doubt it's 
happened to anybody who serves in this room.
    And so I appreciate that the Chairman has made an effort to 
get a conversation started on this point, but if I have one 
concern, and I mentioned this earlier to Senator Moran, it's 
that the licensing scheme we have here gets the FCC in the 
business of trying to figure out model licenses, and I don't 
see how that easily fits under the statute we have.
    So that would be the complexity I see that needs work, but 
I'm committed to continuing to talk with stakeholders and my 
colleagues to see if we can iron some of that out and make it 
simpler.
    Senator Gardner. Commissioner Pai, Commissioner O'Rielly, 
would you like to address this issue of complexity?
    Commissioner Pai. I would agree with some of the concerns 
that Commissioner Rosenworcel has expressed. And I think 
originally the apps proposal, as it was presented to us, was a 
much simpler one than the one we have now. The proposal on the 
table takes it but also imports a lot of the problems that we 
had with the original set-top box proposal.
    And so I would hope that we embrace more of the original 
apps proposal as it was presented to us instead of adding in 
all these layers of FCC review of programming agreements and 
the standard license agreement and so forth.
    Commissioner O'Rielly. Yes, I would agree. I think that 
what's been presented and circulated is simpler than before. It 
still has difficulties and problems that I've outlined. The two 
major areas need to be addressed, and hopefully we'll be able 
to do that in the coming weeks.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Booker has returned.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I'm really grateful and always excited when 
there's a Cory-to-Cory connection here. The Cory caucus is 
thriving.
    [Laughter.]
    Senator Gardner. Both four-letter words.
    Senator Booker. Yes.
    [Laughter.]
    Senator Booker. So, as you all know, I was Mayor of Newark, 
and mayoralty cities are where innovations are happening, where 
they're finding creative ways to get things done, where there 
are innovative public-private partnerships. I'm just excited 
about these mayors across the country. Fiorello La Guardia said 
there is no Republican or Democratic way to fix a pothole, you 
just fix it. So you don't see the kind of partisan rancor you 
see up here, you just see people saying, ``We've got problems, 
let's get it done.''
    And this is why I was so supportive of the ideas of 
municipal broadband, especially in areas where there are poor 
folks or rural folks who just aren't getting service, and this 
idea that somehow the private sector is going to get this done, 
well, they're not. And other countries have greater broadband 
penetration than we have.
    And so we see that when it comes to overall this crisis in 
our country, which I think is the broadband deployment, we have 
to really start focusing on allowing municipalities to get 
things done.
    And so there is slow broadband, no broadband, and as a 
result of all this, one of the early things I did as a Senator 
was introduce the Community Broadband Act with the support of a 
lot of my colleagues here in a bipartisan way to preserve the 
rights of local governments to invest in broadband networks.
    Now, with consent, I would like to put in the record a New 
York Times story from August 28 that was just really 
disturbing. It's about some folks who are rural consumers in 
Wilson, North Carolina, my father's home state, and if I can 
have consent to enter this article in the record.
    The Chairman. Without objection.
    [The information referred to follows:]

                   The New York Times--Aug. 28, 2016

 Broadband Law Could Force Rural Residents Off Information Superhighway

                            By Cecilia Kang

    WILSON, N.C.--On the first day of the harvest last week, a line of 
trucks brimming with sweet potatoes rolled into Vick Family Farms, 
headed for a new packing plant that runs on ultrafast internet.
    The potatoes were tagged with online bar codes to detail the plots 
where they grew, their types of seed, and dates and times picked. On a 
conveyor belt, 50 flashing cameras captured and sent images of the 
spuds to an online program that sorted the Carolina Golds by size and 
quality and kicked them into boxes.
    The Vick family built the plant only after the nearby City of 
Wilson agreed early last year to bring its municipal broadband service 
to the 7,000-acre farm. Since the plant opened in October, the farm's 
production and sales to Europe have jumped.
    But now, after a legal battle between state and Federal officials 
over broadband, the farm and hundreds of other customers in the eastern 
region of the state may get unplugged.
    ``We're very worried because there is no way we could run this 
equipment on the Internet service we used to have, and we can't imagine 
the loss we'll have to the business,'' said Charlotte Vick, head of 
sales for the farm.
    Vick Family Farms got caught between the Federal Communications 
Commission and North Carolina state legislators over the spread of 
municipal broadband networks, which are cityrun Internet providers that 
have increased competition in the broadband market by serving residents 
where commercial networks have been unwilling to go.
    This month, the United States Court of Appeals for the Sixth 
Circuit upheld restrictive laws in North Carolina and Tennessee that 
will halt the growth of such networks. While the decision directly 
affects only those two states, it has cast a shadow over dozens of 
cityrun broadband projects started nationwide in recent years to help 
solve the digital divide.
    In siding with the states, the court hobbled the boldest effort by 
Federal officials to support municipal broadband networks. While the 
court agreed that municipal networks were valuable, it disagreed with 
the F.C.C.'s legal arguments to preempt state laws.
    Now, cities like Wilson fear they have little protection from laws 
like those in about 20 states that curb municipal broadband efforts and 
favor traditional cable and telecom firms. City officials say cable and 
telecom companies that have lobbied for state restrictions will be 
encouraged to fight for even more draconian laws, potentially squashing 
competition that could lead to lower prices and better speeds to access 
the web.
    ``This is about more than North Carolina and Tennessee,'' said Deb 
Socia, executive director of Next Century Cities, a nonprofit coalition 
of cities exploring broadband projects. ``We had all looked to the 
F.C.C. and its attempt to preempt those state laws as a way to get 
affordable and higherquality broadband to places across the Nation that 
are fighting to serve residents and solve the digital divide.''
    In Wilson, officials said cable and telecom companies rejected 
requests to team up with them and upgrade aging networks, which led the 
city to start its own broadband network called Greenlight in 2008. The 
service provides speeds of one gigabit per second, which lets people 
download big video files in seconds or minutes instead of several hours 
with DSL or basic cable broadband.
    In 2011, companies like Time Warner Cable, represented by the cable 
lobbying association, asked the North Carolina legislature to adopt a 
law to limit Wilson's ability to serve customers outside Wilson County, 
even though the city serves electricity customers in four additional 
counties.
    Grant Goings, Wilson's city manager, said the court decision made 
it unclear ``how we can bridge the digital divide and create economies 
of the future when there are corporate interests standing in the way.''
    But some lawmakers and free-market-oriented think tanks say public 
broadband projects should be carefully scrutinized by local regulators 
because they are costly and, if unsuccessful, can be a financial burden 
on taxpayers. In addition, the F.C.C. cannot intervene in state laws, 
they said.
    The court decision ``affirms the fact that unelected bureaucrats at 
the F.C.C. completely overstepped their authority by attempting to deny 
states like North Carolina from setting their own laws to protect 
hardworking taxpayers and maintain the fairness of the free market,'' 
Thom Tillis, a Republican United States senator who pushed through the 
2011 bill when he was North Carolina's House speaker, said in a 
statement.
    CenturyLink, one of the broadband providers serving Wilson and 
surrounding areas, says it offers competitive Internet speeds and has 
upgraded its networks. The company says it wants to partner with 
municipalities but is concerned that city-run networks may have an 
unfair advantage.
    ``If local governments choose to compete with private Internet 
service providers, there needs to be a level playing field,'' said 
Rondi Furgason, CenturyLink's vice president for operations in North 
Carolina.
    The F.C.C. does not plan to appeal the Federal court's decision 
``after determining that doing so would not be the best use of 
commission resources,'' Mark Wigfield, a spokesman for the agency, said 
in a statement. That means municipalities that want to keep expanding 
their municipal broadband networks will have to fight to overturn state 
laws on their own.
    The legal fight is being closely watched by other cities in states 
that have similar broadband restrictions, such as Colorado and 
Washington. Even big cities like Los Angeles and San Francisco are in 
the early stages of exploring municipal broadband networks, which they 
view as crucial to serving lowincome families who cannot afford service 
from cable and telecom companies.
    ``It's bad news for projects looking to expand beyond their borders 
in hostile, antimuni broadband states,'' said Robert Wack, president of 
the City Council in Westminster, Md., which began its own gigabit 
municipal network last year.
    For thousands of residents in communities near Wilson, about an 
hour from Raleigh, the court decision has created whiplash.
    In Pinetops, a short drive east of Wilson, many residents cheered 
the arrival of the Greenlight service last year. The former railroad 
stop, known for its picturesque pine trees, has long struggled to 
maintain its population of 1,300. Though many cars pass through the 
town, there is little reason to stop, since many storefronts are 
shuttered.
    Last year, Pinetops officials pleaded with Wilson, its much larger 
neighbor that provides water and power to the area, to also bring its 
broadband service. They saw how having Greenlight had helped Wilson 
attract companies like Exodus FX, a visual effects company that has 
worked on movies like ``Captain America'' and ``Black Swan.'' In 
February, Wilson expanded Greenlight to Pinetops by extending fiber 
lines to 200 homes, and it has plans to serve 400 homes by later this 
year.
    Tina Gomez, a Pinetops resident, quickly saw Greenlight's benefits. 
She recently got a telework job with General Electric, which requires 
reliable high-speed Internet service to run a customer service software 
program. Ms. Gomez, 37, also started online courses in medical billing 
and coding. Before subscribing to Greenlight, finding telework was a 
challenge because the existing home Internet service was too slow, she 
said.
    Now the political squabble over broadband may hurt her livelihood. 
Mark Gomez, Ms. Gomez's husband, said they would move from Pinetops to 
Wilson when their broadband service was disconnected.
    ``We can't stay if the basic services we need aren't here,'' Ms. 
Gomez said.
    At Vick Family Farms, Ms. Vick recalled what life was like before 
Wilson's municipal broadband service. Her previous service, supplied by 
CenturyLink, often stalled or stopped entirely. One week before 
Thanksgiving a few years ago, the farm was shut down for hours because 
of an Internet failure, so workers had to pack boxes by hand.
    ``We can't step back in time when everyone else is moving 
forward,'' she said.

    Senator Booker. But it's based upon a rural broadband 
program that was done by a municipality. They were able to make 
massive investments in upgrading their farms. It's a really 
fascinating article about innovation at the local municipal 
level and innovation in agriculture, but that's all now being 
put at risk and rural residents could be forced off of the 
information superhighway. And this isn't just a bunch of people 
doing online sports betting; these are folks that need this for 
education, that need this for work, that need this for their 
businesses.
    And so I was disappointed, if not angered, by a recent 
court decision that overturned the FCC's action to approve 
petitions for communities seeking to supply their communities 
with local broadband. I was even more troubled to learn that 
the FCC will not pursue the case further.
    I sympathize with the Commission's tight resources and they 
need to make tough choices, but I think we owe the American 
people, families like this and this family business, a chance 
to fight to make sure that they can get broadband access.
    So in light of the court's decision, how important is 
Congress then, given the FCC's inability to put the resources 
into pursuing this case? Could you just give a few thoughts on 
how important it is for Congress to act on this?
    Chairman Wheeler. A number one importance. There are a few 
words.
    Senator Booker. That's a few words. Man, if everyone was as 
cooperative in my life as you are, I might be married right 
now, sir. Moving on.
    [Laughter.]
    Chairman Wheeler. I can't help with that.
    [Laughter.]
    Senator Booker. Moving on, I know there has been a 
dialogue, and forgive me for having to step out to vote, but I 
just want to get back to the set-top box controversy. I have my 
own unofficial polling mechanism, which is when my Twitter 
blows up, I know that this is an issue on the minds of lots of 
different diverse interest groups around America.
    One of the most robustly debated topics is something that's 
of great interest to me is a guy who has both a TiVo in one 
room and a regular cable box in the other one. The product in 
the cable box is so inferior, so much more costly aggregated 
over time, so much worse technology.
    And I live in a poor neighborhood, and its census tract I 
think is below the poverty line, and see my neighbors getting 
what I think is bilked for this device. However, there are a 
lot of my friends who I trust who are some of the greatest 
companies in this country who create tremendous wealth, are 
responsible for our greatest American exports, who have 
expressed to me legitimate concerns.
    And I would like to just conclude, if you would you said 
that you have been talking with them, that you are 90 percent 
of the way there. I just want for my own benefit, can you be a 
little more specific about the progress you've made, what that 
10 percent gap is, and how do we get to a point where some of 
our valued companies in America are satisfied? What's going to 
get us to 100 percent?
    Chairman Wheeler. Thank you very much, Senator. Let me try 
and be succinct in a complex area. The Congress mandated 
competitive boxes. The industry responded with a licensing body 
that they created. So all this stuff about licensing bodies. A 
licensing body they created that then put out--then did not put 
out licenses. OK?
    Now, as we look at the situation that we've got here, how 
do we set it up so that the industry, not us, is determining 
how this licensing structure works? But how do we learn from 
the past?
    So one thing that we did was we said, OK, let's put a 
little tension on the board. Let's put programmers on there so 
that the cable operators and the programmers are kind of 
keeping each other honest. But, you know, there's an occasional 
backscratching that goes on between those two.
    So we said, well, why don't we put on the equipment 
manufacturers and have a three-way discussion there? So they're 
kind of everybody keeping everybody else honest so the 
licensing can move forward. Absolutely not. Programmers 
wouldn't agree. Cable wouldn't agree. That will blow everything 
up. OK?
    So then who is going to be the trust-but-verify backstop in 
this? Well, why not the Commission? That's the thought process 
that brought us to where we are. As I have said repeatedly, we 
are now in the deliberative process at the Commission, and that 
we are open to whatever can solve the problem that has been 
identified in terms of licensing, which I'm not sure is a real 
problem, but I will say I am open-minded to how you solve it, 
and at the same time, respect the mandate of the Congress that 
said thou shall have competition.
    And I'm heartened by my Commissioners up and down the 
table--not my, the Commissioners up and down the table saying 
they want to work together on this proposal, and I want to join 
with them and try and resolve this.
    Senator Booker. I'm way over time. I want to thank my 
Chairman for his indulgence. I appreciate it.
    The Chairman. Thank you, Senator Booker.
    Next up is Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And I want to begin by thanking all of you on the work that 
you and your staffs did on the Alaska Plan. I know that several 
months ago we had a hearing where you all committed to make the 
decision whether you were supportive or not by the end of the 
second quarter. And we're close, so I appreciate that, and I 
appreciate the work you're currently doing to finalize the CAF-
II funding issue, and I know that the staffs are working on 
that as well with Alaska's price cap carrier.
    And, Mr. Chairman, you mentioned that it's all about 
coverage, of course, particularly in the rural communities, 
particularly in the extreme rural communities that I like to 
say. You know, I was out, like all of us, back home over the 
summer, and was in a lot of communities that are still 
struggling. You know, sometimes you think about the most remote 
communities that don't have a lot of activity.
    I was actually out on Alaska Dutch Harbor, this is out in 
the Aleutian chain. This is the number one seafood port in 
America, so it has enormous economic activity out there, but 
still really, really concerned about the lack of broadband 
access. And I know that the work the Commission did is going to 
help on that. So again I want to thank everybody for working 
hard on that issue for my State, which I think has some unique 
problems or challenges.
    I want to broaden the discussion here, though, building on 
a little bit of what Senator Daines was talking about, about 
small businesses, and broaden it to kind of the broader issue 
of the lack of economic growth that's going on in the country.
    This is an incredible dynamic industry that all of you 
oversee, and yet when you look at our growth from our Nation's 
perspective in the last 10 years, it has been very substandard. 
President Obama will be the first President that, I think, on 
record has never ever hit 3 percent GDP growth in one quarter. 
We've had a lost decade of economic growth, and one of the 
reasons I think that's clearly happened is that we overregulate 
ourselves in so many different sectors.
    So we've had the Secretary of Transportation here saying it 
takes 5 to 6 years on average to permit a bridge. We had the 
head of the Seattle Airport who talked about it took 14 years 
to get a permit to expand a new runway at Sea-Tac. In the oil 
and gas sector, it took 7 years and $7 billion for a company to 
get permission from the Federal Government to drill one 
exploration well off the coast of Alaska; 7 years, $7 billion. 
We're our own worst enemy, as the Federal Government, on 
inhibiting economic growth.
    In the last hearing, all of you committed to working with 
us on looking at legislative recommendations on the way we, in 
Congress, can assist the FCC in helping streamline our 
processes and get projects moving, get dirt moving, starting to 
build things.
    So I offered an amendment on MOBILE NOW that would have an 
application deemed granted if there's a certain amount of time 
that passes on construction on Federal lands.
    But what I really want to hear just from all the 
Commissioners is on this issue, I know you've been thinking 
about it a lot, but what are the big issues that we need to 
help deploy the resources of this very dynamic industry so we 
can start growing the economy? And I know you've been thinking 
about it.
    Commissioner Rosenworcel, I know you've been thinking about 
it. Can you--and I really want to open this up to all of you. 
What can we do, what should we do, to help us start building 
things in this country again, particularly in this very dynamic 
sector of our economy?
    Commissioner Rosenworcel. Thank you, Senator. You know, we 
now are in the early days of a wireless revolution. It's 
becoming such an important part of civic and commercial life, 
and the challenge is to get it built everywhere, especially as 
we move to a new future with the Internet of things. And we 
spend so much time talking about spectrum and what's happening 
in the skies, and the least glamorous part is what's happening 
on the ground, but it deserves twice as much attention.
    We need dig-once policies all around the country, 
especially in Federal lands, to make sure every time we have a 
construction project, we also lay fiber. That fiber serves 
wireless facilities and towers.
    We need to start holding contests for communities and tell 
them, ``There's a reward in it for you if you figure out a way 
to expedite wireless deployment, particularly of small cells 
and new architecture and infrastructures.''
    And then, finally, I think when it comes to Federal 
authorities, which control about one-third of our Nation's real 
estate, we should make sure that there are master contracts and 
that they are required to use them. And if we do that, we will 
standardize and harmonize it and actually achieve some more 
build-out.
    Senator Sullivan. Well, we want to work with you because 
those are all--you don't, Mr. Chairman, you don't have the 
authority on those kind of issues. You need legislative 
approval to do that kind of streamlining to deploy these 
assets. Isn't that correct?
    Chairman Wheeler. There is a debate over that, Senator. I 
have been very encouraged to hear my two colleagues today talk 
about how we have to step up to the question of preemption on 
siting issues. We need to respect the rights of localities.
    Senator Sullivan. Of course.
    Chairman Wheeler. But the rights of localities do not 
extend to thwarting the construction of the information pathway 
of the 21st century. And how do we work that out in a balancing 
act? And that's what they are to----
    Senator Sullivan. Well, we want to work with you, Mr. 
Chairman. I know my time has expired, but we also want to work 
on your ideas on Federal lands because to me that's where we 
clearly have a jurisdictional role. It doesn't get into the 
issue with the smaller communities and localities. And I think 
it's an area where we can get a lot of bipartisan support to 
start building things. And I want to work with all the 
Commissioners on these ideas because I think we can really 
achieve some bipartisan consensus here on some of these 
important issues. So thank you.
    Thank you, Mr. Chairman.
    Chairman Wheeler. Senator, can I do 30 seconds? T.W. Patch 
is the guy who deserves the credit for getting the ball rolling 
on the Alaska Plan that you were talking about. And I just want 
to make sure that he gets the public recognition.
    Senator Sullivan. Well, he's a good friend of mine, so I'm 
glad that you're mentioning this in this hearing, and I'll pass 
it on.
    Chairman Wheeler. Great.
    Senator Sullivan. Thank you.
    The Chairman. Thank you, Senator Sullivan.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Thune. And I know 
Senator Gardner is not here, but I have the same issue in terms 
of New Mexicans watching television in another state, and so I 
hope we can work with him on that.
    Chairman Wheeler. They don't want to watch the Broncos is 
what you're saying.
    Senator Udall. Yes, well, this week marks the 15th 
anniversary of the tragic terrorist attacks of September 11, a 
day that is seared, I think, into our Nation's history. We'll 
never forget the heroic first responders who ran to the rescue. 
Sadly, radio interoperability problems led to further loss of 
life.
    And this should remind us that our Nation's communications 
networks do more than just let us call someone, watch TV, or 
shop online. In emergency situations, our communication 
networks save lives, and you all, as Commissioners, know that 
very well. We should keep that broader perspective in mind as 
we debate communications policy in this committee and at the 
FCC.
    Commissioner Clyburn, I really appreciate your visit to New 
Mexico on the Navajo Nation last month. And thank you earlier 
for reading a New Mexican's letter about broadband.
    We had a tragic incident happen on the Navajo reservation 
following the abduction and death of 11-year-old Ashlynne Mike 
near Shiprock, New Mexico, on the Navajo Nation. The Navajo 
Nation moved to put an Amber Alert system in place, but this 
won't work in areas without wireless service. And this is just 
one example of how the digital divide impacts those living on 
tribal lands.
    And so, Chairman Wheeler, I have other questions for the 
record, but I now want to ask each of you a ``yes'' or ``no'' 
question. In my home state of New Mexico, 80 percent of those 
living on tribal lands do not have access to broadband, four 
out of five people without broadband access. I find that 
appalling.
    So I would like to ask a simple ``yes'' or ``no.'' Will you 
support Chairman Wheeler's effort to take action this year to 
address the digital divide on tribal lands?
    Why don't we start with you, Commissioner Clyburn.
    Commissioner Clyburn. Absolutely, Senator.
    Senator Udall. Thank you.
    Commissioner?
    Commissioner O'Rielly. I don't know what his plan is, but 
I'm in favor of solving the issue, yes.
    Senator Udall. Good. Well, we want to work with you on 
that.
    Commissioner?
    Commissioner Pai. Yes.
    Commissioner Rosenworcel. Yes, Senator.
    Senator Udall. And obviously--please say a few words here 
about----
    Chairman Wheeler. And let me hang my head here for a minute 
because at a previous hearing I told you this would be taken 
care of by football season.
    Senator Udall. Yes.
    Chairman Wheeler. We're in football season. We are going to 
deal with this, sir. We will deal with it before the end of 
football season. But as you've heard my colleagues' support for 
doing this, dealing with rate-of-return carriers, and how do we 
make sure there are sufficient rate-of-return opportunities on 
tribal lands? Yes, sir.
    Senator Udall. Thank you, Chairman Wheeler, for your 
commitment to this.
    Commissioner Rosenworcel, we met with students when you 
were in New Mexico at Hatch, New Mexico, who do homework in the 
parking lot or at a Pick-Quick store where there is free WiFi. 
We need to close this homework gap facing students who come 
from rural and low income families.
    Jonah Madrid, a varsity football player at Hatch Valley 
High School, had a bright idea. Jonah told us there should be 
WiFi available on the school bus. That would help him do 
homework when his team travels long distance for games. Schools 
currently receive E-rate support for Internet access at school, 
but not on their buses. Do you agree that WiFi on school buses 
could help close the homework gap? And should this be eligible 
for E-rate support?
    Commissioner Rosenworcel. Yes. Well, first of all, thank 
you for having me in Hatch, New Mexico. It was a treat. And I 
still remember that football player, this high school student, 
who told me in rural New Mexico he would take the bus an hour 
and a half out to play games and an hour and a half back at 
night, and then sit there in the pitch black darkness of the 
school parking lot with his device because it was the only way 
he could get his homework done. It seems to me that that's 
trying too hard and we should be able to help him, and I think 
we should use the E-rate program to help make sure that their 
school buses are wireless buses and have WiFi on Wheels.
    Senator Udall. Great. Thank you. I don't know if any other 
Commissioners have a thought on that.
    Chairman Wheeler. Far be it from me to question 
Commissioner Rosenworcel on the homework gap.
    [Laughter.]
    Senator Udall. OK.
    Commissioner Rosenworcel. I like that.
    Commissioner O'Rielly. I could only suggest that it may 
require a change in statute, and it may not be something that 
we're allowed to do in the current provision, but that doesn't 
mean--I'm not sure--and I'm also--quite frankly, this is the 
first time--now, this may be the best solution, there may be 
other opportunities to help this particular individual or 
other--those that are in situations. So I'm not sure that's the 
best solution, but I'm open to solving the problem.
    Senator Udall. OK. And we'll share our authorities with you 
that I think indicate that there is an ability to do this.
    Thank you very much.
    Thank you, Chairman Thune.
    The Chairman. Thank you, Senator Udall.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you all for being here and for your good work.
    Let me make a couple of really simple points. I know your 
world is a complicated one, the dockets, the agenda, but here 
are some really simple points.
    The U.S. Congress must confirm Commissioner Rosenworcel. 
She has been a leader in identifying the homework gap, she has 
been a tireless advocate for public safety officials, and she 
has been a leading thinker at the FCC on creative ways to 
update our spectrum policy for both licensed and licensed use. 
She is a distinguished member of the FCC. And her confirmation 
was part of an agreement that led to confirmation of 
Commissioner O'Rielly.
    I'm looking at you, sir. And I know you were not part of 
this agreement.
    [Laughter.]
    Senator Blumenthal. So I'm looking at you because you are a 
member of this Commission and you would not be there but for 
this agreement. And I'm calling on the majority leader very 
simply to keep his promise.
    Number two, on the set-top box issue, Chairman Wheeler, I 
want to really express my gratitude to you on behalf of the 
consumers of Connecticut, who will stand to save millions of 
dollars as a result of the rule that you are proposing. And, 
again, to be very simple, I hope not overly simple, there's a 
law that requires it.
    I'm a law enforcement guy. The first and foremost duty of 
anybody in public office is to enforce the law. If it's 
unenforced, it undermines the credibility and trust of 
everybody in that law. And the set-top box order that you have 
issued very simply enforces a law that has been unenforced 
since the 1990s, as we all know. It will save not only 
Connecticut consumers but consumers around the country millions 
of dollars.
    There must be FCC oversight. Voluntary standards got us 
into this mess. Only reliable and consistent enforcement law 
will help preserve consumers' pocketbooks.
    And I want to enter into the record editorials from some of 
the newspapers that have expressed themselves on this issue, 
most recently the New York Times, of ``Today,'' which very 
emphatically came down on the side of consumers.
    This issue is a classic ``inside-the-Beltway versus the 
people of America'' issue. Inside the Beltway, there is this 
hand-wringing and, ``My goodness, what are we doing?'' Outside 
the Beltway, there is no question that consumers deserve to 
save money through more choice and more competition. That's the 
way markets work.
    So I am leading to a question here, but I want to express 
the strong view that this rule is needed and deserved by the 
consumers of America. And I would like to just open it to you, 
sir, to explain perhaps what the numbers are here in terms of 
savings. These set-top boxes are dollar devourers; they simply 
suck money out of consumers' pockets without any real need. And 
what are the numbers in terms of potential savings?
    Chairman Wheeler. Well, thank you very much, Senator. You 
know, I was talking to Senator McCaskill earlier about the 
study that she did on cable pricing and the consumer experience 
of cable consumers, and how one of the major findings of that 
was the surprise, ``Oh, my goodness, I've got this additional 
charge. This isn't what they were telling me on the ads and 
everything else. But there's this additional charge.''
    You and Senator Markey did some great research that came up 
that show there's about $230 a month per household. You do the 
math on that, and it's about $1,600,000,000 every 30 days.
    Senator Blumenthal. Without any benefit to consumers.
    Chairman Wheeler. Without any choice. And, by the way, I 
don't mean to quibble, but the benefit is you are going to pay 
this or the money that you spend on your cable subscription is 
down the tubes. So it is beyond that. Yes, you get a result 
from your payment because you're being held hostage. And as 
Commissioner Rosenworcel has said repeatedly, it's time to do 
something about this.
    We respect greatly the various corporations and trade 
associations that have come to see us, and we try to work with 
them, but the Congress gave us a mandate of a responsibility to 
consumers, and our job must be to fulfill that mandate.
    Senator Blumenthal. Thank you very much. My time has 
expired.
    Thank you, Mr. Chairman. And I offered--I guess I didn't 
wait for the potential objection by entering those editorials 
into the record, but if there's no objection, I'll have them 
part of the record.
    The Chairman. Without objection.
    [The information referred to follows:]

 Seattle Times--Originally published March 2, 2016 at 4:36 pm Updated 
                        March 2, 2016 at 5:24pm

            FCC right to think outside the cable set-top box

                    By Seattle Times editorial board
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Seattle Times illustration
The FCC is finally breaking the stronghold that cable companies have on 
        the set-top box market. That's good, as long as it's not just a 
        giveaway to Google.
    ENDING the cable-box racket that burdens millions of Americans is a 
good proposal by the Federal Communications Commission.
    There are several reasons to proceed cautiously, however. It's 
troubling that the agency apparently cozied up with Google as it 
developed the new rules.
    The idea, floated by FCC Chairman Tom Wheeler, is that all sorts of 
companies should be able to build and sell set-top boxes. People should 
be able to buy their own boxes, instead of having to lease them from 
cable providers.
    This is appealing. Americans pay an average of $231 annually to 
rent cable boxes, with costs increasing 185 percent since 1994, 
according to the FCC.
    FCC action is overdue. For the last 20 years, the agency has 
struggled to comply with a congressional directive to open up the 
market for set-top boxes. In recent years, it seemed to go the opposite 
direction, authorizing cable companies to mandate that each customer's 
TV use some form of set-top box to access channels.
    In proposing to finally ``unlock the box,'' Wheeler cited the FCC's 
2007 decision to let people buy their own cellphones instead of having 
to use hardware provided by phone companies. A remarkable period of 
innovation and choice ensued.
    Expectations for a set-top-box revolution should be tempered. This 
hardware should eventually be displaced by apps running directly on 
Internet-connected ``smart'' TV sets. If that happens, consumers 
wouldn't want or need additional devices or services just to watch 
their shows.
    As the technology and rules evolve, cable companies will find ways 
to make up for lost hardware revenue, just as phone companies have done 
since 2007.
    Companies like Comcast may find ways to charge fees for devices 
that receive their signal, whether it's a smart TV or set-top box 
purchased elsewhere. ``Device billing'' is an area where the FCC is now 
seeking public comment on how to proceed before it finalizes the rules 
later this year. Device fees could make the medicine worse than the 
disease.
    Cable companies might also respond by stepping up efforts to meter 
data--including digital video--which is delivered over their networks. 
This could mean stricter caps on how much can be streamed monthly and 
charging overage fees, like wireless companies.
    Another lesson from the wireless industry is to be wary of Google.
    Nine years ago, when the search giant entered the phone business 
with its Android platform, the talking points were similarly about 
giving consumers and device makers freedom and options.
    Now Android has a dominant 83 percent share of the world smartphone 
market and has generated $31 billion in sales for Google, according to 
a recent lawsuit. The software is free, but Google profits immensely by 
using the platform to sell ads and media, and pull users to other 
Google properties.
    This prompted a European Commission investigation into complaints 
that Google gets an unfair advantage from services it bundles with 
Android.
    Google fares better with U.S. regulators. It lobbied the FCC to 
open the set-top market to competing devices. Then it apparently 
received early word of Wheeler's proposal--after his announcement, it 
reportedly had a prototype box ready to demonstrate in Washington, D.C.
``It would be nice to pay less and have more choice when it comes to 
        cable boxes.''
    This schmoozing raises questions about whom the new rules really 
benefit. It also gives credence to cable companies' argument that the 
proposal basically gives their content to Google.
    It would be nice to pay less and have more choice when it comes to 
cable boxes.
    But the FCC needs to be sure that it's not trading one monopoly for 
another, with an additional layer of ads on top.

Editorial board members are editorial page editor Kate Riley, Frank A. 
Blethen, Ryan Blethen,Brier Dudley, Mark Higgins, jonathan Martin, 
Thanh Tan,William K. Blethen (emeritus) and Robert C. Blethen 
(emeritus).
                                 ______
                                 

                  The Boston Globe--February 10, 2016

             FCC Should Unlock Savings for Cable Consumers
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Andrew Harnik/AP/File 2015

    Set-top cable and satellite television boxes look, and sometimes 
act, like relics from an earlier technological age. Most of them are 
clunky, finicky, and ugly. There's also something else anachronistic 
about the equipment--the monthly rental fee that companies charge 
customers for their use. Set-top box fees total about $231 a year per 
household, according to the Federal Communications Commission. A report 
released last July by Democratic senators Edward J. Markey of 
Massachusetts and Richard Blumenthal of Connecticut said the rentals 
generate more than $19.5 billion annually for the industry.rentals 
generate than $19.5 billion annually for the industry.
    Because nearly all customers sign up for service that bundles the 
boxes into complicated pricing packages, few people realize what 
they're being billed for--about 99 percent opt for box rentals. That's 
given cable companies little incentive to make set-tops less expensive 
and more useful. FCC Chairman Tom Wheeler, writing for the tech website 
Re/code, said a recent analysis showed that the price of set-top boxes 
has risen by 185 percent over the last two decades, while the cost of 
TVs and computers has fallen by 90 percent.
    Under a common-sense proposal put forth by Wheeler, the regressive 
era of never-ending payments could give way to greater innovation, and 
savings for consumers. The commission is scheduled to vote February 18 
on a plan that would unlock some of the technology inside those heat-
generating TV boxes. It would allow outside vendors access to cable 
companies' programming, but not their proprietary information, Wheeler 
said, while ``maintaining strong security, copyright and consumer 
protections.'' That would motivate more forward thinking tech companies 
to make their own versions of the equipment, which customers could 
buy--instead of lease--and then choose whichever cable or satellite 
provider suits their needs. It is possible to do so now, but the 
choices are limited.
    Wheeler's model also would promote better integration of the two 
primary ways people use their televisions--to watch traditional 
stations and cable networks, and to stream Internet-based services such 
as Netflix, Hulu, and YouTube. Now millions of viewers who want to do 
both have to clutter their consoles with set-top boxes from cable 
providers and separate equipment from Amazon, Apple, and Roku, or other 
streaming companies.
    The cable industry, along with some content creators and 
programmers, last month formed an organization called the Future of TV 
Coalition to oppose the FCC's proposed changes. The group says cable 
companies already are introducing pay-TV apps that eliminate the need 
for set-tops, ``a trend that will only accelerate,'' and doesn't 
require government interference. Comcast, the country's biggest cable 
company, has rolled out a souped-up cable box for its Xfinity customers 
and also offers a service called Stream TV that doesn't require a box 
for live viewing.
    Alfred C. Liggins III, the Future of TV Coalition's cochair, called 
Wheeler's plan ``a brazen money grab by Big Tech companies that would 
do severe damage to the programming ecosystem, and in particular, niche 
and minority-focused networks.'' By Big Tech, he probably means Google, 
which is pushing its own fiber-optic system, and sells the popular 
Chromecast Internet-streaming device. But the trade group's argument 
smacks of desperation. Cable-box rentals are a throwback to the days 
when people leased rotary phones from Ma Bell.
    ``Consumer choice should fuel the video-box market, not cable 
company control'' said Markey, who coauthored the 1996 
Telecommunications Act and is a longtime critic of the industry's 
consumer-unfriendly practices. ``In the 21st century, consumers should 
be able to choose their set-top box the same way they choose their 
mobile phone.''
    The FCC can't pull the plug on this practice fast enough.
                                 ______
                                 

      Bloomberg View--Editorial Board--April 20, 2016 1:49 PM EDT

               Cheaper Cable TV Starts With a Better Box

    Like a lot of Americans, President Barack Obama thinks cable TV 
costs too much. Unlike a lot of Americans, he is in a position to do 
something about it--and even if he fails, it's still worth the effort.
    Last Friday, Obama took the unusual step of announcing his support 
for a proposal from the Federal Communications Commission intended to 
make it easier for customers to purchase their own set-top cable boxes. 
Whether the idea would actually save consumers money remains to be 
seen, but it could help bring more competition, improved technology and 
greater choice to viewers.
    Currently, about 99 percent of cable-TV subscribers rent their set-
top boxes from their local providers. The average household pays more 
than $200 a year, generating as much as $20 billion in revenue for the 
companies (the cable industry disputes these numbers). The FCC's past 
attempts to open up the cable-box market have failed--in large part 
because cable providers did their best to make buying third-party boxes 
a hassle. This time, though, the government has powerful new allies: 
Google and other tech players with just as much muscle and money as the 
cable giants.
    What they're after isn't so much sales revenue as information. They 
want all that data on subscriber habits and interests, which they could 
then use to sell personalized ad space on video channel guides and the 
like. The cable industry is trying to persuade viewers that this plan 
is a threat to their privacy, but for all anyone knows, the cable 
companies may already be doing the same thing is working on separate 
guidelines to let cable subscribers block providers from collecting 
personal data.)
    The FCC wants not just more competition, but a world in which 
consumers need only one box and a single remote control to explore all 
the information coming through their cable wires. This seems unlikely. 
More plausible is a future in which all these competing services, along 
with new app-based technologies, combine to give viewers an (even more) 
dizzying array of choices, from all-you-can-surf packages to more 
narrow, interest-based collections of channels. Either way, the FCC 
proposal is likely help bring more disruption more quickly, which is a 
good thing.
    Some technical but important details will need ironing out. The 
proposal would create a commission devoted to standardizing data flows 
for all devices, as well as protecting content creators' copyrights and 
viewers' personal data. There will be time to work these things out. 
The public comment period is about to end for the proposal, which will 
almost certainly face a legal challenge from the cable industry. By the 
time the plan is ready, in a year or two, both traditional set-top 
makers and newer tech rivals will surely have refined the technology to 
take better advantage of the unshackled market.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For the monopolistic cable industry--already squeezed by consumer 
cord-cutting; Internet video-streaming services; and popular 
programming from Netflix, Amazon and other upstarts--this will be 
another blow to the bottom line. But these stodgy companies largely 
have themselves to blame for their unpopularity and obsolescence. The 
FCC's proposal is a small but smart step in an inevitable march toward 
greater competition. Americans should be able to appreciate that on 
whichever screens they choose.
                                 ______
                                 

              Chicago Tribune--February 15, 2016, 12:08 PM

 Editorial: Imagine your viewing options if the FCC unlocks the cable 
                                  box

                           By Editorial Board
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Federal Communications Commission will vote Thursday on a 
proposal to give competing tech firms access to the set-top box 
business. (Handout, TNS)

    In an earlier tech era, consumers rented telephones from Ma Bell. 
As for innovation, well, if you didn't want a black phone, you could 
get one in white or avocado green. An echo of that outdated experience 
exists today for cable TV watchers, nearly all of whom must rent the 
cable box.
    On Thursday, the Federal Communications Commission is expected to 
vote on a proposal that would give competing tech firms access to the 
set-top box business, a development that should bring down prices and 
spur new, creative ways to watch television.
    Even if this simply means getting rid of a few remotes or paying 
less for an ugly, required contraption, we're all in. Households fork 
over an estimated $231 in annual rental fees, the FCC says, putting 
billions into the pockets of cable companies year after year. The 
Consumer Federation of America believes cable subscribers overpay by $6 
billion to $14 billion a year. Give us the option of buying a box, the 
way we buy a cheap router for home Wi-Fi, and give us fewer remotes, 
and we'll be happy enough.
    But that should be just the beginning. It's reasonable to expect 
that competition will mean much bigger changes to the TV experience, 
because what the FCC would do is require cable companies to open the 
design specifics of their platforms to outsiders.
    Loosening the cable company's hold on the set-top box weakens the 
barrier that separates cable from the rest of the digital entertainment 
world. Imagine buying a device or service that simplifies and 
integrates the experience of watching cable TV and Internet-based 
streaming video programming. Imagine, too, the ability to channel surf 
easily between ESPN, Hulu, Netflix and other offerings.
    There are no guarantees how this ends up, but you can picture this 
hastening the day when cable operators give in to unbundling-permitting 
subscribers to cherry-pick their channels instead of being required to 
buy packages that include programming they never watch.
    You can presume cable operators don't want to upend the status quo. 
Alfred Liggins, co-chair of a coalition opposed to the FCC move, said 
in a statement that the proposal is ``a brazen money grab by the Big 
Tech companies that would do severe damage to the programming 
ecosystem.''
    Those changes to the ecosystem were already under way. Consider, as 
we wrote recently, the growing number of TV viewers who have cut the 
cord on cable and watch a collection of subscription services like 
Netflix on their smartphones and tablets. Change is happening-except 
when it comes to renting the set-top box.
    FCC Chairman Tom Wheeler, who's pushing hard for this deal, put it 
well in an interview with Variety's ``PopPolitics'' on SiriusXM:
    ``The big kick I get is that AT&T and the cable companies have been 
putting out statements that say, `This is going to thwart innovation.' 
And I scratch my head and say, `My goodness, let's see. When was the 
last time that competition thwarted innovation rather than spurring 
innovation?' And you are telling me that a locked-down, closed system 
will have more impetus to be innovative than a competitive, open 
system? I think that history shows that it is exactly the opposite of 
what happens in reality.''
    Indeed, this brings us back to that avocado telephone. Until 1968, 
AT&T controlled the entire phone system, requiring customers to lease 
equipment and banning any third parties from connecting to its network 
Then, through what's known as the Carterfone case, the FCC lifted the 
ban on outsiders.
    The result was nicer phones you could buy instead of rent, yes, but 
it also hastened a technological revolution: answering machines, fax 
machines, modems and eventually the Internet. A completely new world, 
spurred by increased competition.
                                 ______
                                 

                  Los Angeles Times--September 9, 2016

                    It's time to kill the cable box

                      By The Times Editorial Board
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The rear of a cable box is seen sitting atop a television in 
Philadelphia in May 2007. Federal Communications Commission Chairman 
Tom Wheeler has proposed a rule that could eliminate the need for cable 
and satellite converter boxes. (Matt Rourke/AP)

    Since taking office in 2013, Federal Communications Commission 
Chairman Tom Wheeler has battled seemingly every company his agency 
regulates as he has pushed for rules to protect the open Internet and 
online privacy. Now, Wheeler is jousting with a set of players not 
within the FCC's purview--the major Hollywood studios--as he tries to 
fulfill a long-neglected congressional mandate.
    The issue is the near monopoly that cable and satellite TV 
operators have over the converter boxes that enable consumers to 
unscramble and watch the channels for which they've paid. As part of a 
1996 overhaul of communications law, Congress required the FCC to 
assure that alternatives to these boxes would be available from 
retailers. But resistance from cable operators, technical challenges 
and the studios' legitimate concerns about piracy combined to thwart 
would-be competitors from coming up with compelling, reliable and easy-
to-use converter-box alternatives. Major consumer-electronics companies 
simply stopped trying after experimenting briefly with supposedly 
``cable ready'' TVs and set-tops that couldn't support the full lineup 
of pay-TV services. As a result, cable and satellite companies collect 
an estimated $20 billion per year--more than $230 per household on 
average--in fees for converter boxes that typically are bastions of 
yesterday's technology.
    Wheeler took a different tack in February, unveiling an ambitious 
proposal to require pay-TV operators to make their programming 
available in streams with standardized formats and security so that the 
manufacturers of smart TVs, Blu-ray players, game consoles, tablet 
computers and other devices could adapt their products to act as cable 
or satellite TV converters too. He backed down, however, when the 
studios, TV broadcasters and other programmers complained that this 
approach could wipe out some of the restrictions they'd negotiated with 
cable and satellite operators over how their content could be used. 
These include limits on recording and commercial-skipping, as well as 
requirements for where networks appear in channel lineups (for example, 
requiring a news channel to appear in the same portion of the program 
guide as other news channels).
    That's the sort of control that Federal law gives copyright owners, 
and the FCC can't argue with it. To their credit, pay-TV operators came 
up with the concept for a more workable approach, which is now the 
centerpiece of a new proposal that Wheeler outlined in The Times this 
week: delivering their programming through an app that could run 
securely on smart TVs and connected devices. This would be a huge win 
for consumers because it would eliminate the need to have a costly 
converter box connected to every TV in the home.
    To preserve the restrictions that programmers negotiate with pay-TV 
operators, consumers could watch pay-TV shows only through the app, 
which would be controlled end-to-end by the cable or satellite operator 
offering it. Wheeler's proposal also would require pay-TV operators to 
make apps available for free on all the major software platforms used 
by device manufacturers (think Apple's iOS, Google's Android and the 
like), and require the apps to offer the same TV experience that 
consumers have through a cable or satellite converter box. In other 
words, anything you could do with a converter box--including recording 
a show or skipping commercials--you'd have to be able to do through the 
app.
    The sticking point for the studios and some other programmers is 
that Wheeler isn't willing simply to trust pay-TV operators to play 
fair with their apps. His proposal would create a licensing body made 
up of programmers and pay-TV representatives to certify that each pay-
TV company's app met the technical standards the licensing body had 
developed. But this body would be overseen by the FCC to make sure it 
didn't impose requirements that were anti-competitive or inappropriate. 
For example, an app couldn't require device makers to exclude other 
legitimate sources of programming, such as Netflix or Amazon Prime. The 
apps also would have to make pay-TV content searchable alongside other 
types of programming, although the licensing body could require device 
makers to filter out pirated material.
    The studios are understandably nervous about this idea of 
``integrated search,'' fearing that someone searching for ``Game of 
Thrones'' will be directed not just to HBO and the iTunes store, but 
also to some Russian website offering free, bootlegged copies of entire 
seasons. So requiring search results to be filtered makes sense, as 
long as the filtering isn't so ham-handed that it screens out 
legitimate online programming sources.
    Yet the studios' concerns don't stop at piracy. On Thursday, the 
Motion Picture Assn. of America complained that Wheeler's new proposal 
amounted to a ``compulsory license'' to the studios' works because it 
``encroach[ed] on copyright holders' discretion in how they exercise or 
license'' their rights. In the studios' view, that discretion is 
unlimited; if, for example, a studio doesn't want Charter to let 
customers display its shows on Apple devices, or if it wants to block 
its programming from homes in certain ZIP codes, it can try to make 
such prohibitions a condition for carrying its programming on Charter's 
cable systems. Any limits the FCC might place on the app licenses could 
interfere with this discretion.
    The MPAA is absolutely right that the FCC can't change copyright 
law. But Congress did give the agency authority over pay-TV operators 
and a mandate to make alternatives widely available to the operators' 
converter boxes. So the agency seems well within its authority to set 
rules on cable and satellite services that respect the licenses they 
negotiate while still barring them from using apps to skew the 
competition among device-makers and programming services--or preventing 
consumers from doing things with an app that they could do with a 
converter box.
    Pay-TV operators wouldn't be required to make apps available under 
Wheeler's proposal for at least two years, giving programmers time to 
negotiate terms with cable and satellite operators for the post-
converter-box era. If they don't want to be part of it, they don't have 
to license their shows for pay TV. But they can't use their copyrights 
as a tool to force pay-TV operators to discriminate or othenvise 
undermine Congress' demand that pay-TV operators give up their 
converter-box stranglehold.
    Wheeler's plan shows how the FCC can live up to that congressional 
mandate while still protecting copyrights and saving U.S. consumers 
billions of dollars, and the commission should move forward with it.
                                 ______
                                 

    The New York Times--The Opinion Pages Editorial--Sept. 15, 2016

                  Free TV Viewers From Cable Box Fees

                         By The Editorial Board

    That little black cable box beside your television is your gateway 
to dozens of great shows. It's also a drain, sucking money out of your 
home. Every month, millions of Americans are forced to pay high fees to 
rent cable boxes. The only way this can change is if the Federal 
Communications Commission votes to require cable companies to make 
programming accessible through other devices, ones you could own 
outright. A vote is set for Sept. 29.
    On top of the fees they pay for the programming itself, people 
spend an average of $231 a year to rent cable boxes, or about $20 
billion annually, according to an analysis by two senators. Those 
rental fees have gone up 185 percent since 1994, according to the 
Consumer Federation of America, in large part because cable companies 
know that people have limited choices. By contrast, when it comes to 
cellphones, consumers can choose their wireless carrier and hardware 
separately.
    Ending cable's monopolistic control over set-top devices would 
result in more choice at less cost. The F.C.C. chairman, Tom Wheeler, 
has proposed requiring most cable and satellite companies to deliver TV 
programming through applications that run on devices made by the likes 
of Apple, Amazon, Google and Roku. People could download the apps free; 
they would still pay for programming.
    Large cable and satellite companies would have two years to develop 
the apps and smaller cable companies would get four years. Some large 
cable companies, like Comcast and Time Warner Cable, already have apps 
for some of the competing devices. Cable companies that serve fewer 
than 400,000 users would be exempt. People who prefer renting cable 
boxes could continue doing so.
    Mr. Wheeler has tried to make his proposal more palatable to the 
cable companies by giving them control over how the apps work. But they 
oppose having the commission approve any licensing agreements they 
negotiate with device makers, because that would allow regulators to 
tinker with those contracts. But without F.C.C. approval of the 
agreements, cable companies are likely to set onerous conditions on 
device makers or cut exclusive deals with certain makers that would 
limit consumers' choices.
    Instead of freeing consumers from the set-top box squeeze, some 
Republican and Democratic members of Congress are supporting the cable 
industry, a generous campaign contributor. The lawmakers are trying to 
pressure one commissioner in particular, Jessica Rosenworcel, who was 
nominated by President Obama for a second term last year but has not 
been confirmed by the Republican-controlled Senate.
    Phones, computers and virtually all other electronic devices become 
more useful and cost less over time. Why should the box that brings TV 
shows and movies into homes be any different?

    The Chairman. Thank you, Senator Blumenthal.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    I want to also thank all the Commissioners for appearing 
before us here today, and appreciate certainly your tireless 
work on some very, very complicated issues. And working to 
deploy and develop all the cutting edge 21st century technology 
is certainly a full-time job, and I think you put in more than 
a full-time job based on the hours that you do.
    I have some questions actually for Chairman Wheeler, but 
basically it relates to a letter that Chairman Thune, Ranking 
Member Nelson, Senators Booker, Rubio, and McCaskill, and I 
sent to the FCC, Department of Transportation, NTIA, endorsing 
a plan for the joint testing of two proposals for spectrum-
sharing in the 5.9 gigahertz band.
    In June, the FCC announced it was refreshing the record for 
5.9 gigahertz. In July, the public comment period closed, and 
now it's my understanding that the Commission has received 
prototype devices and is prepared to begin both field and bench 
testing.
    So, Chairman Wheeler, just some brief questions here as we 
wrap up here. I understand that the FCC will release its test 
plan prior to beginning Phase I of interference testing. When 
will the test plan be released to the public? What is your 
estimation?
    Chairman Wheeler. So thank you very much, Senator. As you 
know, there's a three-step process here that you all outlined, 
and we said, yes, that's a great approach.
    We have just received the equipment from five 
manufacturers. So we are beginning immediately to assess that 
equipment, its characteristics, its power levels, its 
interference, all of these kinds of things that we're 
responsible for, on a bench test. But we want to get through 
that quickly and get off onto the DOT and their facilities to 
be able to test it in that environment, and then to move on and 
test it in a real-life environment.
    So this is something that we're moving with dispatch on. 
Actually, the equipment came a little later than hoped for, but 
it's here now.
    Senator Peters. So when do you plan to complete all phases 
of the interference testing? Do you think you'll reach your 
target of January 2017?
    Chairman Wheeler. That's--I can't--I will get an answer for 
you on that from our lab folks, but I'm hopeful that we're--
this is--let's push this forward.
    Senator Peters. Right. So you're hopeful for January----
    Chairman Wheeler. But I will get you--that's not a 
commitment. I will get you a real date once the people who know 
what they're talking about tell me what I think.
    Senator Peters. Well, that's good. That's reasonable.
    Chairman Wheeler. OK.
    Senator Peters. I appreciate that. But when I talk about 
commitments, will you commit, though, to making public all the 
data that is collected by the FCC during the bench and the 
field testing phases?
    Chairman Wheeler. We will commit to the spirit of what 
you're saying. If there is private data that is company-
specific, asked for confidentiality, we will have to respect 
that.
    Senator Peters. Next, what is your target date for making a 
final determination on spectrum-sharing in the 5.9 gigahertz 
band on licensed devices?
    Chairman Wheeler. I think we have to wait and see what 
happens here.
    Senator Peters. So you don't have any kind of----
    Chairman Wheeler. I haven't got a target for you, sir.
    Senator Peters. It's a work in progress.
    Chairman Wheeler. Yes, sir.
    Senator Peters. OK. And most importantly, Mr. Chairman, I 
can't overstate how critical it is that when you're evaluating 
these proposals that it is based on facts, based on science, 
and not opinions. Subjective judgments about what will or will 
not work is just simply not going to substitute for hard 
engineering data, which, because of the importance of the 
spectrum from a safety perspective and some of the incredible 
things that are going to be happening in the years ahead, you 
know, we have to have both rigorous and open review.
    So that's why I would hope that the Commission's final 
determination on spectrum-sharing will be based on that data 
and will undergo that review and there will be plenty of 
transparency throughout the process, as much as possible, given 
some of the constraints that you mentioned, but certainly have 
your commitment and the other Commissioners that this will be 
an open process. It is a very important one and one that has 
tremendous benefits, and we want to make sure that it's being 
done properly.
    Chairman Wheeler. Yes, sir.
    Senator Peters. Thank you.
    Chairman Wheeler. Senator, can I just add one more thing 
here on this, just things you and I have talked about 
previously? I just want you to know that I learned that in the 
next couple of weeks at the Ohio State University, they will 
start driving automated cars, autonomous cars, around campus as 
a part of exactly what you and I are just talking about right 
now. But I just wanted to make sure that your information is 
complete in that regard, sir. And it will be operational the 
last Saturday in November as well.
    [Laughter.]
    Senator Peters. Well, I appreciate that. And at another 
time I will talk about all the wonderful work done at the 
University of Michigan.
    [Laughter.]
    The Chairman. Thank you, Senator Peters.
    And next up is the Chairman of the Homeland Security 
Committee and a fellow Packer fan, Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. Actually, that's 
what I would like to talk about. You know, last weekend opened 
up the regular season, and we had again the very unfortunate 
circumstance, many constituents in Wisconsin were forced to 
watch the Vikings beat the Tennessee Titans 25-16 instead of 
having the joy of watching the Green Bay Packers beat the 
Jacksonville Jaguars at 27-23.
    I worked with a fellow Packer fan, one of his more 
endearing qualities, quite honestly, among many, among many 
fine attributes, a fellow Packer fan. And so we had inserted 
into the STELAR reauthorization the ability to allow 
broadcasters to petition----
    Chairman Wheeler. Right.
    Senator Johnson.--the ability of the FCC to carry those 
signals on a satellite, and wrote to you in December 2015 
asking you to act expeditiously on those petitions. I asked you 
in a hearing back in March 2016 to also do so.
    So I'm glad to announce that we have our first petition 
filed in Wisconsin by Gray Television up in Wausau asking for 
permission to have their signal carried up in I guess it's Iron 
and--well, Ashland and Iron County.
    So I'm just asking you, you've got that petition, will you 
quickly put that out to comments? We have that 20-day comment 
period.
    Chairman Wheeler. Yes, sir.
    Senator Johnson. Beauty. So----
    Chairman Wheeler. And there are components here, as you 
know. I mean, so there's one, this is great, we've got the 
local petition. Two, then we all have to sit down and work with 
the satellite provider for the technical capacity and ability 
to do that.
    Senator Johnson. OK. And I believe the satellite provider 
has agreed to do it. They're in favor of this. So----
    Chairman Wheeler. And I said to Senator Gardner when he 
raised a similar issue about bringing the various parties 
together, we will be happy to come to that table as well if we 
can be helpful.
    Senator Johnson. OK. So can you give me a date? Because, 
trust me, Packer fans are anxiously awaiting the ability to see 
the Green Bay Packers on their satellite signal.
    Chairman Wheeler. A date for when we'll put it out?
    Senator Johnson. Yes, so when you put it out to comments so 
we can start the clock ticking to celebration.
    Chairman Wheeler. I don't know of any reason why we can't 
put it out, I mean, instantaneously----
    Senator Johnson. There you go, tomorrow.
    Chairman Wheeler. They'll kill me at the Media Bureau. As 
fast as humanly possible.
    Senator Johnson. OK. Well, we'll keep asking that question.
    Chairman Wheeler. Good.
    Senator Johnson. OK. Commissioner Pai, as long as I've got 
some time, are you aware of any cost-benefit analysis conducted 
by the FCC in either its set-top box proceeding or privacy 
proceeding currently before the Commission?
    Commissioner Pai. Senator, I am not.
    Senator Johnson. Should there be?
    Commissioner Pai. I do think that any regulation that is 
considered by the Commission should include cost-benefit 
analysis. Otherwise, it seems to betray the public interest to 
suggest that a regulation that would ultimately be bad for 
consumers nonetheless would be passed.
    Senator Johnson. So, Commissioner Wheeler, is there any 
plan to do a cost-benefit analysis?
    Chairman Wheeler. Well, thank you, Senator. I think that 
the whole notice and comment process itself is one huge cost-
benefit analysis because we are constantly having folks come in 
and talk to us about, ``Here's what the cost is,'' or somebody 
else coming and saying, ``Here's what the benefits are.''
    And so, you know, this is--I liken the notice and comment 
processes as kind of the administrative law equivalent of the 
scientific method, somebody proposes something, somebody rebuts 
it, they change it, it goes here, and this is what the whole 
process goes through. So I think that there is a fulsome cost-
benefit that gets done----
    Senator Johnson. That's kind of haphazard as opposed to a 
very formalized cost-benefit----
    Chairman Wheeler. Well, the----
    Senator Johnson. I'm an accountant, so I kind of like to 
actually see the figures. So would a more formalized cost-
benefit analysis be helpful?
    Chairman Wheeler. The--how can you collect as much 
information as possible? And then the challenge, of course, in 
a cost-benefit judgment comes back to that old Harry Truman 
quote, you know, where he said, ``I want a one-handed economist 
because they're always saying on one hand, on the other, and it 
becomes less math and more judgment.''
    And so as we are going through this entire long-running 
administrative process, I think there percolates up to all the 
members of the Commission just what the costs and benefits are 
as put forward by various parties. I mean, you know, the cable 
folks on the set-top box that you raise, I mean, they went out 
and hired, you know, a former chief economist of the FCC to 
come in and give a quantification of their numbers. Others have 
quantified it other ways.
    Senator Johnson. OK. Again, I would like to see a formal 
process.
    Real quick, Commissioner O'Rielly, you recently said that 
carriers are withholding certain free data plans, quote, 
because they're afraid of what the Commission might--may do. 
Can you talk a little bit more about that briefly?
    Commissioner O'Rielly. Yes. So we are--the Commission is in 
the process of examining what is known as zero-rating plans. 
That process has been going on, my understanding, for 10 
months. I've been trying to get better information from the 
bureaus on when this process would conclude. What's the 
likelihood of concluding? What is actual conclusion? Are 
carriers going to get a gold star? Are they going to be told 
there's a violation and go immediately to enforcement action? 
What is the likelihood of that?
    We check in every--periodically. We got our last answer 
yesterday, surprisingly, and the answer came back, which was, 
We continue to work through the issues and not yet in position 
to articulate how each policy review will conclude. We do not 
at this time have a time-frame to provide.
    So it is an ongoing process. We have no idea when it will 
conclude. And in the meantime, carriers are left wondering 
whether the particular service that they would like to offer to 
consumers is permitted, or are they subject to immediately 
going to enforcement action? I think that's a problem.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    Senator Markey, further questions.
    Senator Markey. No further question except to thank you 
and--thank you and the Ranking Member for this great hearing. I 
very much appreciate it. I thought it was excellent, and I just 
wanted to compliment you on that.
    And I would just say to the FCC, I would urge you at the 
next open meeting to take up privacy and take up the BDS 
rulemaking so that we could begin to make progress on that. I 
just urge you to try to put that on the agenda.
    But thank you, Mr. Chairman, for a great hearing.
    The Chairman. Thank you, Senator Markey.
    Senator Nelson, anything else? I have two questions I want 
to ask, but----
    Senator Nelson. I want to enter into the record a letter 
that I had written to the FCC back in February on set-top 
boxes.
    The Chairman. OK. Without objection.
    [The information referred to follows:]

                                       United States Senate
         Committee on Commerce, Science, and Transportation
                                  Washington, DC, February 12, 2016

Hon. Tom Wheeler,
Chairman,
Federal Communications Commission,
Washington, DC.

Dear Chairman Wheeler:

    I write today regarding your plan for the Federal Communications 
Commission (FCC) to begin a rulemaking regarding competition in the 
cable set-top box marketplace. Section 629 of the Communications Act of 
1934 directs the FCC to ``assure the commercial availability'' of 
navigation devices used to access cable and satellite pay TV services. 
I continue to support this mandate and its recognition that consumers 
should have options for how they access and watch pay TV services, 
while allowing innovators the freedom to do what they do best. And like 
so many others, I long for the day when the clunky set-top box fades 
away.
    Indeed, even without FCC action, this day may be closer than we 
think. How consumers access and watch video programming has changed 
dramatically in recent years. From smart TVs to Internet-based video 
platforms to Apple TV, Roku, Amazon Fire TV, and Google Chromecast, 
advances abound in the competitive video navigation device market. TV 
viewers have downloaded hundreds of millions of video navigation 
applications on their phones, tablets, TVs, and set-top box 
alternatives, dwarfing the number of cable set-top boxes in use. 
Section 629 should always be implemented with an eye towards what is 
actually happening in the marketplace, and your rulemaking should 
conduct a fair and balanced inquiry about the many possible approaches 
to accomplish the goals in Section 629. The FCC should not proceed down 
a path to rules that fails to fully account for today's pay TV viewing 
landscape.
    While I support the objective of enabling competition and 
innovation in the market for set-top boxes, any new FCC rules in this 
area must not harm the production and distribution of video content. 
The FCC's rules should not allow third-parties to do more with 
programming content than has been done through negotiated arrangements 
between content owners and their partners. Nor should any new FCC rules 
be the means by which third parties gain, for their own commercial 
advantage, the ability to alter, add to, or interfere with the 
programming provided by content providers. Otherwise, both the viewing 
experience and the economic underpinnings that support investment in 
innovative content stand to be diminished. Section 629 does not seem to 
contemplate such an outcome.
    Given these concerns, the FCC must take a measured approach with 
respect to any rulemaking related to its Section 629 obligations. Your 
inquiry should be impartial and evenhanded, so that the FCC can develop 
a fulsome record on how best to ensure the availability of competitive 
TV navigation devices. The FCC also should avoid taking any action that 
could ultimately threaten the vibrant market for quality video 
programming.
            Sincerely,
                                               Bill Nelson,
                                                    Ranking Member.
    CC: The Honorable John Thune, Chairman

    Senator Nelson. And also just to make a comment, we had 
earlier here a conversation about packing the D.C. Circuit 
Court, and Senator Wicker expressed his opinion that he sees it 
one way. And I just want to make the distinction that for a 
Senator to express an opinion about court packing vis-a-vis a 
particular issue is certainly appropriate because the Senate in 
fact votes on the confirmation of these judges. But for members 
of an independent agency, which is a quasi-judicial body, is a 
separate issue. I want that distinction made clear.
    The Chairman. Thank you, Senator Nelson.
    Very quickly, I want to ask a couple of questions. And this 
was something that Senator Klobuchar touched on, and so I 
wanted to further build on some of the questions that she asked 
about, recent USF high-cost reforms.
    But in its March Universal Service Fund Order, the 
Commission adopted several changes to the distribution of U.S. 
funds to small telecom companies that serve rural America. 
These USF funds are vital for the delivery of broadband 
services in states like South Dakota.
    It's my understanding, however, that there has been very 
little information that has been released since March regarding 
how these reforms are going to be implemented. And I will tell 
you that rural telcos in South Dakota, and I suspect in most of 
the states that Members of this committee represent, are very 
concerned that unless more specific information is made 
available soon, their investment plans for 2017 will be 
seriously impacted, and I find that and I think most Members of 
this committee would find that to be unacceptable.
    So the question has to do--and I would like every 
Commissioner to answer the question as to whether you will 
commit to do everything that you can to ensure that rural 
carriers receive in a timely fashion all the information they 
need to make critical investment plans for 2017 and beyond.
    Commissioner Clyburn.
    Commissioner Clyburn. Yes. I think we have--rarely do we 
move as quickly as persons or entities want us to, but we have 
been very deliberative. We have--for a number of years now, I 
can speak for 7 years firsthand, really are laser-beamed on 
providing service to areas where there is none and to provide 
efficiency for those dollars that are limited.
    The Chairman. OK.
    Commissioner O'Rielly. So, yes, my staff has been working 
with the Bureau to provide information and to expedite the 
answers that the carriers think that they may need. So we have 
been doing that work, given my work on the rate-of-return item.
    The Chairman. OK.
    Commissioner Pai. Yes, Mr. Chairman. It's not just a 
question of providing information; however, there are also a 
number of petitions that are pending with the Commission, and 
we need to address those with dispatch in order for the 
carriers to know whether or not it's appropriate for them to 
opt into the model. So those pending petitions are also 
important.
    The Chairman. OK.
    Commissioner Rosenworcel?
    Commissioner Rosenworcel. The answer is yes, Senator.
    The Chairman. OK. Thanks.
    Mr. Chairman?
    Chairman Wheeler. Yes, sir.
    The Chairman. OK. Thank you.
    And one final point, and I don't want to belabor this point 
because we've covered it at length, but, Chairman Wheeler, I 
just wanted to respond. My question about 3-2 party-line votes 
are on open meetings votes. And you brought up the Effective 
Competition Order, which was not a 3-2 vote; with you siding 
with Republicans, it was at least in part unanimous, but it was 
not an open meeting vote.
    And the votes that I refer to, and it's almost a third of 
the opening meeting votes, which is typically where the most 
important matters are voted on, those have been 3-2 party-line 
votes, which, again, is unheard of, at least relative to modern 
history.
    I just want to ask one last question, and it has to do with 
that particular pattern but with respect to a different issue. 
And so I will direct this to Commissioner Pai. But we've heard 
today that the party-line FCC votes have become routine over 
the past few years, I've mentioned that.
    You mentioned in your dissent of the recent Quadrennial 
Media Ownership Review that a bipartisan majority of 
Commissioners was willing to repeal the newspaper broadcast 
cross-ownership rule. You went on to say, however, that 
Commissioners were told that this rule would not be repealed 
unless all Commissioners agreed and one in the end chose to 
exercise that veto, unquote.
    So I'm just going to ask, could you elaborate on that 
particular vote and approach as opposed to on so many issues 
Chairman Wheeler, who has embraced a partisan outcome, in this 
circumstance, to demand unanimity?
    Commissioner Pai. Thank you for the question, Mr. Chairman. 
It was a rather odd situation since we seem to have an 
overwhelming bipartisan majority that agreed that the rule in 
question in the newspaper broadcast cross-ownership 
restriction, which was originally adopted in 1975, had long 
since outlived its usefulness, and the Third Circuit had 
instructed us to take a serious look at it.
    The Chairman's office told my staff, ``Look, we support 
getting rid of this restriction, we believe that most members 
of the Commission do, but if any member of the Commission 
objects, then we are not going to support getting rid of the 
rule.''
    And, unfortunately, as I pointed out in my dissent, one 
office exercised that option and objected. And what I thought 
was unfortunate was not just that it ended up becoming bad 
policy, I mean, I think this restriction should be removed, and 
most people would agree with that, at least behind closed doors 
at the FCC, but also just the process is very strange, to 
require unanimity on an issue when, as you pointed out in your 
chart, there are a number of high-profile issues where 
Commissioner O'Rielly and I, in particular, have suggested 
changes or made objections, and those suggestions or objections 
are either ignored or dismissed out of hand.
    And so my preference would be to move forward in a 
bipartisan manner. Let's move the broadcast ownership 
regulations into the 21st century together as opposed to these 
random requirements of unanimity.
    The Chairman. Mr. Chairman.
    Chairman Wheeler. Rather than relying on hearsay, I think 
what's important to recognize here is that for 8 years there 
had been a failure at the Commission to comply with the statute 
that required these quadrennial reviews. The reason that that 
situation existed was because it had not been possible to get 
three Commissioners to represent a majority on this issue for 8 
years. Working together, we got a majority on this issue.
    It was not possible to keep a majority and make the kind of 
change that Commissioner Pai talked about. We have been 
criticized for not having a majority. We worked. We got the 
majority for the first time in 8 years.
    And the exercise then became, OK, how do we follow through 
on our statutory mandate that everybody from Congress to the 
Third Circuit criticized us on because we didn't have the 
majority?
    The Chairman. Well, it seems like it is, this is an issue 
where you could have done a separate rulemaking where you had 
bipartisan support. But I guess my observation in this 
circumstance is that it is contrasted quite sharply from the 
pattern that I pointed out earlier where we had 3-2 votes on a 
whole range of consequential issues, and then on this one, a 
requirement for unanimity. That strikes me as somewhat odd.
    But overall I want to say thank you to all the 
Commissioners for being here today. And I know these are--you 
deal with contentious issues, I don't deny that, and deeply 
held differences of opinion about how to proceed. We deal with 
that on this committee on a regular basis, too.
    We try as best we can, Senator Nelson and I and Members on 
both sides, to try and find that consensus, and we don't always 
succeed, but we work very hard to make that happen, and I would 
hope that at the Commission we could see a similar approach and 
attempt because the stuff that you're dealing with, as I said 
earlier, is incredibly important to our country.
    And the Commission's role is incredibly important to our 
country and to our economy, and the relationship with Congress 
I think is incredibly important. We have an oversight role that 
we take very seriously.
    So we appreciate your remarks today, your answers to our 
questions. I would just point out for anybody who wants to ask 
additional questions for the record, if you would, we'll get 
those to you, and if you could submit your answers within 2 
weeks, it will be most appreciated. And with that, this hearing 
is adjourned.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                            Hon. Tom Wheeler
    Question 1. On October 6, 2016, you circulated for the Commission's 
consideration a draft rule and order in the broadband privacy 
proceeding.
    A. Have the commissioners or staff at the Federal Trade Commission 
(FTC) had an opportunity to read the text of the new draft rule?

    B. If not, will the text of the new draft rule be shared with the 
FTC before the Commission votes on the new proposal, and will the FTC 
have sufficient time to meaningfully provide input on the new draft 
rule before the Commission votes?

    C. If the Commission does not intend to share the text of the new 
draft rule with the FTC, please explain why.
    Answer. The Commission's rulemaking process, which has been 
followed over the years by both Democratic and Republican Chairs, is 
designed to give stakeholders and members of the public ample 
opportunity to engage in a transparent and vigorous discussion. The 
process is also designed to give Commissioners a three-week period to 
discuss in confidence the substance of an item before final decisions 
are released. This process is commonplace for administrative agencies 
and allows the FCC to adhere to the Administrative Procedure Act, which 
requires us to consider and address all comments received on our 
proposals.
    In following this standard process with all stakeholders alike, the 
Commission has not published the text of the new draft Broadband 
Privacy Order, nor have we shared it with the Federal Trade Commission 
(FTC). The FTC has, however, had significant opportunity to publicly 
provide constructive input on the broadband privacy proceeding and has 
indeed done so. Staff of the FTC's Bureau of Consumer Protection filed 
comments with the Commission on May 27, 2016. FTC Commissioner 
Ohlhausen filed separate comments on the same date. Further, we 
extended the reply comment deadline for the privacy proceeding, 
providing the public, including the FTC, with additional time to submit 
reply comments. Since the reply period closed, we have continued to 
engage stakeholders and other interested entities. Upon circulating the 
item to my fellow Commissioners, we published a fact sheet and a blog 
post describing the new draft Order to allow the public to understand 
and engage with us on the broadband privacy issues before the 
Commission. Following this release, FTC Chairwoman Edith Ramirez issued 
a supportive statement, saying, ``I am pleased to see the FCC moving 
forward to protect the privacy of millions of broadband users across 
the country. The FTC . . . provided formal comment to the FCC on the 
proposed rulemaking, and I believe that our input has helped strengthen 
this important initiative.'' The FTC, and other stakeholders, may 
continue to meaningfully provide the Commission with input on the 
publicly available information.
    I can assure you that, as I stated last month at the Senate 
Commerce Committee's FCC Oversight Hearing, the FCC has had an ongoing 
dialogue with the FTC throughout the broadband privacy proceeding and 
has taken their comments seriously. Even though the FTC does not share 
jurisdiction with the FCC in this area, we are embracing many of their 
comments in our new draft Order. And as you may recall, at the Senate 
Commerce Committee's FTC Oversight Hearing last month, FTC Chairwoman 
Ramirez confirmed that the FTC engages in regular conversations with 
the FCC, both at the staff level and more senior levels, to discuss the 
approach that the FTC takes when it comes to privacy. Chairwoman 
Ramirez further stated, ``I do . . . as you [Chairman Thune] already 
noted, do know that they [the FCC] take our comments very seriously.''

    Question 2. Recently, the FCC Inspector General (IG) completed his 
investigation into whether you authorized the disclosure of information 
about ongoing commissioner deliberations in advance of the March 31, 
2016, open meeting. The IG found that you did indeed authorize the 
disclosure.
    A. Do you agree with the IG's finding that you did indeed authorize 
a disclosure to Politico in advance of the March 31, 2016, open 
meeting?
    Answer. I do not have a clear recollection of authorizing this 
specific disclosure of nonpublic information, but I do not dispute the 
testimony of my staff that I did so. As I explained to you in my May 2, 
2016 response, my office sometimes decides to disclose nonpublic 
information when we think it will promote the discussion and 
understanding of important policy issues. As the IG report explains, on 
the morning of March 31, 2016, there was intense media interest in the 
timing and the content of the proposed Lifeline Order. The Director of 
the FCC's Office of Media Relations recommended that the Commission 
release high-level details about the Lifeline item to better inform the 
public of the item's status. I do not doubt that I accepted her 
recommendation, as I have done on other occasions when there is high 
public demand for information about the Commission's activities. As the 
IG Report explains, it has been the long-standing position of the FCC 
that section 19.735-203 gives the Chairman the authority ``to change 
the character of information from previously non-public information to 
information that would be available for public disclosure.''

    B. Why did you previously refuse or decline to acknowledge that you 
had authorized the public disclosure of this information to Politico?
    Answer. Your April 15, 2016 letter included allegations of improper 
conduct by Commission employees, including myself. In this situation, I 
was clearly disqualified from investigating your allegations, and 
pursuant to section 19.735-107(b) of the Commission's rules, I 
requested that the IG investigate them instead. In your April 15 
letter, you also cited section 19.735-107(b) as authority for the 
opening of an IG investigation. I publicly promised to cooperate with 
the IG, and, as a potential subject of the investigation, I avoided 
taking any actions that might have had the appearance of interfering 
with or influencing the outcome of the investigation. I was not the 
only person who deferred to the IG's fact-finding process. At the 
hearing before the House Energy and Commerce Committee on July 12, 
2016, for example, Chairman Walden announced that he would not ask 
questions about the disputed events of March 31 due to the pending IG 
investigation.

    C. Rather than acknowledging your disclosure (or approval of the 
disclosure), why did you instead seek to discuss the disclosure of a 
fellow commissioner in your response to my April 15, 2016, letter?
    Answer. In response to your question about my knowledge of whether 
I or other FCC employees disclosed nonpublic information, I simply 
pointed to already public reports that a commissioner's office had 
provided details about the Lifeline negotiations to outside parties. 
The IG's investigation identified a number of other instances in which 
commissioners' offices were communicating with media representatives 
prior to the Commission's open meeting on March 31.

    D. The IG report states that you ``planned to follow Commissioner 
Clyburn's lead on the compromise Lifeline Order'' regarding how you 
would vote. Is this true?
    Answer. The authors of this report make this statement based on 
information they learned in an interview with the FCC's Chief of Staff, 
Ruth Milkman, and on a contemporaneous e-mail she sent to other members 
of my staff. While I do not have a clear recollection of making this 
statement, it is consistent with the general approach since I have been 
Chairman of the Commission. Commissioner Clyburn is a skilled and 
passionate advocate for the Lifeline program and I look to her for 
policy leadership on Lifeline issues.

    Question 3. Chairman Wheeler, in 2014, you said ``there is a new 
regulatory paradigm'' for cybersecurity characterized by reliance on 
private sector leadership and the market first, ``while preserving 
other options if that approach is unsuccessful.'' You also noted that 
``[t]he pace of innovation on the Internet is much, much faster than 
the pace of a notice and comment rulemaking.''
    Similarly, the Administration has stressed the importance of 
public-private partnerships to enhance security, believing that static 
mandates cannot keep pace with growing and evolving cybersecurity 
threats and technological developments. Indeed, this approach, which 
the FCC's Communications Security, Reliability and Interoperability 
Council (CSRIC) has adopted, is helpful in tailoring guidance to small 
and mid-sized companies.
    Despite the foregoing, this year the Commission has adopted 
security measures and reporting requirements in a series of orders and 
notices of proposed rulemaking on consumer privacy, communications 
network outage reporting, technology transitions, emergency alert 
systems, and 5G wireless licensing. Addressing cybersecurity in this 
manner through prescriptive rulemaking appears contrary to the 
Commission's professed desire to pursue the cooperative approach of an 
industry-led, public-private partnership.
    A. Given the recent work of CSRIC IV, what is the reason for this 
apparent shift from industry-led, public private partnership to 
prescriptive rulemakings?

    B. Has the Commission determined that a voluntary, market-based 
approach was unsuccessful?
    Answer. The Commission continues to pursue the industry-led 
paradigm embraced within CSRIC IV. Rather than prescribing how service 
providers protect their systems, this paradigm lets service providers 
determine the security measures that are most appropriate and effective 
for their systems. We believe that providers are in the best position 
to assess their own risk and develop effective security measures to 
address that risk.
    The Commission's work continues to focus on clear lines of 
accountability to address residual risk. We expect service providers to 
be proactive in securing their systems. This approach is consistent 
with the Commission's longstanding security policies that have relied 
on voluntary best practices, leveraging CSRIC recommendations and, 
coupled with outage reporting rules, that do not require that providers 
engineer or operate their networks in a particular manner.
    Under this approach, the Commission must understand where providers 
have accepted cybersecurity risk. The reporting mechanisms recently 
adopted by the Commission accomplish this through a mechanism that is 
similar to how the Commission has tracked network outages for over a 
decade. This approach allows the Commission to identify reliability 
trends and work with industry to flag concerns without having to resort 
to prescriptive rules.

    Question 4. It has been fifteen months since the FCC received 
comments on the ``Cybersecurity Risk Management and Best Practices'' 
report submitted by CSRIC IV. The report was unanimously adopted by 
CSRIC and includes segment-specific analysis to apply the Cybersecurity 
Framework, as well as recommendations in response to the Commission's 
charge.
    A. What is the status of this proceeding and when will the 
Commission take action?
    Answer. I circulated an item to my fellow Commissioners earlier 
this year that would implement CSRIC IV's recommendations. The item 
remains under consideration.

    B. What action has the Commission taken under CSRIC or other 
contexts to examine vulnerabilities with regards to key communication 
protocols like Signaling System 7 and Diameter?
    Answer. As communications technologies transition from legacy 
systems and networks to new all IP-networks, legacy technology is 
potentially vulnerable to new risks. SS7 is one such legacy protocol 
that is both nearing its end of life but still an essential part of the 
communications ecosystem. For this reason, earlier this year, the 
Commission tasked CSRIC to examine vulnerabilities associated with the 
SS7 protocol and other key legacy communications protocols. CSRIC 
established a working group to assess vulnerabilities and current 
defensive mechanisms related to these legacy communications protocols 
and to make recommendations to the FCC on solutions. After meeting with 
several communications security experts on the SS7 security issues, the 
group provided its initial risk assessment brief at its September 
meeting. The briefing highlighted the vulnerabilities inherent in SS7 
in both the wireline and mobile environments, vulnerabilities 
associated with the interworking between SS7 and DIAMETER, and 
potential risk mitigation strategies. CSRIC will submit a final report 
with recommendations to the Commission in March of next year.
    The FCC continues to scrutinize our numbering initiatives to 
identify how underlying SS7 vulnerabilities may increase risks. We are 
working with our Federal Government and communications sector partners 
to bring about meaningful solutions and risk mitigation strategies that 
will reduce risk from SS7 vulnerabilities consistent with the 
Commission's charge to ensure that communications networks are secure, 
reliable, and resilient.

    Question 5. The CSRIC IV's ``Cybersecurity Risk Management and Best 
Practices'' report recommends that the FCC, in partnership with DHS, 
participate in voluntary meetings with communications sector 
stakeholders to review cybersecurity risk management practices.
    A. Does the Commission still plan to conduct these voluntary 
meetings?

    B. If so, how will the Commission ensure that it does not use 
information voluntarily shared for enforcement or rulemaking purposes?
    Answer. Strong cybersecurity policies and protections are crucial 
to maintaining the reliability and resiliency of our commercial 
networks and public safety mechanisms. CSRIC IV proposed that the 
Commission use the DHS Protected Critical Infrastructure Information 
(PCII) program to ensure the strongest protection against disclosure of 
the information that would be received in assurance meetings. The 
Commission would prefer to employ the DHS PCII program, but in the 
interim the Commission is considering an item that would establish 
legally equivalent protections that could apply to such meetings at the 
Commission.

    Question 6. A recent independent evaluation to determine the 
effectiveness of the Commission's information security program and 
practices for Fiscal Year 2015 determined the Commission was not in 
compliance with the Federal Information Security Modernization Act. The 
evaluation disturbingly found significant deficiencies in several 
security areas.
    A. Will you commit to implement information security-related 
recommendations from the IG and independent auditors fully and in a 
timely manner?

    B. Will you please provide the Committee with regular updates on 
your progress to implement these recommendations?
    Answer. The FCC commits to implementing information security 
related recommendations from its Inspector General and independent 
auditors fully and in a timely manner. Furthermore, the FCC will 
provide the Committee with regular updates on its progress to implement 
these recommendations. We would be glad to work with the Committee 
staff to establish a recurring process that fits your needs.

    Question 7. Please provide a copy of the Commission's document 
retention policies. Please include details on the Commission's 
retention of e-mail messages and voice-mail messages and the 
Commission's process for searching e-mail and voice-mail in response to 
Freedom of Information Act requests or other requests.
    Answer. The Commission's document retention policies for Federal 
records are reflected in its records retention schedules. All retention 
schedules are approved by the National Archives and Records 
Administration (NARA), taking the form of either a General Records 
Schedule developed by NARA and adopted by the FCC, or an FCC-developed 
schedule approved by NARA. All of the General Records Schedules are 
available on NARA's website at https://www.archives.gov/records-mgmt/
grs.html. Furthermore, the FCC specific schedules are also available on 
NARA's website at the following link: https://www.archives.gov/records-
mgmt/rcs/schedules/index.html?dir=/independent-agencies/rg-0173. In 
addition, the Commission would be happy to provide committee staff with 
the Commission's internal directive that describes the overall process 
that the FCC uses for record management, including coordination with 
NARA and roles and responsibilities within the FCC.
    These schedules specify the duration for which records must be 
stored. E-mails and voice-mails are generally considered records under 
Federal records laws. Currently, there is no specific records schedule 
for e-mail and voice-mail messages. However, consistent with OMB's 
Managing Government Records directive (OMB Memorandum M-12-18) and NARA 
guidance (NARA Bulletins 2013-02--Guidance on a New Approach to 
Managing E-mail Records, and 2014-06--Guidance on Managing E-mail), the 
Commission is in the process of developing a records schedule that 
would specifically cover e-mails. Among other things, this new schedule 
would generally require that the e-mails of high-level officials be 
treated as permanent records.
    Prior to August 2015, unless otherwise required under our records 
schedules, the Commission retained e-mail and voice-mail messages 
according to administrative need. The Commission's retention policy for 
e-mail messages was to keep all messages available on staff e-mail 
accounts for 45 days. At the completion of 45 days, messages would be 
held in a user's ``Deleted Items'' folder for ten additional days. 
After that time, messages would be automatically deleted from the 
user's e-mail account. FCC employees who needed to retain an e-mail 
message for business purposes longer than 45 days could move the 
message to an archive folder where it would be retained indefinitely. 
The policy for retaining voice-mail messages was the same as for e-mail 
messages, as the Commission's e-mail platform (Microsoft Exchange) 
maintained a user's voice-mail messages in their e-mail account. The 
45-day retention policy was put in place to meet users' needs and to 
prudently manage electronic storage of messages based on limited 
electronic storage space.
    Beginning in August 2015, the FCC moved to a cloud-based solution 
for e-mail messages, Office 365, greatly increasing the available 
electronic storage for e-mail and voice-mail. At that time, the agency 
decided to retain all e-mail messages that are potentially Federal 
records that were sent or received since August 2015, pending the 
adoption of the new e-mail records schedule.
    With respect to searches, the agency conducts all FOIA searches 
consistent with the requirements of the FOIA, i.e., one that is 
``reasonably calculated to uncover all relevant documents.'' Upon 
receipt of a FOIA request, Commission FOIA personnel contact any 
Commission staff likely to possess records responsive to the request. 
These staff perform a search of their own records for any responsive 
material. The staff then provide copies of those responsive records to 
the FOIA personnel for processing and release. On a case-by-case basis, 
the agency determines whether additional searches are necessary to meet 
FOIA's requirements. The agency uses a similar process to respond to 
Congressional and litigation-related searches.

    Question 8. As part of the Spectrum Frontiers Order, the FCC made 
available nearly 11 GHz of spectrum, but less than 4 GHz of that will 
be made available on a licensed basis. And a portion of that licensed 
spectrum will be allocated on a shared basis.
    A. I believe that there should be a balance between licensed and 
unlicensed spectrum. Does this Order strike the proper balance? If so, 
please explain why.
    Answer. Opening up spectrum and offering flexibility to operators 
and innovators is the most important thing we can do to enable the 5G 
revolution, and I share your view that there should be a balance 
between licensed and unlicensed spectrum. I have consistently pursued 
spectrum policies that take an ``all of the above'' approach--making 
more spectrum available for licensed, shared, and unlicensed access. In 
the Spectrum Frontiers Order, we increased the amount of licensed 
spectrum available by over four times what is currently available. We 
made a small portion available on a shared basis, and 7 gigahertz 
available on an unlicensed basis. Importantly, there are unique 
physical properties of the unlicensed band that makes it best suited 
for unlicensed access. Specifically, the spectrum in the 60 gigahertz 
range is not able to travel long distances--the atmosphere absorbs and 
dissipates the signal beyond a few meters. It therefore is very 
effective for short range, high data applications, and does not lend 
itself to a traditional wide-area geographic licensing approach. This 
spectrum will serve as a breeding ground for new innovations, and I 
believe will help drive economic activity in the U.S. as a complement 
to the licensed spectrum we made available.
    As the Commission looks to open up additional spectrum bands, 
including an additional 18 gigahertz that the Commission proposed to 
make available on a licensed basis through the Spectrum Frontiers 
FNPRM, it will continue to pursue this balanced approach, while at the 
same time taking into account the unique circumstances in each spectrum 
band.

    B. Should the Commission look for more licensed spectrum as it 
considers additional high frequency bands in its further notice?
    Answer. As the demand for wireless technologies increases, so does 
the need for greater coverage and wireless network capacity. To keep up 
with the growing demand the Commission is pursuing an ``all of the 
above'' policy, and licensed spectrum will play an integral role in 
future spectrum bands. As described above, the Commission will continue 
to pursue a balanced approach to spectrum policy, while at the same 
time examining the unique circumstances in each spectrum band. The 
Further Notice of Proposed Rulemaking that was adopted 
contemporaneously with the Report and Order seeks comment on making an 
additional 18 gigahertz of licensed spectrum available, on top of the 
3.85 gigahertz made available in the Report and Order.

    Question 9. The 18th Mobile Wireless Competition Report states, 
``Given the complexity of the various inter-related segments and 
services within the mobile wireless ecosystem, any single conclusion 
regarding the effectiveness of competition would be incomplete and 
possibly misleading in light of the complexities we observe.''
    A. If the Commission is unable to accurately assess overall 
competition within the mobile wireless ecosystem given these 
``complexities,'' how can it reasonably conclude that its regulatory 
actions, undertaken in the absence of an overarching conclusion 
regarding the ecosystem's state of competition, are in the public 
interest?

    B. If the Commission is able to assess overall competition within 
the ecosystem, why has it repeatedly failed to make such an assessment 
and finding?
    Answer. Similar to the first seven Reports and the five most recent 
Reports, the 19th Mobile Wireless Competition Report (19th Report), 
released on September 23, 2016, provides extensive data and analysis of 
competition in the mobile wireless marketplace and does not make a 
finding that there is or is not effective competition in the 
marketplace. First, as explained in the 19th Report, the mobile 
wireless ecosystem is sufficiently complex and multi-faceted that it 
would not be meaningful to try to make a single, all-inclusive finding 
regarding effective competition that adequately encompasses the level 
of competition in the various interrelated segments, types of services, 
and vast geographic areas of the mobile wireless industry. In addition, 
there are significant variations in size, market share, spectrum 
holdings, investment, and other indicators between the top two mobile 
wireless providers and the next two nationwide wireless providers. The 
extent of these variations makes a broad, singular determination of how 
competitive the overall mobile wireless marketplace is unhelpful in the 
application of careful and empirically driven regulatory oversight.
    Furthermore, as the 19th Report and previous Reports note, there is 
no agreed upon definition of ``effective competition.'' However, this 
does not preclude the Commission's ability to make determinations as to 
the public interest benefits of particular Commission actions, which 
address discrete issues, or specific facets of the mobile wireless 
marketplace. Those actions follow notice and comment rulemaking 
processes that allow for an extensive public record addressing the 
particular matter at hand.

    Question 10. The Commission's Mobile Competition Reports have 
repeatedly claimed that Form 477 data are subject to ``methodological 
limitations'' and have ``the potential to overstate coverage.'' What 
steps is the Commission taking to ensure it has adequate information to 
properly assess whether or not the Commercial Mobile Radio Services 
marketplace is effectively competitive? Please describe in detail what 
activity there has been in each of the past three years.
    Answer. The Competition Report historically has used data from 
third-party sources such as Mosaik because the Commission did not have 
adequate data sourced internally. However, in recent years, the 
Commission has increasingly used Form 477 data. The Commission used 
Form 477 data in its last two Competition Reports (the 18th Report and 
the 19th Report), but did not use Form 477 data in its 17th Competition 
Report, released December 8, 2014. Form 477 data are collected using 
standards and methodologies specified by the Commission. The data are 
provided, and certified as accurate, by the service providers directly 
to the Commission, and not to a third-party entity like Mosaik. 
However, Form 477 data, as well as that from third-parties, are 
potentially subject to errors or overstatements by the providers 
themselves. The Commission recognizes the importance of accurate 
information to our policymaking and enforcement, as well as to 
consumers, and is exploring ways to ensure the accuracy of these data.
    Further, another limitation has been the centroid methodology used 
to determine whether a census block is considered ``covered.'' Under 
the centroid methodology, if the geometric center point, or centroid, 
of a census block is within the boundary of a provider's coverage map, 
that block is considered to be ``covered'' even if significant portions 
of the census block may be outside of any provider's coverage. In 
addition, coverage estimates based on the centroid methodology 
represent deployment of mobile networks and do not indicate the extent 
to which service providers affirmatively offer service to residents in 
the covered areas, and thus likely overstate the coverage experienced 
by some consumers. In the 19th Report, for the first time, the 
Commission also reports coverage based on the actual area coverage 
methodology, which calculates the exact area of a census block reported 
as covered by each service provider by technology, and yields more 
precise estimates.
    Finally, while coverage data is most useful as a necessary tool for 
measuring and understanding developments in mobile coverage year over 
year, it is just one element of competition between service providers 
in the mobile wireless marketplace. As noted in the answer to Question 
9 above, the mobile wireless ecosystem is sufficiently complex and 
multi-faceted that it would not be meaningful to try to make a single, 
all-inclusive finding regarding effective competition. In addition, 
there is no agreed upon definition of ``effective competition.''
    Please be assured that the Commission therefore continually 
evaluates its current data sources and methodologies, and strives to 
find new data sources and develop new methodologies, in order to 
improve the quality and reliability of the data provided in the 
Competition Report. Stakeholders are requested to comment on such 
matters, as well as provide information and data, which the Commission 
takes into account in its preparation of each edition of the report.

    Question 11. In the 2016 Broadband Progress Report, the Commission 
asserts that, ``the availability of advanced telecommunications 
capability requires access to both fixed and mobile services.'' This is 
in direct contradiction to 47 U.S.C. Sec 706(d), which defines 
``advanced telecommunications capability . . . without regard to any 
transmission media or technology, as high-speed, switched, broadband 
telecommunications capability that enables users to originate and 
receive high-quality voice, data, graphics, and video 
telecommunications using any technology'' (emphasis added). Please 
explain how the Commission determined that both fixed and mobile 
services were required by the statute. Please include any legislative 
history supporting the Commission's interpretation.
    Answer. In the 2016 Broadband Progress Report, the Commission 
determined that the availability of advanced telecommunications 
capability in today's communications landscape requires access to both 
fixed and mobile broadband services, not because the services use 
different network technologies, but because they offer distinct and 
complementary functions or capabilities to consumers. As noted in the 
Report, consumers use fixed broadband service for high-capacity home 
use, including streaming high-definition video, uploading large files, 
and certain web services, but also increasingly rely on mobile 
broadband services for activities like navigation, communicating with 
family and friends and on social media, and receiving timely news and 
information when away from home. Mobile usage represents about 62 
percent of American time spent on a computing device, and 67 percent of 
smartphone owners use their phone for navigation and direction. Fixed 
and mobile broadband services are both critical means by which 
Americans communicate, and both should be evaluated in our analysis. 
Thus, as part of this inquiry, the Commission took the common-sense 
step of including mobile broadband services in the assessment of 
advanced telecommunications capability.

    Question 12. Stakeholders have expressed serious concerns that your 
business data services (BDS) proposal could further exacerbate the 
challenges of providing residential broadband services in rural areas. 
They argue your proposal would further disincentivize investment in the 
infrastructure needed to provide broadband services to rural customers.
    A. Do you share these concerns about the BDS proposal?
    Answer. Business data services (BDS) play an important role in the 
day-to-day life of consumers, business, and industry, and are integral 
to the competitiveness of the U.S. economy as a whole in the 
information age. My goal is to maximize the benefits of business data 
services for U.S. consumers and businesses, especially those in rural 
areas. I fully agree that maintaining incentives to invest--both by BDS 
providers and by their customers--is paramount. Let me assure you that 
we have continued to take the views of all stakeholders into 
consideration as we work to complete BDS reform. The proposal I have 
circulated to my fellow Commissioners recognizes the real challenges 
faced in rural areas and strikes a balance that addresses the problems 
in this market while maintaining incentives for investment by BDS 
providers.

    B. If not, please describe, in detail, why you think your plan is 
sound policy for our Nation's rural communities and the overall growth 
of our Nation's Internet infrastructure.
    Answer. Earlier this year we sought broad public comment on 
reforming and modernizing the existing, fragmented regulatory BDS 
structure with a new framework. It is worth noting that the reform 
being considered is focused on areas served by incumbent LECs regulated 
pursuant to price cap regulation, not the rural areas served by rate-
of-return LECs. In early October, I circulated to my fellow 
Commissioners proposed rules to reform the regulatory regime for BDS to 
promote fairness, competition, and network investment in this important 
marketplace. The circulated Order provides a new framework that strikes 
a balance between targeted regulation for lower-bandwidth legacy 
services, where evidence of market power is strongest, and lighter-
touch regulation for packet-based services, where there has been new 
entry and competition may be emerging. The proposed Order is grounded 
in the comprehensive record of this proceeding, including careful 
review of the sophisticated economic analyses presented by multiple 
parties as well as other record evidence. As we work to achieve these 
important goals, we take into careful consideration the impacts various 
forms of regulation would have in the markets that utilize BDS, and we 
also pay particular attention to impacts any potential regulations may 
have in rural areas.

    Question 13. The Commission has proposed an exception to the local 
media cross-ownership ban that would allow a broadcaster to invest in a 
newspaper when it is ``failing.'' This exception for cases in which a 
newspaper is ``failing'' renders little value to a newspaper that needs 
investments now, well before it is ``failing.'' By the time a newspaper 
is ``failing,'' a local broadcaster may no longer see it as a 
worthwhile investment--particularly in light of the consumer trend 
toward digital and mobile applications for news and entertainment. 
Shouldn't the Commission be seeking ways to encourage investment in 
newspapers before they get to a state of ``failing,'' and before such 
newspapers may have to make the difficult decision to cut back on local 
reporting resources?

    Question 14. Thanks to the Internet and other digital platforms, 
consumers today have available to them a nearly endless variety of 
sources of information, even while some of those outlets find it 
increasingly difficult to find the scale to compete in the new media 
landscape. In light of dramatic and transformative changes in the 41 
years since the cross-ownership ban was adopted, why should newspapers, 
alone among all media providers in an Internet Age, be singled out and 
generally disqualified from being co-owned with even a single 
television or radio station in their local markets?
    Answer. (Questions 13 and 14): The media ownership rules adopted in 
the recently concluded proceeding were based on a comprehensive, 
refreshed record that reflects the most current evidence regarding the 
media marketplace. With respect to the Newspaper/Broadcast Cross-
Ownership (NBCO) Rule, the record demonstrates the continuing role of 
newspapers and broadcast stations as the primary producers of original 
local news and public interest programming. Accordingly, the Commission 
concluded that regulation of newspaper/broadcast cross-ownership within 
a local market remains necessary to protect and promote viewpoint 
diversity.
    With that said, the Commission did revise the NBCO Rule to provide 
for a modest loosening of the previous ban on cross-ownership. The 
modifications include: (1) modifying the rule to update its analog 
parameters to reflect the transition to digital television; (2) in 
order to focus the application of the rule more precisely on the areas 
served by broadcast stations and newspapers, revising the trigger of 
the NBCO Rule to consider both the contour of the television or radio 
station involved, and whether the station and the newspaper are located 
in the same Nielsen DMA or Audio Market (if any); (3) in recognition of 
the fact that a proposed merger involving a failed or failing entity 
does not present a significant risk to viewpoint diversity, adopting an 
explicit exception to the NBCO Rule for proposed mergers involving a 
failed or failing broadcast station or newspaper; and (4) considering 
requests for waiver of the NBCO Rule on a case-by-case basis and 
granting relief from the rule if the applicants can show that the 
proposed merger will not unduly harm viewpoint diversity in the market.
    The ``failed or failing entity'' provision is only one exception 
and the revised rule explicitly provides for waiver requests on a case-
by-case basis. Thus, an entity may seek investment before it is 
``failing,'' as long as viewpoint diversity is not unduly harmed by the 
merger.

    Question 15. Chairman Wheeler, in March of this year, I publicly 
asked you whether you would resign from the FCC at the end of President 
Obama's term, but you did not provide a clear response at that time. 
Since then, however, you have privately assured me you would indeed 
resign after the election. Will you now publicly commit to resigning 
from the FCC at the end of President Obama's term, unless explicitly 
asked to stay on by the next president?
    Answer. As I said during our private conversation and at the 
September Senate Commerce Committee Oversight Hearing, I will cooperate 
fully with the new administration to assure a smooth transition at the 
FCC.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Hon. Tom Wheeler
    Question 1. Regarding the USF reform order for small, rate-of-
return carriers earlier this year, you've already committed to work 
with Congress and affected stakeholders to promptly address any adverse 
or unintended consequences that arise out of the reforms. We want to 
talk about one issue that has come to light--we understand that the 
record in the proceeding shows that, even with the new standalone 
broadband support mechanism, most small carriers still will be forced 
to offer broadband-only service at prices far in excess of what's 
available in urban areas. This runs directly counter to the 
Communications Act's promise of reasonably comparable services and 
rates.
    A. What steps will the FCC take to streamline and expedite its 
waiver process to ensure that the broad major reforms to USF support 
that the FCC adopted for rate of return carriers can be tailored to 
meet individual carrier realities?
    Answer. In the USF/ICC Transformation Order, the Commission 
recognized that some carriers impacted as a result of reform might need 
a waiver exempting them from some or all reforms. To assist potential 
applicants in effectively formulating their waiver petitions, the 
Commission provided guidance on the circumstances that would be 
persuasive and compelling grounds for grant of a waiver under the 
Commission's ordinary standard for granting waivers under section 1.3 
of the Commission's rules. The Commission provided further 
clarification and guidance in response to a subsequent petition from 
several rural associations. To date, the Commission has addressed 
petitions seeking waiver of support reductions for about a dozen 
carriers, with two more recently filed petitions still pending. The 
Commission has not received any petitions for waiver of the reasonable 
comparability requirement from carriers since the March 2016 Rate-of-
Return Reform Order.

    B. How do you plan to make sure ultimately that rural consumers are 
paying reasonably comparable rates to urban consumers regardless of 
whether its voice or broadband they want? How can you ask carriers to 
certify that their broadband rates are reasonably comparable to those 
in urban areas when the record clearly shows that many won't get enough 
support to offer that?
    Answer. The Rate-of-Return Reform Order adopted by the Commission 
was the result of a bipartisan effort, aided by the rate-of-return 
carriers themselves, to expand rural broadband deployment by 
modernizing the USF high-cost support program for rate-of-return 
carriers, including by providing support for standalone broadband.
    As a condition of receiving high-cost support, the Commission 
requires carriers to offer voice and broadband services in supported 
areas at rates that are reasonably comparable to rates for similar 
services in urban areas. We annually survey urban rates and recipients 
of high-cost support are required to report annually whether their 
rates are reasonably comparable to those urban rates. Based on the 
Commission's most recent survey, the benchmark in 2016 for broadband 
service of 10 Megabits per second (Mbps) downstream and 1 Mbps upstream 
and a 150 Gigabytes (GB) per month usage allowance was $71.17. Carriers 
must certify annually that they are in compliance with that benchmark, 
and the Commission has stated it will deal with carriers that are not 
able to make that certification on a case-by-case basis.
    In the December 2014 Connect America Order, the Commission stated 
that it will gather more information if eligible telecommunications 
carriers (ETCs) are unable to make the reasonable comparability 
certification for their broadband rates. ETCs may present factual 
evidence explaining the unique circumstances that preclude them from 
offering service at a rate meeting the requisite benchmark. As we 
continue to implement the rate-of-return reforms we put in place 
earlier this year, including providing support for standalone 
broadband, we will continue to monitor consumer broadband-only rates to 
ensure that our policies support reasonable comparability.

    Question 2. Carriers need to let the FCC know in the next few 
months if they want to elect a new cost model for USF support on a 
voluntary basis or continue to receive support through a modified 
version of the system that was in place before. But we understand that 
information regarding several aspects of the reforms--such as budget 
controls and buildout duties and the effects of certain caps--haven't 
been made public yet.
    A. How can carriers make informed choices about what option is 
right for them without such information? Will you commit to giving 
carriers complete information about both the model and the other 
changes to the current support systems so that they can make informed 
decisions before they need to make their final choice?
    Answer. The Commission provided detailed information about both the 
model and the impact of reforms for those who do not select the model 
in advance of the November 1, 2016 deadline for electing the model. In 
August, the Wireline Competition Bureau (WCB) released the model 
support amounts offered to rate-of-return carriers. These amounts were 
announced by a Public Notice and were accompanied by a spreadsheet 
detailing the offer, as well as a map and a list of census blocks 
showing areas that would be funded by carriers accepting the offer.
    The Commission also made available information regarding the 
operating expenses limitation, capital investment allowance, extent of 
incumbent carrier broadband coverage (which is used to calculate 
several aspects of other reforms), extent of competitive overlap, 
deployment obligations for carriers remaining on legacy mechanisms, 
transition payments for carriers that would receive less support if 
they elect to receive model support, and the operation of the budget 
control mechanism for the first half of 2017. In addition, on October 
6, 2016, Commission staff and USAC held a webinar to answer the 
industry's questions. Also on October 6, 2016, WCB released an order 
regarding tariff revisions that must be made before carriers may 
receive universal service support for standalone broadband starting 
January 1, 2017. All of this information, and more, is available on 
USAC's website: http://www.usac.org/hc/rules-and-orders/rate-of-return-
reform-order.aspx.

    B. We also understand that depending on how the model election is 
conducted, that could lead to carriers that did NOT elect the model 
being harmed and getting less funding. How is that fair or reasonable? 
Why are carriers who did nothing and changed nothing in how they do 
business going to get less support due to the election choices of a few 
companies? Can we count on you to make sure this does not happen?
    Answer. In 2011, the Commission allocated $2 billion of the total 
high-cost budget to support for rate-of-return carriers. The Rate-of-
Return Reform Order did not alter that amount, but did make available 
to carriers a voluntary path to model-based support as well as adopt 
certain reforms to the legacy support mechanisms. Given the benefits 
and certainty of the model, the Commission did allocate an additional 
$1.5 billion over the 10-year term to facilitate the voluntary path to 
the model. Carriers that choose to continue receiving support from the 
reformed legacy mechanisms will still receive support based on their 
own costs, but will be subject to budgetary controls to ensure 
efficient use of our finite Federal universal service resources.
    The deadline for carriers to make this decision was November 1. On 
November 2, the Wireline Bureau released a Public Notice announcing 
that 216 rate-of-return carriers elected the model and soliciting 
feedback on what measures should be considered to address the high 
level of interest in model-based support.

    Question 3. Your recent Order provides for companies to elect to 
receive their future support through your Model or to continue to 
receive support through the modified Legacy mechanisms. However, rather 
than allowing each company to make that decision independently, you've 
required all companies within a single state and owned by the same 
holding company to make the same election. That is, all of these 
companies must elect to be supported under a modified Legacy model or 
under the new Model support system. So, all companies within a single 
state and owned by the same holding company must make that decision as 
a whole regardless of the differences between the companies, while two 
companies owned by the same holding company and only a few miles apart, 
but across state lines from each other, may elect separately to take 
Model support or Legacy support.
    A. What was the rationale in the election process for the FCC to 
aggregate all companies owned by a holding company within a single 
state, even if those companies within that state may be hundreds of 
miles apart and very different from each other when it did not 
aggregate those companies owned by the same holding company that may be 
in differing states, but very similar and only a short distance from 
each other?
    Answer. The Commission adopted its proposal to require 
participating carriers to make a state-level election, which was 
generally supported in the record. The Commission did not require 
carriers to make elections across state boundaries as rural incumbent 
carriers are designated as eligible telecommunications carriers on a 
state-by-state basis by the state commissions.

    B. How does this further the ultimate goal of Telecommunications 
Act--affordable, comparable Universal Service available to all?
    Answer. Requiring carriers to make a state-level election prevents 
rate-of-return carriers from cherry-picking the study areas in a state 
where model support is greater than legacy support, and retaining 
legacy support in those study areas where legacy support is greater. 
Requiring carriers with multiple study areas in a state to make a 
state-level election facilitates decisions about managing different 
operating companies on a more consolidated basis.

    Question 4. What is the timetable for the FCC to begin its CAF 
Phase II reverse auction and CAF Phase II Mobility Fund?
    Answer. The Commission has not established dates for the CAF Phase 
II Auction or the Mobility Fund Phase II (MF-II) Auction.
    The May 2016 Commission Order & FNPRM established a framework for 
the CAF Phase II competitive bidding process that will allocate more 
than $2 billion over the next decade in support for rural broadband, 
but important details regarding the operation of the auction remain to 
be decided. Many of these details will be determined in a forthcoming 
Auction Procedures Public Notice.
    The Commission will consider the Mobility Fund Phase II Order at 
our November Open Meeting. Our recently-completed analysis of Form 477 
data shows that there are significant gaps in 4G LTE coverage 
throughout the country that need to be addressed through MF-II. The 
primary focus of MF-II will be targeting our necessarily limited 
universal service funds to promote 4G LTE service in areas where it 
might not otherwise be expanded or sustained without Federal support.

    Question 5. You mentioned during the hearing that the FCC continues 
to struggle with gathering credible data regarding wireless coverage in 
rural areas. My colleague, Senator Manchin, has proposed a number of 
potential methods for gathering ``real-world'' measurements of rural 
coverage, including studying the feasibility of coverage drive testing 
through the United States Postal Service, commercial entities, and any 
other appropriate means. Has the FCC considered employing any of these 
or other methods of measuring rural wireless coverage? Can you assure 
my colleagues and I that the FCC will not proceed with any reductions 
to existing rural wireless USF support mechanisms until it can reliably 
gather data about actual wireless coverage throughout rural America?
    Answer. In the past, the Commission has confronted several 
challenges in our attempts to measure mobile coverage in a way that 
matches up with the public's real-world experiences. A very significant 
challenge has involved the process of data collection. For the past 
several years, the Commission relied on data that came from states via 
the National Telecommunications Information Administration--data that 
was used in the National Broadband Map--and third party commercial 
vendors. For a variety of reasons, the data collected by the states and 
third party commercial vendors did not always reflect the real world 
experiences of consumers.
    Recognizing the need to improve our mobile coverage data, the 
Commission adopted an order in 2013 that required mobile wireless data 
collection from one of the most reliable sources available--the mobile 
wireless carriers themselves. As a result the Commission is now 
collecting coverage data directly from wireless carriers through the 
Commission's Form 477. Each carrier that submits data must certify to 
its accuracy. We expect the data wireless carriers provide through 
these submissions will be more accurate than our previous data because 
it comes directly from the entity that is deploying the wireless 
facilities. Commission staff have actively been analyzing the new 
coverage data from wireless carriers through the revised FCC Form 477, 
and recently released a detailed analysis of the December 2015 data 
(along with its methodology and the raw data on which it is based) so 
that stakeholders can make their own assessments regarding the 
reliability of the carriers' filings. In addition, in the context of 
providing for ongoing support for mobile broadband service, we intend 
to provide a process to consider stakeholders' challenges to ensure 
accurate decisions on the eligibility of particular areas.
    I believe that all these steps substantially advance the 
Commission's ability to address the inherently difficult task, given 
the very nature of wireless networks, of accurately measuring mobile 
broadband coverage throughout the country. The Commission remains open 
as well to working with stakeholders regarding additional data sources, 
including new third party sources, and specific methods that we can 
employ to obtain more reliable information on mobile broadband 
coverage.
    A core principle of universal service reform is that finite dollars 
should be distributed in an efficient, cost-effective manner that 
focuses funding on areas where service would be unavailable absent 
Federal support. As such, USF support should not go to areas that are 
served by an unsubsidized provider. So MF-II will seek to target 
ongoing support as much as possible to areas that lack unsubsidized 4G 
LTE coverage. Overall, MF-II will therefore both preserve existing 
service where necessary and provide substantial support for further 
expansion of 4G LTE in areas where it is not currently available.

    Question 6. What impact do you anticipate the FCC's proposed 
changes to existing rural wireless USF support mechanisms might have on 
critical services, like remote patient monitoring and precision 
agriculture applications, that rely on USF-supported wireless networks 
to function today? Can you assure me that the changes to wireless USF 
support mechanisms you are considering will do no harm to these 
existing services?
    Answer. The Commission's recently-completed analysis of Form 477 
data shows that there are significant gaps in 4G LTE coverage 
throughout the country that need to be addressed through MF-II. The 
primary focus of MF-II will be targeting finite universal service funds 
to promote 4G LTE service in areas where it might not otherwise be 
expanded or sustained without Federal support. With that goal in mind, 
the Commission is working to address the key structural and operational 
issues for a MF-II fund, including the appropriate budget, eligible 
geographic areas, proper distribution methodology, and the public 
interest obligations of support recipients. MF-II will also make 
targeted support available to current competitive eligible 
telecommunications carrier (CETC) support recipients where needed to 
ensure preservation of existing service.

    Question 7. In consideration of potential changes to wireless USF 
support mechanisms and rural coverage data, have you or your staff 
considered differences in coverage in rural areas by providers 
utilizing incompatible technologies? What impact does this have on 
seamless service availability for rural Americans?
    Answer. In recent years, the Commission has taken steps to ensure 
interoperability among mobile networks. The Commission has adopted 
rules to enable consumers, especially in rural areas, to enjoy the 
benefits of greater competition and more choices, and encourage 
efficient use of spectrum, investment, job creation, and the 
development of innovative mobile services and equipment. These changes 
mirrored a voluntary industry solution to remove the lack of 
interoperability in the 700 MHz band while allowing flexibility in 
responding to evolving consumer needs and technological developments. 
The FCC also adopted basic device interoperability requirements in the 
AWS-3 and the 600 MHz service rules. Interoperability requirements in 
these bands will promote better, more seamless service, while allowing 
for the industry to continue to innovate, to the benefit of consumers 
across the country--in rural and urban areas alike.
    With regard to providing universal service funding for the mobile 
broadband networks of the future, I believe that the priority needs to 
be to close the remaining 4G LTE coverage gaps existing in rural area 
as much as possible, rather than ensuring that such future networks are 
backwards compatible with network technologies that will be in the 
process of being phased out. I do believe that the proposed 
transitional phase down of current support will help address this issue 
in the interim.
    The Commission is also considering a notice of proposed rulemaking 
that would classify VoLTE as a Title II service and unify the voice and 
data roaming standards, which actions together aim to provide all 
consumers, including rural consumers, with seamless access to service 
in all areas of the country, regardless of provider and regardless of 
how a particular voice call is delivered.

    Question 8. Proposed broadband privacy rules suggest creating a new 
category of confidential information that reaches far beyond the type 
of information that is protected in the telephone environment, 
including a customer's name, postal address, and telephone number.
    A. Can the Commission explain why it proposes to require ISPs to 
protect information that is available in a telephone or on-line 
directory?
    Answer. The Commission's recently adopted privacy rules apply to 
customer proprietary information, a category that includes personally 
identifiable information (PII). The protection of PII is at the heart 
of most privacy regimes, including the FTC's enforcement-based work 
under Section 5 of the FTC Act. Names, postal addresses, and telephone 
numbers are quintessential PII--each of these can readily be used to 
identify an individual person.
    Of course, not all PII is equally sensitive. People routinely 
introduce themselves to strangers but tend to carefully guard their 
Social Security numbers. The privacy rules take this difference into 
account by tying customer approval requirements for the use and 
disclosure of customer data to the sensitivity of the data. While use 
or sharing of sensitive customer proprietary information requires 
affirmative ``opt-in'' consent, an ongoing ability to ``opt-out'' is 
sufficient for non-sensitive data--such as basic contact information. 
That is, ISPs can generally use and share their customers' names, 
addresses, and telephone numbers under our rules unless and until a 
customer exercises the right to opt-out of that activity. The new rules 
also permit ISPs and other telecommunications carriers to use this and 
other non-sensitive customer information to market additional 
communications services commonly bundled together with the subscriber's 
telecommunications service. This approach preserves reasonable customer 
expectations while minimizing burdens on providers.

    B. Has the Commission considered only applying any new CPNI rules 
to only that information that ISPs hold uniquely in their role of 
providing telecom services?

    C. If not, why not?
    Answer. The Commission's recently adopted privacy rules reflect 
ISPs' unique role as ``gatekeepers'' in the Internet ecosystem. An ISP 
handles all network traffic, which means it has an unobstructed view of 
all of unencrypted online activity (such as webpages visited, 
applications used, and the times and date of Internet activity). On a 
mobile device, an ISP can track the physical and online activities 
throughout the day in real time. Even when data is encrypted, an ISP 
can still see the websites that a customer visits, how often they visit 
them, and the amount of time they spend on each website. Using this 
information, they can piece together enormous amounts of information 
about an individual--including private information such as a chronic 
medical condition or financial problems.
    To be absolutely clear, the rules apply only to information that an 
ISP obtains by virtue of its role of providing service to its customers 
as a telecommunications carrier. The rules do not apply to information 
an ISP may obtain through its operation of an edge service, such as a 
music streaming app. Nor do the rules apply to information an ISP 
purchases on the open market.

    Question 9. The Commission offers a laundry list of data to which 
ISPs ostensibly have access, and which the Commission proposes should 
be protected under a standard of strict liability.
    A. Can the Commission explain why ISPs should be held to a stricter 
standard than application and edge providers that have access to the 
same data points?
    Answer. In our final rules we adopt a standard that requires each 
ISP to take reasonable measures to secure the customer data it collects 
and possesses. What is reasonable for a given provider will depend on 
contextual factors, including the size of the provider, the nature and 
scope of its activities, and technical feasibility. We do not specify 
the particular measures a provider must undertake to meet its data 
security obligation, but we offer a list of ``exemplary practices'' as 
guidance. This context-based, ``reasonableness'' approach is consistent 
with the approach the FTC has taken in its enforcement work and with 
other privacy regimes.

    B. Does the Commission have any plans to address consumer confusion 
that may well arise from the disparate way in which different actors in 
the broadband ecosphere are treated?
    Answer. The Commission recently adopted privacy rules to implement 
Section 222 of the Communications Act, which requires 
telecommunications carriers to protect the confidentiality of their 
customer's proprietary information. As those rules become effective, we 
will work with all stakeholders to educate consumers, as well as their 
ISPs, about ISP obligations and customer rights pursuant to those 
rules.
    The rules reflect ISPs' unique role as ``gatekeepers'' in the 
Internet ecosystem, which gives them comprehensive visibility into 
their customers' online lives. In this regard they are distinguished 
from even the largest edge providers. Moreover, the Commission's rules 
are grounded in statutory authority--including Section 222 of the 
Communications Act--that applies to ISPs but not to edge providers or 
other Internet ecosystem participants.
    That said, the Commission's rules were not drafted on a blank 
slate. The rules incorporate the teachings of many well-established 
privacy and data security frameworks, including the Fair Information 
Practice Principles (FIPPs), the NIST Cybersecurity Framework, FTC 
precedent and best practices guidance, and state law. In addition, 
these rules are the culmination of an extensive public process in which 
FTC staff, ISPs, edge providers, digital advertisers, state 
governments, academics, consumer advocacy groups, and other 
stakeholders provided input and debated one another's ideas. Through 
this process, the key issues in this proceeding were sharpened, leading 
us to refine and improve upon our original proposals.

    C. Would the Commission propose that application and edge providers 
that are not within the purview of FCC jurisdiction be regulated 
similarly?
    Answer. As I have repeatedly said, edge providers are outside the 
scope of this rulemaking. The FTC has a strong track record of ensuring 
that edge providers protect consumer privacy under their Section 5 
authority, and I would defer to the FTC's opinion on how application 
and edge providers outside of the FCC's jurisdiction should be 
regulated.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                            Hon. Tom Wheeler
    Question 1. As the Chairman of the Senate Rules Committee, I 
oversee the Copyright Office, which is the entity designated by 
Congress to interpret the Nation's copyright laws.
    On August 3, the Copyright Office wrote a letter highly critical of 
your initial proposal in proceeding MB Docket No. 16-42 because it 
violated copyright law, and violated the Constitution.
    If I ask the Copyright Office for its views on your new proposal, 
are they going to say that this proposal is legal under copyright laws?
    Answer. I think it is important to note that while Section 701(b) 
of the Copyright Act authorizes the United States Copyright Office 
(USCO) to ``advise'' Congress on copyright matters and ``provide 
information and assistance'' to other Federal agencies, only Federal 
courts have the power to authoritatively interpret copyright laws.
    The USCO and other parties representing content owners expressed 
concern that the ``three information flows'' approach we proposed in 
the NPRM would allow third parties to interfere with the licensing 
agreements that programmers negotiate with multichannel video 
distributors (MVPDs). In response to these concerns, the Order on 
circulation employs an ``apps-based'' approach to the delivery of MVPD 
programming. Under this approach, which both the MVPDs and programmers 
supported during the rulemaking, all MVPD content will be delivered to 
consumers through an MVPD-controlled software application, ensuring 
that copyright protections and the terms of programming license 
agreements remain in place. I cannot speak for the Copyright Office's 
view on this revised approach.

    Question 2. The Copyright Office plainly states the law affords 
copyright owners--in this case TV show producers--the ``sole right to 
license'' the use of their work, as well as the right to impose 
conditions on such use under the license.
    Under what authority can the FCC usurp the law codified under Title 
17 of United States Code as part of proceeding MB Docket No. 16-42?
    Answer. Because section 106 of the Copyright Act gives content 
owners the exclusive right to copy and publicly perform their works, 
MVPDs must obtain a license from the owners to distribute their works. 
However, licensing agreements between programmers also commonly contain 
terms that do not implicate the owners' exclusive section 106 rights. 
Courts have viewed these terms as simple contractual covenants. In 
other words, the Copyright Act does not give content owners a ``right'' 
to impose terms on licensees that are unrelated to their exclusive 
section 106 rights.
    The FCC's authority to promote the commercial availability of 
navigation devices under section 629 of the Communications Act is both 
independent of and complementary to the exclusive rights section 106 of 
the Copyright Act grants to content owners. As we carry out Congress's 
command to promote innovation and competition in the navigation device 
marketplace, we do not intend to (nor could we) change the rights and 
remedies available to copyright holders, or the defenses and penalties 
applicable in cases of copyright infringement.

    Question 3. The Copyright Office plainly states that ``only 
Congress, through the exercise of its power under the Copyright Clause, 
and not the FCC or any other agency, has the Constitutional authority 
to create exceptions and limitations in copyright law.''
    Under what authority can the FCC usurp the Constitution as part of 
proceeding MB Docket No. 16-42?
    Answer. As stated above in response to Question 2, the FCC's 
authority to promote the commercial availability of navigation devices 
under section 629 of the Communications Act is both independent of and 
complementary to the exclusive rights section 106 of the Copyright Act 
grants to content owners. As we carry out Congress's command to promote 
innovation and competition in the navigation device marketplace, we do 
not intend to (nor could we) change the rights and remedies available 
to copyright holders, or the defenses and penalties applicable in cases 
of copyright infringement.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                            Hon. Tom Wheeler
    Question 1. FairPoint Communications, a New Hampshire constituent 
company, has a petition before the FCC regarding back payments of high-
cost support. Delay in granting the petition may have the effect of 
delaying further broadband deployment to rural America. Can you commit 
to me that the FCC will work with FairPoint Communications to resolve 
this petition before the end of the year?
    Answer. Commission staff is evaluating FairPoint's petition and has 
met with the company several times to discuss the issues raised in the 
petition. Staff is working to address a number of priorities by the end 
of the year, including FairPoint's petition.

    Question 2. Carriers need to notify the Commission in the next few 
months if they plan to elect a new cost model for USF support on a 
voluntary basis, or continue to receive support through a modified 
version of the system already in place.
    a. I understand that depending on how the model election is 
conducted, it could lead carriers that did not elect the model to be 
harmed and receive less funding.

    i. How is that fair or reasonable? Why would carriers who did 
nothing and changed nothing in how they conduct business receive less 
support?

    ii. Can we count on the Commission to ensure that this does not 
happen?
    Answer. In 2011, the Commission allocated $2 billion of the total 
high-cost budget to support for rate-of-return carriers. The Rate-of-
Return Reform Order did not alter that amount, but did make available 
to carriers a voluntary path to model-based support as well as certain 
reforms to the legacy support mechanisms. Given the benefits and 
certainty of the model, the Commission did allocate an additional $1.5 
billion over the 10-year term to facilitate the voluntary path to the 
model. Carriers that choose to continue receiving support from the 
reformed legacy mechanisms will still receive support based on their 
own costs, but will be subject to budgetary controls to ensure 
efficient use of our finite Federal universal service resources. How 
the model election process affects the allocation of the rate-of-return 
budget amongst carriers will depend on how many and which companies 
elect the model and how many and which companies choose to remain on 
the legacy mechanisms.

    Question 3. Under the Universal Service Fund, why do the Lifeline 
and E-rate programs have automatic inflationary adjustments, but the 
High Cost program lacks this corresponding mechanism? What is the 
Commission's reasoning for not placing all USF programs on more 
consistent regulatory footing?
    Answer. Of the Universal Service Fund programs, only the E-rate and 
Lifeline programs have an automatic inflation adjustment. Beginning in 
2010, the Commission began adjusting the E-rate cap to account for 
annual inflation to try to gradually align that program's needs with 
available funding. With respect to Lifeline programs, beginning in 
2016, the funding cap on Federal universal service support for Lifeline 
shall be automatically increased on an annual basis to take into 
account increases in the rate of inflation. The High-Cost and Rural 
Health Care programs do not have such adjustments.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Dan Sullivan to 
                            Hon. Tom Wheeler
    Question. The FCC has spent much of its time developing regulations 
for areas that, to my understanding, do not need more regulation. Yet I 
have a constituent who has had license renewal applications pending at 
the FCC for more than 13 years! It seems that the FCC is so busy 
finding areas to regulate that it has abandoned the duties that they 
are actually responsible for.
    Chairman Wheeler, on June 10, 2016, I, along with members of the 
Alaska delegation, Senator Murkowski and Congressman Young, sent you a 
letter requesting that you provide us with a date certain for when the 
FCC plans to act on pending applications from this company, who has had 
these applications pending for over 13 years at the Commission. You 
responded to our letter by saying that you will take action by the 
fall.
    Is it still your intention to make a decision on these pending 
applications by fall? If so, can you provide me with a date certain?
    Answer. On September 30, 2016, the Audio Division of the Media 
Bureau took action on these applications in a letter decision (DA 16-
1117).
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ron Johnson to 
                            Hon. Tom Wheeler
    Question. I continue to be concerned that the FCC is layering on 
reporting and disclosure obligations on wireless providers that will 
divert resources from broadband deployment in Wisconsin and across the 
country. One example of this is the FCC's Open Internet Order's 
Enhanced Transparency Requirements. Apparently, FCC staff has created a 
safe harbor to these requirements when companies use the FCC-created 
Measuring Mobile Broadband American Program. However, this program has 
well-documented flaws and is not even available in large parts of the 
country. Has the Commission considered creating a safe harbor based on 
commercially-available sources for mobile performance that would be 
available to all wireless providers, including small companies in 
Wisconsin?
    Answer. The 2010 Open Internet (OI) Order adopted the Transparency 
Rule, which requires broadband providers to publicly disclose 
information regarding the network management practices, performance, 
and commercial terms of its broadband Internet access services. 
However, subsequent to adoption of the 2010 Transparency Rule, the 
Commission continued to receive numerous complaints from consumers 
suggesting that broadband providers are not providing information that 
end users and edge providers need to receive. The Enhanced Transparency 
Rule adopted in the 2015 OI Order, therefore, merely enhanced the 
Transparency Rule to require specific disclosures beyond the examples 
provided in the 2010 Order.
    The Commission expects that in order to evaluate their own network 
performance, mobile broadband providers generally already have access 
to key network performance information representative of the geographic 
areas in which consumers purchase service. That data--acquired through 
their own or third party testing--would be the source of a provider's 
disclosure under the transparency rules. The Commission has provided an 
optional safe harbor; however, providers remain free to implement 
alternative approaches for their network performance disclosures.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Gardner to 
                            Hon. Tom Wheeler
    Question 1. Chairman Wheeler, I'd like to commend the Commission on 
a rare bipartisan win with its recent issuance of the Spectrum 
Frontiers item. As the world continues to innovate and attempt to 
overtake the United States in cutting-edge wireless technology, it's 
more important than ever that we lay the groundwork for continued 
leadership. Designating spectrum for 5G operations is a major first 
step in that process.
    Recently, Senator Booker and I successfully passed an amendment to 
the MOBILE NOW Act that demonstrated the importance of both unlicensed 
and licensed spectrum. Much of the spectrum in the recent Spectrum 
Frontiers proceeding, however, is already licensed or being made 
available for unlicensed use. And while it's a positive step that those 
licensees will be able to deploy mobile services, there is still much 
work to be done.
    Given that the United States is fighting to remain the world's 
leader in wireless technology, can you commit that the Commission will 
work to find additional opportunities for licensed spectrum to be made 
available?
    Answer. Yes. As the demand for wireless broadband increases, so 
does the need for greater coverage and wireless network capacity. To 
keep up with the growing demand the Commission is pursuing an ``all of 
the above'' policy that relies on a balance of licensed, unlicensed, 
and shared spectrum. Opening up spectrum and offering flexibility to 
operators and innovators is the most important thing we can do to 
enable the 5G revolution. The Further Notice of Proposed Rulemaking 
that was adopted contemporaneously with the Report and Order seeks 
comment on making an additional 18 gigahertz of licensed spectrum 
available, on top of the 3.85 gigahertz made available in the Report 
and Order.

    Question 2. Chairman Wheeler, what efforts is the FCC currently 
undertaking to ensure the expeditious deployment of wireless 
infrastructure to support 5G service?
    Answer. High-speed mobile broadband requires high-speed broadband 
buildout. However, the regulatory burdens associated with deployments 
can be expensive and time-consuming. Beginning in 2014, the Commission 
has taken concrete steps to immediately and substantially ease those 
burdens. The Commission adopted an Order that recognized a 
technological revolution with regard to infrastructure deployment had 
changed the landscape. Distributed Antenna Systems (DAS) networks and 
other small-cell systems use components that are a fraction of the size 
of larger, older antennas and towers and can be installed on utility 
poles, buildings, and other existing structures. The Order excluded 
certain types of these installations from review, and also directed 
Commission staff to further streamline review of DAS and small cell 
deployments within 18-24 months, which was done in late summer of this 
year. The FCC also substantially reformed tower lighting and marking 
requirements, which greatly eased compliance burdens for tower owners 
without any adverse impact on aviation safety.
    The success of 5G will hinge upon deploying more densified wireless 
networks and promoting common-sense siting policies that are essential 
for these new networks. The Commission is placing particular emphasis 
on expanding access to spectrum, enabling backhaul connections, and 
promoting infrastructure deployment. In August, as noted above, the FCC 
took a critical step forward on the infrastructure front when our 
nationwide programmatic agreement was amended, which has streamlined 
the environmental and historic review process for many small cells. The 
FCC has also tightened our ``shot clock'' for siting application 
reviews. The Commission will continue working to eliminate unnecessary 
infrastructure siting hurdles for small cells and to ensure that siting 
review fees and processes at the local level are fair and reasonable.
    Advances in technology require that the FCC not only act now to 
pave the way to the next generation of wireless networks, but we must 
also update our rules to facilitate the transition away from legacy 
wired networks. Phone and Internet providers are increasingly replacing 
their legacy copper networks with next-generation networks that enable 
greater broadband speeds, efficiency, capacity, and a wealth of 
innovate features. The Commission acted to ensure that providers can 
move forward with these transitions efficiently while also ensuring 
consumers and other customers have the information they need. The 
Commission also established a streamlined process for reviewing 
providers' applications to transition to next generation services while 
ensuring that the enduring values of competition, consumer protection, 
universal service, and public safety that have long defined our 
networks remain protected.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Hon. Tom Wheeler
    Question. I have heard from my local broadcasters that Illegal 
pirate radio stations have been a big problem in Florida. Importantly, 
those broadcasters tell me that these pirate radio stations interfere 
with the Emergency Alert System, which is incredibly important given 
the natural disasters that can affect Florida. What are you doing to 
address pirate radio stations, both in Florida and nationwide? Are you 
able to use fines and equipment seizures to stop these broadcasts, or 
do you need additional enforcement authority?
    Answer. The FCC is committed to enforcement of the licensing 
requirements of the Communications Act, which the Commission has 
interpreted to prohibit unlicensed radio broadcasting. Last year, 20 
percent of the Enforcement Bureau's activities were directed towards 
pirate radio. That's more than any other area of enforcement. During FY 
2015, the Enforcement Bureau issued 130 enforcement actions for pirate 
operations. So far in FY 2016, the Enforcement Bureau has investigated 
459 pirate operations, leading to: (1) 159 enforcement actions; (2) six 
Notices of Apparent Liability for Forfeiture totaling $80,000; and (3) 
four Forfeiture Orders totaling $55,000. Nearly 36 percent of those 
pirate enforcement actions (57) have been against Florida pirates.
    In addition to taking formal enforcement actions, the Commission is 
also addressing the issue by working more closely with broadcasters and 
raising public awareness about pirate radio. For example, in March of 
this year, the Commission issued an Enforcement Advisory about pirate 
radio and all five Commissioners signed letters addressed to local 
officials as well as groups that may provide support, intentionally or 
unintentionally, to pirate radio operations. The letters and 
accompanying Enforcement Advisory explain the harms caused by pirate 
radio and seek to enlist the assistance of local officials, landlords, 
and advertisers in identifying pirates and depriving them of financial 
support. The letters and Enforcement Advisory may be accessed on the 
Commission website at: https://www.fcc.gov/document/enforcement-
advisory-unauthorized-radio-broadcasting.
    Finally, you ask whether the Commission needs additional 
enforcement authority to stop pirate broadcasters. As you note, the 
Commission has authority under the Communications Act to issue fines. 
We also have authority to work with the Department of Justice and, in 
some cases, state or local authorities, to seize illegal communications 
equipment, including pirate radio equipment. While this authority 
allows us to take strong action against those who control pirate radio 
operations, as we have previously stated, it would be helpful for 
Congress to amend the Communications Act to create liability for 
parties who aid or abet those operations. Creating clear legal 
consequences for advertisers, DJs, landlords, and other parties who 
provide material support to pirate operations would give the Commission 
another effective tool to address this problem.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Tom Wheeler
    Question 1. Smart City market estimates show rapid growth in coming 
years, and the number of Internet-connected devices in Smart Cities 
alone is expected to grow from 1.2 million in 2015 to 3.3 billion in 
2018. This aspect of our Internet economy is expected to grow from 
almost $2 billion in 2015, to $147.5 billion by 2020.
    I think we need to do everything possible to facilitate growth in 
this space.
    Given this rapid growth in Smart Cities technology, what is the 
Commission doing now to usher in next-generation networks to meet 
anticipated spectrum demands?
    Answer. As the demand for wireless technologies increases, so does 
the need for greater coverage and wireless network capacity. High-speed 
mobile broadband requires high-speed broadband buildout. However, the 
regulatory burdens associated with deployments can be expensive and 
time-consuming. Beginning in 2014, the Commission has taken concrete 
steps to immediately and substantially ease those burdens. The 
Commission adopted an Order that recognized a technological revolution 
with regard to infrastructure deployment had changed the landscape. 
Distributed Antenna Systems (DAS) networks and other small-cell systems 
use components that are a fraction of the size of larger, older 
antennas and towers, and can be installed on utility poles, buildings, 
and other existing structures. The Order excluded certain types of 
these installations from review, and also directed Commission staff to 
further streamline review of DAS and small cell deployments within 18-
24 months, which was done in late summer of this year. The FCC also 
substantially reformed tower lighting and marking requirements, which 
greatly eased compliance burdens for tower owners without any adverse 
impact on aviation safety.
    The success of 5G will hinge upon the deployment of more densified 
wireless networks and promoting common-sense siting policies that are 
essential for these new networks. The Commission is placing particular 
emphasis on expanding access to spectrum, enabling backhaul 
connections, and promoting infrastructure deployment. In August, the 
FCC took a critical step forward on the infrastructure front when our 
nationwide programmatic agreement was amended, which has streamlined 
the environmental and historic review process for many small cells. The 
FCC has also tightened our ``shot clock'' for siting application 
reviews. The Commission will continue working to eliminate unnecessary 
infrastructure siting hurdles for small cells and to ensure that siting 
review fees and processes at the local level are fair and reasonable.
    Advances in technology require that the FCC not only act now to 
pave the way to the next generation of wireless networks, but also 
update our rules to facilitate the transition away from legacy wired 
networks. Phone and Internet providers are increasingly replacing their 
legacy copper networks with next-generation networks that enable 
greater broadband speeds, efficiency, capacity, and a wealth of 
innovative features. In recent years, the FCC has acted on numerous 
occasions to facilitate this transition, while preserving enduring 
values that have long defined our networks: competition, consumer 
protection, universal service, and public safety.

    Question 2. Some members of the content community are worried their 
property interests won't be protected under the set top box proposals 
out there.
    The Copyright Office has also expressed concerns. And given the 
complexity and the varying stakeholder interests, is the agency 
coordinating with the Copyright Office to understand and address these 
concerns?
    Answer. The United States Copyright Office and other parties 
representing content owners expressed concern that the ``three 
information flows'' approach we proposed in the NPRM would allow third 
parties to interfere with the licensing agreements that programmers 
negotiate with multichannel video distributors (MVPDs). In response to 
these concerns, the Order on circulation employs an ``apps-based'' 
approach to the delivery of MVPD programming. Under this approach, 
which both the MVPDs and programmers supported during the rulemaking, 
all MVPD content will be delivered to consumers through an MVPD-
controlled software application, ensuring that the terms of programming 
license agreements remain in place. As we carry out Congress's command 
to promote innovation and competition in the navigation device 
marketplace, we do not intend to (nor could we) change the rights and 
remedies available to copyright holders, or the defenses and penalties 
applicable in cases of copyright infringement.
    My staff has reached out to the Copyright Office on multiple 
occasions.

    Question 3. I'm interested in providing consumers maximum privacy 
protections and promoting the continued growth of our innovation 
economy. Many Internet economy business models are built on the 
monetization of information from and about consumers.
    Moreover, this model is not new. In many sectors, consumers have 
gotten ``free'' services in exchange for their willingness to be 
exposed to marketing material. For example, consumers get free over the 
air television in exchange for watching ads-also known as the ``eyeball 
model.'' It's worked in the past, and can going forward.
    I'm confident we can have both strong consumer protections and a 
robust, innovative Internet economy that leverages consumer info. 
Before we take steps that could upset that balance, I'm interested in 
seeing available data revealing how these changes could impact this 
important sector of our economy. Stakeholders in these proceedings have 
made many assertions about consumer behavior in ``opt-in'' vs. ``opt-
out'' privacy frameworks.
    What information do we have about these critical issues? Should we 
be studying them?
    Answer. The Commission recently adopted a harmonized set of privacy 
and data security rules for Internet service providers (ISPs) and other 
providers of telecommunications services. These rules give consumers 
the tools they need to make informed choices about their ISPs' use and 
sharing of their personal data, as well as confidence that the data is 
being kept secure. The focal point of the rules is customer control: 
ISPs can use their customers' individual data in innovative ways with 
customer approval. The methods for getting customer approval--``opt-
in'' and ``opt-out''--are designed to track customer expectations. 
Subject to certain exceptions, under these new rules, if an ISP wants 
to use individually identifiable sensitive customer data it must first 
receive opt-in consent from the customer. Where the data is not 
sensitive, the customer's ongoing ability to opt-out is sufficient. 
Also, the rules permit ISPs to use customer data that they have 
properly de-identified outside of the consent regime, opening up 
another path for innovation. The record in the broadband privacy 
proceeding demonstrates that the rules the Commission adopted are 
consistent with current ISP practices.
    The rules take a cautious, incremental approach on ``pay-for-
privacy'' arrangements, i.e., where a provider offers a discount or 
other incentive in exchange for consent to use or share personal 
information. We prohibit ISPs from conditioning the provision of 
service altogether on a customer's surrender of personal data. But we 
otherwise permit pay-for-privacy deals, subject to heightened 
disclosure requirements. We will continue to monitor these kinds of 
arrangements as they develop, and we stand ready to take action where 
necessary to guard against predatory or coercive pricing schemes. This 
case-by-case approach will permit continued innovation in this dynamic 
area while protecting consumers against practices that vitiate their 
privacy rights.

    Question 4. I am concerned about creating a dual-privacy regime in 
the Internet ecosystem. Is there value in coordinating with the FTC on 
privacy issues relating to consumer Internet use, and if so, what 
actions could the agency take? Are there steps we could take to 
facilitate better coordination?
    Answer. There is great value in having the FCC and FTC coordinate 
on privacy issues. The two agencies have worked together on privacy and 
other consumer protection issues for a very long time. Earlier this 
year, the Commission and the FTC entered into an updated consumer 
protection Memorandum of Understanding (MOU). In the MOU, each agency 
recognized the others' expertise and agreed to coordinate and consult 
on areas of mutual interest. An FTC manager co-moderated one of the 
panels at the workshop we held to begin our exploration of broadband 
privacy. The FTC filed constructive comments in the proceeding, which 
informed virtually all aspects of the rules we ultimately adopted. 
Additionally, the FCC has looked to the good work that the FTC has done 
throughout the broadband privacy rulemaking proceeding. The FCC looks 
forward to continuing to work with the FTC on this important issue.
    We view the FTC's and FCC's roles in this area as complementary. 
The FTC, through its enforcement mandate under Section 5 of the FTC 
Act, has demonstrated great leadership in the area of protecting the 
privacy of consumers by addressing unfair or deceptive acts or 
practices. As the expert agency on communications policy issues, the 
FCC is well positioned to ensure consumers have the right level of 
control over personal information that ISPs obtain through their unique 
role as ``on-ramps'' to the Internet.

    Question 5. There are many parts of rural America that have poor or 
nonexistent broadband connections. It seems to me that that solving the 
rural broadband problem is like putting together a puzzle.
    The pieces of the puzzle include smart planning, a regulatory 
regime that promotes deployment, adequate Federal and state funding and 
private investment--all those pieces must fit for ubiquitous coverage.
    The FCC's Business Data Services proceeding impacts the private 
investment part of the puzzle. I want to ensure that as we examine this 
problem, we keep in mind the rural broadband development piece.
    Do you have any concerns about the impact of this rulemaking on 
rural broadband access? How would rural economic development, jobs, and 
anchor institutions be affected if the BDS regulations made rural 
investments uneconomical?
    Answer. Business data services (BDS) play an important role in the 
day-to-day life of consumers, business, and industry, and are integral 
to the competitiveness of the U.S. economy as a whole in the 
information age. Earlier this year we sought broad public comment on 
reforming and modernizing the existing, fragmented regulatory BDS 
structure with a new framework. It is worth noting that the reform 
being considered is focused on areas served by incumbent local exchange 
carriers (LECs) regulated pursuant to price cap regulation, and not the 
rural areas served by rate-of-return LECs. My goal is to maximize the 
benefits of business data services for U.S. consumers and businesses, 
including those in rural areas. I fully agree that maintaining 
incentives to invest--both by BDS providers and by their customers--is 
paramount.
    In early October, I circulated to my fellow Commissioners proposed 
rules to reform the regulatory regime for BDS to promote fairness, 
competition, and network investment in this important marketplace. The 
circulated Order provides a new framework that strikes a balance 
between targeted regulation for lower-bandwidth legacy services, where 
evidence of market power is strongest, and lighter-touch regulation for 
packet-based services, where there has been new entry and competition 
may be emerging. The proposed Order is grounded in the comprehensive 
record of this proceeding, including careful review of the 
sophisticated economic analyses presented by multiple parties as well 
as other record evidence. As we work to achieve these important goals, 
we take into careful consideration the impacts various forms of 
regulation would have in the markets that utilize BDS, and we also pay 
particular attention to impacts any potential regulations may have in 
rural areas.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                            Hon. Tom Wheeler
    Question 1. This is an issue I have raised with you in the past but 
I want to revisit it because there have been development that I don't 
think most people are aware of. Between September 2013 and February 
2014, the FCC issued Notices of Apparent Liability (NALs) proposing $94 
million in fines against 12 companies, touting them in press releases 
and notices to Capitol Hill as cracking down on waste, fraud and abuse 
in the Lifeline program. We know that in the spring of 2015, the 
Department of Justice successfully prosecuted one of those companies, 
Icon Telecom, for inflating its subscriber numbers, securing a 48-month 
sentence for the owner and recovering more than $20 million. Setting 
that example aside, which the FCC Office of Inspector General referred 
to DOJ for action, to date there has been no public announcement of 
further action on these 12 cases. What is the current status of each 
these cases?
    Answer. The Commission's Enforcement Bureau (EB) issued the 12 
Notices of Apparent Liability (NALs) you reference based on data from 
In-Depth Data Validation (IDV) audits. On November 16, 2015, EB 
referred the 12 cases to its Office of Inspector General (OIG) to avoid 
duplication of efforts, prevent adverse effects on parallel OIG 
investigations, and ensure efficient use of Commission resources. After 
referring these cases, EB closed these matters. We were informed by 
letter that the Inspector General (IG) found no waste, fraud, or abuse 
in six of the cases that he was investigating. He also found that the 
USF had been fully repaid in those six cases. The IG's decision is 
final and those six matters are now closed. We will not take further 
action on these matters. Even though the IG found no waste, fraud, and 
abuse in those cases, we will continue to keep a close eye on others 
participating in the program to ensure they comply with the Lifeline 
rules. We have also taken a number of steps to increase oversight of 
the program in recent months and will continue to make certain that 
taxpayer dollars are well spent.
    We understand that the other six matters remain with the IG.

    Question 2. It sounds like changes will be made to the broadband 
privacy rule before it is finalized, and I look forward to learning 
more about that. One thing of great importance to me is cracking down 
on robocalls. Concerns have been raised over Paragraph 108 of the NPRM, 
which asks whether we should ``harmonize'' the broadband privacy rules 
with traditional voice rules, and thus require opt-in consent for third 
parties to use data. Those who are working on robocall and call 
spoofing solutions tell me they need access to the information (name 
and phone number) they have today on an opt-out basis to be effective. 
Can you assure me that any final action on the privacy rule will 
continue to allow opt-out consent for important services like Caller ID 
and enhanced Caller ID to fight spoofed robocalls, and will otherwise 
do nothing to hinder the use of existing or future technologies to 
fight robocalls?
    Answer. I agree with you about the importance of cracking down on 
robocalls. The broadband privacy rules the FCC recently adopted include 
measures to aid in addressing this pressing concern. Specifically, 
there is an exception that permits a carrier to use or share customer 
data without the customer's approval where necessary to protect against 
fraudulent, abusive, or unlawful practices. Efforts to combat unlawful 
robocalling would fall within this exception.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                            Hon. Tom Wheeler
    Question. The Internet has revolutionized access to news and 
information and upended the newspaper industry. No one would argue that 
that the media landscape today is the same as when the Commission 
adopted the media cross-ownership rules in 1975. In 2014, the 
Commission proposed significant changes to the cross-ownership bans 
involving newspapers, but the order that was finally adopted left them 
essentially unchanged.
    Chairman Wheeler, what did you see in the record that convinced you 
the current rules are still appropriate?
    Answer. The media ownership rules adopted in the recently concluded 
proceeding were based on a comprehensive, refreshed record that 
reflects the most current evidence regarding the media marketplace. 
With respect to the Newspaper/Broadcast Cross-Ownership (NBCO) Rule, 
the record demonstrates the continuing role of newspapers and broadcast 
stations as the primary producers of original local news and public 
interest programming. Accordingly, the Commission concluded that 
regulation of newspaper/broadcast cross-ownership within a local market 
remains necessary to protect and promote viewpoint diversity.
    With that said, the Commission did revise the NBCO Rule to provide 
for a modest loosening of the previous ban on cross-ownership. The 
modifications include: (1) modifying the rule to update its analog 
parameters to reflect the transition to digital television; (2) in 
order to focus the application of the rule more precisely on the areas 
served by broadcast stations and newspapers, revising the trigger of 
the NBCO Rule to consider both the contour of the television or radio 
station involved, and whether the station and the newspaper are located 
in the same Nielsen DMA or Audio Market (if any); (3) in recognition of 
the fact that a proposed merger involving a failed or failing entity 
does not present a significant risk to viewpoint diversity, adopting an 
explicit exception to the NBCO Rule for proposed mergers involving a 
failed or failing broadcast station or newspaper; and (4) considering 
requests for waiver of the NBCO Rule on a case-by-case basis and 
granting relief from the rule if the applicants can show that the 
proposed merger will not unduly harm viewpoint diversity in the market.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Hon. Tom Wheeler
    Question 1. The FCC did not prohibit zero rating practices as part 
of the Open Internet Order but I understand that you have been keeping 
an eye on new developments related to this practice.
    On one hand zero rating can provide some great opportunities for 
consumers. On the other hand, it might be tough to align zero rating 
practices with the principles the FCC adopted in the Open Internet 
Order--namely that everyone should have access to a free and open 
Internet.
    Can you provide an update on the status of your examination of 
these practices? How are you balancing the value these plans could have 
for consumers with the principles set forth in the Open Internet Order?
    Answer. The Commission's informal policy review is ongoing. 
Commission staff continues to watch and learn. In some cases, these 
offerings continue to evolve since first announced. For instance, T-
Mobile has made significant changes to Binge On since it was first 
released late last year (including allowing video providers to opt-
out). T-Mobile also recently introduced a new pricing model (i.e., the 
``One'' unlimited plan that is targeted at the new iPhone7 launch) that 
incorporates some portions of the original Binge On model but not 
others. And T-Mobile has made material changes to that pricing model 
since its initial rollout.
    This fluid situation with T-Mobile illustrates the value of the 
Commission's case-by-case review laid out by the Open Internet rules. 
As the market continues to evolve and innovate, the Commission will 
watch carefully and work through the public interest considerations. We 
want to be sure to give ample time for thoughtful conversations with 
the carriers, experts, and other stakeholders. Needless to say, we want 
to get this right--and that takes time.
    As part of this ongoing review, the Wireless Telecommunications 
Bureau recently sent AT&T a letter expressing serious concerns about 
the impact of its ``Sponsored Data'' program on competition for mobile 
video services and asking AT&T to address those concerns forthwith. In 
its letter, the Bureau reiterated that its concerns are not with zero-
rating per se, but with the specific impact of AT&T's zero-rating 
practice on competition, as implemented through the terms and 
conditions of its Sponsored Data program.

    Question 2. Due to Hawaii's unique geography, it is particularly 
challenging for broadband service providers to deploy and maintain a 
state of the art network in the state. This is particularly true for 
providers in the state who are trying to expand their networks to 
provide services to the most remote areas. For this reason, I believe 
that the FCC should take extra care to ensure that the Business Data 
Services (BDS) investments in the rural areas of our state are not 
inadvertently disrupted by the FCC's Business Data Services proposals. 
What steps are you taking to ensure that the proposed rules will not 
inadvertently negatively impact network investment in Hawaii?
    Answer. Business data services (BDS) play an important role in the 
day-to-day life of consumers, business, and industry, and are integral 
to the competitiveness of the U.S. economy as a whole in the 
information age. Earlier this year we sought broad public comment on 
reforming and modernizing the existing, fragmented regulatory BDS 
structure with a new framework. My goal is to maximize the benefits of 
business data services for U.S. consumers and businesses, including 
those in rural areas, such as remote areas of Hawaii. I fully agree 
that maintaining incentives to invest--both by BDS providers and by 
their customers--is paramount.
    In early October, I circulated to my fellow Commissioners proposed 
rules to reform the regulatory regime for BDS to promote fairness, 
competition, and network investment in this important marketplace. The 
circulated Order provides a new framework that strikes a balance 
between targeted regulation for lower-bandwidth legacy services, where 
evidence of market power is strongest, and lighter-touch regulation for 
packet-based services, where there has been new entry and competition 
may be emerging. The proposed Order is grounded in the comprehensive 
record of this proceeding, including careful review of the 
sophisticated economic analyses presented by multiple parties as well 
as other record evidence, including developments since the 2013 data 
collection. As we work to achieve these important goals, we take into 
careful consideration the impacts various forms of regulation would 
have in the markets that utilize BDS, and we also pay particular 
attention to impacts any potential regulations may have in rural areas.
    Please note that Hawaiian Telcom provides DS1 and DS3, which are 
lower-bandwidth legacy services, under price caps. The rates for these 
services were initially based on the costs Hawaiian Telcom's 
predecessor--Verizon Hawaii--incurred in providing business data 
services, and thus reflected the specific costs of providing business 
data services in Hawaii. While the circulated Order provides for 
reductions in these rates, in the event such reductions are 
inconsistent with the actual costs of serving a rural area, providers 
such as Hawaiian Telcom will have the option of making a tariff filing 
accompanied by cost data showing that higher rates are warranted, which 
the Commission would carefully review and consider.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                            Hon. Tom Wheeler
    Question. Do Stingrays and related surveillance products cause 
harmful interference to consumer cellular networks, in particular to 
911 access? To what extent has the FCC examined the issue of 
interference in regards to law enforcement practices with wireless 
surveillance technology?
    Answer. The FCC remains committed to protecting the integrity of 
the Nation's communications and to ensuring that use of equipment by 
all parties complies with U.S. law and FCC regulations. As you know, 
regulatory responsibility for the radio spectrum is divided between the 
FCC and the National Telecommunications and Information Administration 
(NTIA). NTIA administers spectrum and transmitter authorization for 
Federal use. Given this divided responsibility, we have engaged in 
discussions with our Federal partners regarding the deployment and use 
of cell site simulators (CSS) through the internal FCC task force on 
CSS that I established in 2014. The Commission's CSS equipment 
authorizations expressly contemplated that the use of equipment by 
state and local law enforcement would be under the auspices of the FBI. 
To date, we are not aware of any substantiated reports of disruption of 
cell phone calls by CSS devices. In addition, we understand that the 
equipment includes the capability to recognize and release 911 calls.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                            Hon. Tom Wheeler
    Question 1. As you know, the state of New Jersey does not have a 
designated market area despite being one of the most densely populated 
states in the Nation. To alleviate the lack of local coverage, WWOR is 
required to ``devote itself to meeting the special needs of its new 
community (and the needs of the Northern New Jersey area in general).'' 
However, there is a longstanding dispute in front of the FCC on whether 
WWOR is fulfilling its special obligation.
    In connection with its petition to deny the renewal of WWOR's 
station license, Voice for New Jersey submitted substantial evidence 
that the station is not fulfilling its obligations to its community of 
license. The evidence included a detailed review and analysis of the 
station's programming over a representative (2 week) period, an 
analysis of five quarters of Issues and Programming reports filed by 
WWOR which indicated that the station provided an average of only about 
two minutes per day of New Jersey news, and a study by The Eagleton 
Institute of Politics at Rutgers University which concluded that WWOR 
``barely covered'' local and state elections.
    When determining whether a station renewal is in the public 
interest, what weight is typically given to information given by 
private citizens?
    When determining whether to renew a station's license, what 
evidence does the FCC typically look for to determine whether the 
renewal is in the public interest?
    When determining whether to review a determination by the Media 
Bureau, what criteria does the FCC typically use in determining whether 
there is a substantial question of fact as to whether renewal of the 
station license is in the public interest?
    Answer. The Commission's consideration of the application for the 
renewal of the license for station WWOR-TV is an ongoing proceeding and 
requires the agency's consideration of outstanding applications for 
review and responsive pleadings. Under these circumstances, our 
responses below are intended to provide an overview of the statutory 
considerations that govern the Commission's review of broadcast renewal 
applications in general and do not address the specific issues in the 
WWOR proceeding. In addition, because that proceeding has been declared 
permit-but-disclose pursuant to our ex parte rules (47 C.F.R. 
Sec. 1.1206), we are placing a copy of this response in the public 
docket of that proceeding (MB Docket No. 07-260).
    In determining whether to grant an application for renewal of a 
broadcast license, under Section 309(k)(1) of the Communications Act, 
the Commission considers whether, during the preceding term of that 
station's license:

  (A)  the station has served the public interest, convenience, and 
        necessity;

  (B)  there have been no serious violations of the Communications Act 
        or the rules and regulations of the Commission; and

  (C)  there have been no other violations by the licensee of the 
        Communications Act or the rules and regulations of the 
        Commission, which, taken together, would constitute a pattern 
        of abuse.

    If a petition to deny has been filed against a broadcast renewal 
application, the Commission (or the Media Bureau, on delegated 
authority) reviews the petition pursuant to Section 309(d) of the Act 
to determine whether it contains ``specific allegations of fact 
sufficient to show . . . that a grant of the application would be prima 
facie inconsistent with'' the factors contained in Section 309(k)(1) 
noted above. If a prima facie case is established, pursuant to Section 
309(e), the Commission examines the record to determine whether a 
``substantial and material question of fact is presented'' warranting 
further inquiry in a hearing.
    In determining whether there is a substantial and material question 
of fact, the Commission looks at the totality of the record, including 
evidence submitted by petitioners, the responsive pleadings filed by 
the station and others, the station's renewal application, the 
station's public file, and any information produced in response to 
inquiries from the agency. The facts adduced are then evaluated in 
accordance with Commission precedent. Following this review, if the 
Commission finds that a substantial and material question of fact 
exists as to whether renewal of the license is in the public interest, 
it will designate the renewal application for hearing before an 
administrative law judge. If it finds that there are no substantial and 
material questions of fact and that grant of the application would be 
consistent with Section 309(k)(1), the Commission will grant the 
application, although, depending on the facts before it, it may impose 
conditions on the grant.
    The appropriate vehicle for a party to seek Commission review of an 
action on delegated authority by the Media Bureau is the filing of an 
application for review. A party seeking such review must demonstrate in 
its pleading the existence of at least one of the factors set out in 47 
C.F.R. Sec. 1.115(b)(2), namely that the Bureau's action: (1) conflicts 
with statute, regulation, precedent, or established Commission policy; 
(2) involves a question of law not previously resolved by the 
Commission; (3) involves application of a precedent or policy which 
should be overturned; (4) involves an erroneous finding as to an 
important or material question of fact; or (5) involves a prejudicial 
procedural error.

    Question 2. Chairman Wheeler, I applaud your efforts to move the 
country toward adopting 5G networks. It is critical for U.S. innovation 
that we lead the way in 5G deployment. What is the FCC doing to meet 
the speed and bandwidth requirements of 5G networks through wired 
backhaul services, and what further steps need to be taken to make sure 
wired networks do not limit continued wireless innovation?
    Answer. As the demand for wireless technologies increases, so does 
the need for greater coverage and wireless network capacity. High-speed 
mobile broadband requires high-speed broadband buildout. However, the 
regulatory burdens associated with deployments can be expensive and 
time-consuming. Beginning in 2014, the Commission has taken concrete 
steps to immediately and substantially ease those burdens. The 
Commission adopted an Order that recognized a technological revolution 
with regard to infrastructure deployment had changed the landscape. 
Distributed Antenna Systems (DAS) networks and other small-cell systems 
use components that are a fraction of the size of larger, older 
antennas and towers and can be installed on utility poles, buildings, 
and other existing structures. The Order excluded certain types of 
installations from review, and also directed Commission staff to 
further streamline review of DAS and small cell deployments within 18-
24 months, which was done in late summer of this year. The FCC also 
substantially reformed tower lighting and marking requirements, which 
greatly eased compliance burdens for tower owners without any adverse 
impact on aviation safety.
    The success of 5G will hinge upon deploying more densified wireless 
networks and promoting common-sense siting policies that are essential 
for these new networks. The Commission is placing particular emphasis 
on expanding access to spectrum, enabling backhaul connections, and 
promoting infrastructure deployment. In August, as noted above, the FCC 
took a critical step forward on the infrastructure front when our 
nationwide programmatic agreement was amended, which has streamlined 
the environmental and historic review process for many small cells. The 
FCC has also tightened our ``shot clock'' for siting application 
reviews. The Commission will continue working to eliminate unnecessary 
infrastructure siting hurdles for small cells and to ensure that siting 
review fees and processes at the local level are fair and reasonable. 
In addition, the FCC has adopted rules aimed at providing that both 
wireless and wired providers of telecommunications services, including 
wireless services and wired backhaul services, have nondiscriminatory 
access to utility poles, ducts, conduits, and rights-of-way on rates, 
terms, and conditions that are just and reasonable.
    Advances in technology require that the FCC not only act now to 
pave the way to the next generation of wireless networks, but we must 
also update our rules to facilitate the transition away from legacy 
wired networks. Phone and Internet providers are increasingly replacing 
their legacy copper networks with next-generation networks that enable 
greater broadband speeds, efficiency, capacity, and a wealth of 
innovative features. The Commission acted to ensure that providers can 
move forward with these transitions efficiently while also ensuring 
consumers and other customers have the information they need. The 
Commission also established a streamlined process for reviewing 
providers' applications to transition to next generation services while 
ensuring that the enduring values of competition, consumer protection, 
universal service, and public safety that have long defined our 
networks remain protected. Additionally, in the Business Data Services 
(BDS) proceeding, the Chairman recently circulated an order proposing 
actions that would support rapid deployment of innovative 5G mobile 
service by ensuring that wireless providers have fair access to BDS at 
just and reasonable rates, terms, and conditions. By preserving a light 
regulatory touch, we will encourage continued investment in high-speed 
Ethernet facilities that will be essential to 5G.

    Question 3. Is the U.S. keeping pace with other nations in moving 
forward with 5G?
    Answer. 5G is a national priority, and we are the first country to 
establish the regulatory framework for making high-frequency spectrum 
available for new 5G services. The Spectrum Frontiers Report and Order 
repeats the proven formula that made the United States the world leader 
in 4G: (1) make a large amount of spectrum available quickly; (2) 
protect and preserve competition through the adoption of pro-
competitive policies; and (3) adopt a flexible, technology-neutral 
framework that enables operators to innovate and serve the needs of 
consumers. Opening up spectrum and offering flexibility to operators 
and innovators is the most important thing we can do to enable the 5G 
revolution. Some other countries have adopted a different, top-down 
approach to 5G, which involves studying what 5G should be and how it 
should operate and then determining how to allocate spectrum based on 
those assumptions. We believe it is better to make the spectrum 
available on a flexible basis and then get out of the way.

    Question 4. There appear to be a substantial number of illegal 
``pirate'' radio operations in certain regions of the United States 
today. For example, the New York State Broadcasters Association (NYSBA) 
believes they have identified 76 illegal radio stations operating in 
Northern New Jersey and in New York City. What steps is the Commission 
taking to enforce its rules against illegal radio broadcasting?
    Answer. The FCC is committed to enforcement of the licensing 
requirements of the Communications Act, which the Commission has 
interpreted to prohibit unlicensed radio broadcasting. Last year, 20 
percent of the Enforcement Bureau's activities were directed towards 
pirate radio. That's more than any other area of enforcement. During FY 
2015, the Enforcement Bureau issued 130 enforcement actions for pirate 
operations. More than half of those actions were in the New York/New 
Jersey area. So far in FY 2016, the Enforcement Bureau has investigated 
459 pirate operations, leading to: (1) 159 enforcement actions; (2) six 
Notices of Apparent Liability for Forfeiture totaling $80,000; and (3) 
four Forfeiture Orders totaling $55,000. Nearly 50 percent of these 
enforcement actions (74) have been against New York/New Jersey-area 
pirates.
    In addition to taking formal enforcement actions, the Commission is 
also addressing the issue by working more closely with broadcasters and 
raising public awareness about pirate radio. For example, in March of 
this year, the Commission issued an Enforcement Advisory about pirate 
radio and all five Commissioners signed letters addressed to local 
officials as well as groups that may provide support, intentionally or 
unintentionally, to pirate radio operations. The letters and 
accompanying Enforcement Advisory explain the harms caused by pirate 
radio and seek to enlist the assistance of local officials, landlords, 
and advertisers in identifying pirates and depriving them of financial 
support. The letters and Enforcement Advisory may be accessed on the 
Commission website at: https://www.fcc.gov/document/enforcement-
advisory-unauthorized-radio-broadcasting.

    Question 5. I understand that public television stations, the NAB 
and the Consumer Technology Association have filed a petition at the 
FCC, seeking approval to offer Next Generation TV--an exciting new 
optional standard that among other innovations will provide a robust 
emergency broadcast capabilities and the ability to provide more in-
depth news to viewers. I know from experience that when my constituents 
dealt with Super Storm Sandy or more recently Hermine, they turned to 
their local broadcasters for news and updates. I am pleased with the 
increased emergency information that will be available to them with 
this new standard.
    Mr. Chairman, what is the status of this petition and do you think 
it will be addressed by the end of this year?
    Answer. The Media Bureau issued a Public Notice seeking comment on 
the ATSC 3.0 Petition on April 26, 2016, and the comment period closed 
on June 27, 2016.
    Commission staff is reviewing the record and engaging with industry 
representatives on this topic. Specifically, the Media Bureau and the 
Office of Engineering and Technology are actively considering the 
issues that should be raised in an NPRM proposing to authorize the ATSC 
3.0 broadcast standard. We seek to support broadcasters' innovation 
while ensuring that consumers who are not yet equipped for this change 
can continue to receive the same level of TV service they have come to 
expect.
    The record raises a number of complex issues. Although the benefits 
of ATSC 3.0 may be great, the transition to this broadcast transmission 
standard comes with considerable technical and logistical challenges, 
costs, and some risks to the many stakeholders involved, including 
consumers. A forthcoming NPRM will carefully study the balance between 
advancing broadcast technology that brings new features and 
opportunities to broadcasters and their viewers and ensuring the 
continuity and quality of broadcast service to all Americans.

    Question 6. Broadcasters in my state and across the country have 
advocated for the installation of FM chips in cell phones to better 
enable communications during emergencies. What impact would enabling FM 
chips have on emergency communications and consumers' ability to access 
information when it's needed most? Should this be a requirement across 
the mobile industry?
    Answer. One of the Commission's highest priorities is to ensure 
that all Americans can receive timely and accurate alerts, warnings, 
and critical information regarding disasters and other emergencies, 
irrespective of what communications technologies they use. This 
capability is essential to ensure that Americans can take appropriate 
action to protect their families and themselves.
    FM chip sets can provide important benefits to consumers. I 
understand that there are already an increasing number of phones that 
include them and at least one major carrier has embraced the technology 
by providing FM radio access to its customers. The question of whether 
activation of these chips should be mandated or based on consumer 
choice appears to be resolving itself in the marketplace.

    Question 7. This summer the FCC's spectrum incentive auction began 
and seems to be falling short of predicted revenues. What is the 
Commission's plan to ensure this process moves forward smoothly and 
yields enough revenue to relocate broadcasters? Please provide an 
update of next steps in the auction process.
    Answer. The Broadcast Incentive Auction is a voluntary, market-
based means of repurposing spectrum. The reverse and forward auctions 
are integrated in a series of stages, with the auction proceeding to a 
new stage if the final stage rule is not met at the close of the 
forward auction in the preceding stage.
    The Incentive Auction recently concluded the second stage of the 
auction. Bidding in the reverse auction concluded with a 37 percent 
reduction in broadcaster clearing costs. Although the final stage rule 
was not met during Stage 2, the auction continues to work as designed 
to find the market equilibrium between the supply of spectrum offered 
by broadcasters and the demand of wireless providers. The auction is a 
market-based mechanism for matching supply with demand. The Commission 
intentionally designed the auction to account for the possibility that 
supply and demand might not match at the initial clearing target. 
Conducting multiple stages to align supply and demand is something we 
planned for.
    Stage 3--which will attempt to clear 108 megahertz for wireless 
use--began with bidding in the reverse auction on Nov. 1. If the 
revenues from Stage 3 of the forward auction meet or exceed the 
clearing costs from the reverse auction plus $1.75 billion for the 
broadcaster relocation reimbursement fund and the Commission's 
estimated $207 million in administrative costs for the auction, then 
the Incentive Auction will close. If not, then the Commission will 
calculate the next lowest clearing target and resume reverse auction 
bidding.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                            Hon. Tom Wheeler
    Question 1. In 2011, the Commission (Federal Communications 
Commission) voted to expand rural broadband access by modernizing the 
Universal Service Fund. West Virginia had one of the lowest rates of 
broadband service in the Nation then, and in 2016 that is unfortunately 
where we remain. The job of bringing broadband access throughout my 
state is far from done. A critical part of delivering on the universal 
service mandate is moving forward on the next phase of the Mobility 
Fund.
    Last year, I wrote the Commission to highlight the real 
communications challenges that remain in rural America. The fact is 
that tens of thousands of West Virginians and millions of Americans 
living in rural communities still do not have access to reliable 
advanced wireless services. We cannot leave rural America behind. I 
also led a letter with Senator Gardner and six members of this 
committee on the importance of getting an accurate measure of mobile 
broadband coverage in our states.
    In that letter, we noted that the agency has previously indicated 
that 99.9 percent of Americans live in an area that has access to some 
wireless service. The reality in our states is far different than what 
the maps indicated. Unfortunately, significant gaps in mobile broadband 
coverage still exist in West Virginia and across rural America today. 
Inaccurate data has failed rural and remote communities across this 
country.
    Therefore, I worked with my colleagues on the Committee on two 
provisions aimed at helping the FCC better understand the reality of 
mobile broadband coverage across our states. The first would explore 
the viability of conducting drive testing in rural areas to map where 
coverage exists, and, even more importantly, where it still needs to be 
delivered. The second would take an in-depth look at whether additional 
mobile coverage data should be collected from additional, or 
alternative, sources.
    The Commission previously acknowledged that there are limitations 
in current data from reporting coverage data with reliable accuracy.
    What steps is the Commission currently taking to address these 
limitations?
    Answer. In the past, the Commission has confronted several 
challenges in our attempts to measure coverage in a way that matches up 
with consumers' real-world experiences. The biggest of these challenges 
involved the process of reliable data collection. For the past several 
years, the Commission relied on data that came from states via the 
National Telecommunications Information Administration--data that was 
used in the National Broadband Map--and third party commercial vendors. 
For a variety of reasons, the data collected by the states and third 
party commercial vendors did not always accurately reflect the real 
world experiences of consumers, including your constituents.
    Recognizing the need to improve our mobile coverage data, in 2013 
the Commission took a significant step forward in its Modernizing the 
FCC Form 477 Data Program Order, which substantially revised and 
enhanced its collection of mobile voice and broadband coverage data.\1\ 
The scope and nature of the new Form 477 data on mobile services 
coverage is an improvement over earlier data sources in certain key 
respects, such as the uniformity of data reporting. As a result, the 
Commission is now collecting coverage data directly from wireless 
carriers through the Commission's Form 477. We expect the data that the 
wireless carriers provide through their Form 477 submissions will be 
more accurate than previous data because it comes directly from the 
entity that is deploying the wireless facilities and is certified by 
the carriers to be an accurate reflection of their coverage.
---------------------------------------------------------------------------
    \1\ See Modernizing the FCC Form 477 Data Program, Report and 
Order, 28 FCC Rcd 9887 (2013) (477 Report & Order). Also see Form 477 
PN 2016.
---------------------------------------------------------------------------
    In addition, in the context of providing for ongoing support for 
mobile broadband service, we intend to provide a process to consider 
stakeholders' challenges to ensure accurate decisions on the 
eligibility of particular areas. Finally, the Commission remains open 
to working with stakeholders regarding additional data sources, 
including new third party sources, and methods that we can employ to 
obtain more reliable information on mobile broadband coverage.

    Question 2. I applaud the Commission's continued efforts to promote 
competition in the set-top box marketplace. Getting rid of set-top 
boxes in favor of an ``apps-based'' approach should reduce direct 
consumer costs. But innovations available to urban and suburban 
consumers should be available to rural consumers as well. And I remain 
concerned about the West Virginians who still do not have access to 
affordable, reliable broadband service--or do not have broadband 
service at all. These West Virginians may be forced to keep a set-top 
box in their households.
    For these rural consumers, do you believe this proposal will meet 
the Communications Act's mandate to assure the commercial availability 
of competitive devices?
    Answer. During my recent trip to West Virginia, you and I spoke 
extensively about the challenges your constituents face regarding 
connectivity, so I understand your concerns. As we discussed, we will 
continue to do everything we can to address the broadband connectivity 
challenges those constituents are experiencing.
    With respect to your concern, the cable and satellite TV industries 
have assured the Commission that they are able to provide a pay-TV app 
without a broadband connection.
    In addition, the Order on circulation would maintain in the near 
term the CableCARD support requirements to ensure a retail marketplace 
for navigation devices such as TiVo, ensuring that consumers who choose 
a non-MVPD provided device today will continue to be able to use their 
devices.

    Question 3. Consumers today are increasingly using their mobile 
devices are part of their everyday lives. The 2016 Broadband Progress 
Report found that fixed and mobile broadband are not functional 
substitutes for one another--they are both essential components of our 
lives today. I commend the Commission's recognition of the importance 
of allowing different technologies to compete to bring reliable 
broadband access to every home and business throughout the Nation. And 
I strongly support that goal and the Commission's work to ensure 
America continues to lead the next generation of wireless services, 
which will require an increasing amount of high-capacity backhaul. 
Could you explain how increasing competition would affect the 
significant investment required to build out robust wireless networks 
in rural areas?
    Answer. Advanced broadband networks are a key driver of economic 
and social activity today, connecting consumers across the country to 
one another and to new job opportunities, education enrichment, and 
health care services. This is particularly true for small and rural 
communities, and every American, no matter where they live. Spectrum is 
a critical input in the provision of competitively provided mobile 
wireless services, and in recent years the Commission has made 
substantially more spectrum available and has ensured that our policies 
and rules facilitate access to spectrum in a manner that promotes 
competition. For example, prior to the currently ongoing Incentive 
Auction, the Commission took steps to reserve certain amounts of low-
band spectrum. To promote competition, the reserve was established for 
nationwide providers that lacked such spectrum, as well as for non-
nationwide providers irrespective of their low-band holdings. 
Consistent with our established policy to promote variety in licensees 
and to promote access to spectrum and facilitate capital formation for 
entities seeking to serve rural areas or improve service in rural 
areas, non-nationwide service providers were deemed eligible to bid on 
reserved spectrum in all markets nationwide. The Commission is 
committed to ensuring that all Americans, including those living and 
working in rural areas, have access to robust mobile broadband networks 
that are increasingly essential for full participation in today's 
society and economy.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                        Hon. Jessica Rosenworcel
    Question 1. As part of the Spectrum Frontiers Order, the FCC made 
available nearly 11 GHz of spectrum, but less than 4 GHz of that will 
be made available on a licensed basis. And a portion of that licensed 
spectrum will be allocated on a shared basis.
    A. I believe that there should be a balance between licensed and 
unlicensed spectrum. Does this Order strike the proper balance? If so, 
please explain why.
    Answer. Yes. Unlicensed spectrum supports Wi-Fi, which has helped 
democratize Internet access. Unlicensed spectrum also helps wireless 
carriers manage their networks. To this end, more than half of all 
wireless data connections are offloaded at some point onto unlicensed 
airwaves. Moreover, unlicensed spectrum is a launching pad for wireless 
innovation--and a vital part of the emerging Internet of Things. Plus, 
unlicensed spectrum has a powerful bottom line--it contributes more 
than $140 billion to our economy annually. For all of these reasons, we 
need spectrum policies that have a role for both licensed and 
unlicensed spectrum--just as you suggest. I believe the Commission 
struck the right balance in its Spectrum Frontiers decision between 
licensed and unlicensed spectrum. In this decision, the agency adopted 
policies to accommodate terrestrial wireless services in the 28 GHz, 37 
GHz, 39 GHz, and 64-71 GHz bands. While the 28 GHz, 37 GHz, and 39 GHz 
bands are designated for licensed spectrum, the 64-71 GHz band is 
designated for unlicensed use. This division of licensed and unlicensed 
spectrum makes sense because the 64-71 GHz band is adjacent to an 
existing swath of unlicensed spectrum. Combining them enhances spectrum 
efficiency by enabling the use of wider channels, which creates new 
possibilities for the development of Wi-Gig services.

    B. Should the Commission look for more licensed spectrum as it 
considers additional high frequency bands in its further notice?
    Answer. Yes.

    Question 2. The Commission has proposed an exception to the local 
media cross-ownership ban that would allow a broadcaster to invest in a 
newspaper when it is ``failing.'' This exception for cases in which a 
newspaper is ``failing'' renders little value to a newspaper that needs 
investments now, well before it is ``failing.'' By the time a newspaper 
is ``failing,'' a local broadcaster may no longer see it as a 
worthwhile investment--particularly in light of the consumer trend 
toward digital and mobile applications for news and entertainment. 
Shouldn't the Commission be seeking ways to encourage investment in 
newspapers before they get to a state of ``failing,'' and before such 
newspapers may have to make the difficult decision to cut back on local 
reporting resources?
    Answer. After careful consideration of the record, the Commission 
concluded in its Quadrennial Review decision that oversight of 
newspaper-broadcast cross-ownership remains an important part of 
protecting and promoting viewpoint diversity in local markets. However, 
the agency also determined that at this time an absolute ban on 
newspaper-broadcast cross-ownership is overly broad and restrictive. To 
this end, the Commission adopted several exceptions to its newspaper-
broadcast cross-ownership rule. First, as you note, the Commission 
excepted failed or failing newspapers and broadcast stations from the 
general prohibition. However, the Commission went beyond consideration 
of failing firms and made clear that it also will consider exceptions 
on a case-by-case basis where applicants can show that the proposed 
combination will not harm viewpoint diversity in the local market. 
Finally, the Commission clarified the geographic scope of the rule by 
updating old analog parameters to more accurately reflect the markets 
that newspapers and broadcasters actually serve.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                        Hon. Jessica Rosenworcel
    Question 1. Commissioner Rosenworcel, both the Federal and state 
universal service funds are important to my constituents in Nebraska. 
As Chair of the Federal-State Joint Board, you are tasked with making a 
recommendation to the FCC on how to update and reform the collection of 
contributions for the Federal Universal Fund. Nebraska is currently 
considering proposals to reform the contributions process for the 
Nebraska State Universal Service Fund. Can you provide an update on a 
potential proposal from the FCC on contributions reform? Do you see a 
role for states in contributions reform, particularly if Federal action 
is not going to take place in the near future?
    Answer. Now that the DC Circuit has issued its broadband 
reclassification opinion in United States Telecom Association v. FCC, 
the Federal-State Joint Board on Universal Service is continuing its 
work with new resolve. We have established a schedule for regular staff 
meetings, culminating in an in-person discussion next month at the 
quarterly gathering of the national association of state regulatory 
officials. Although it is premature to say when the recommended 
decision will be complete, work is certainly underway.
    As you note, Nebraska, like some other states, has its own 
universal service fund. These state funds play an important role in 
ensuring that modern communications services reach our most rural 
communities. While the work of the Federal-State Joint Board on 
Universal Service proceeds, states may proceed with their own reforms, 
provided that any changes that are made are within their jurisdictional 
authority.

    Question 2. I am excited about the opportunities that 5G networks 
and services may bring for the U.S. and the citizens of Nebraska, and I 
understand that in addition to making more spectrum available, we will 
have to build out new wireless infrastructure to make 5G services a 
reality. I know that 5G networks will rely on equipment that is much 
smaller than traditional wireless towers, and that these small cells 
will need to be widely deployed. In August, the FCC's Wireless Bureau 
took positive steps to help streamline the deployment of small cell 
antenna systems. However, you have made it clear that the FCC needs to 
do more. What should the Commission do to address barriers to deploying 
small cells?
    Answer. Spectrum gets all the glory. But the unsung hero of the 
wireless revolution is infrastructure--because no amount of spectrum 
will lead to better wireless service without good infrastructure on the 
ground. This is especially true with the next generation of wireless 
services--known as 5G. With 5G services incorporating greater use of 
high-band spectrum, small cells are going to be a big thing. Getting 
these facilities fully deployed will take new focus and effort. That's 
because our existing policies are designed for wireless towers and 
facilities that have a much greater footprint than small cells.
    To remedy this problem, the Commission has already taken steps to 
update historic and environmental review practices in order to 
streamline them for small cell deployment. Specifically, in August of 
this year, the Commission modernized what is known as the nationwide 
programmatic agreement pursuant to the National Historic Preservation 
Act. This eliminates the need for historical review of small cell 
deployments on non-historic buildings, as well as on historic buildings 
or buildings within historic areas subject to visibility limits and 
historic landmark designations.
    Going forward, however, we will need to do more. In the near term, 
the Commission should survey the fees municipalities charge for siting 
as well as the length of their review to better understand deployment 
challenges. In the long term, we will need to get creative. This could 
include holding a smart cities contest and rewarding the communities 
that put this infrastructure in place in a speedy way, facilitating the 
development of 5G services. In addition, we could develop the broadband 
and wireless equivalent of LEED certification, creating a market 
mechanism to encourage building owners to update their facilities for 
digital age service. This could be based on a model put in place by 
former New York Mayor Michael Bloomberg, which helped identify 
buildings with broadband infrastructure. We could also put a new 
premium on deployment on Federal facilities, by developing a state-by-
state comprehensive list of Federal structures where deployment can 
occur in an expedited fashion.

    Question 3. Consumers are increasingly using their mobile devices 
as part of their everyday lives. And, as such, we need to work together 
to find ways to allow for expansion into the 5G world. As part of that 
effort, I commend the FCC for its work on making high-band available 
for 5G. But, it is my understanding that wireless networks will need to 
use not only high-band spectrum but also will need access to more low-
bands and mid-bands. This combination of bands is critical in order for 
consumers to continue to enjoy a fast paced, high demand, mobile 
experience. Will you agree to find ways to make more mid-band and low-
band available for commercial use?
    Answer. Yes. We have to remember that while we explore the 
possibilities of millimeter wave spectrum, mid-band and low-band 
spectrum is still vitally important today--and in the 5G future.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                        Hon. Jessica Rosenworcel
    Question 1. This month, New Jersey became the 5th state in the 
Nation to fully implement text to 9-1-1 services. This capability will 
expand 9-1-1 access to persons with disabilities and enable people in 
tough situations who cannot make a call, to still access the vital 
services provided by first responders. I am so proud of our state's 
tremendous achievement and look forward to seeing more states follow 
suit.
    What challenges do you see as most pressing when it comes to 
getting this and other 9-1-1 upgrades implemented nationwide?
    Answer. Every year we make 240 million calls to 911. Every one of 
those calls is critical--and deserves a timely answer and response. But 
our 911 system is facing big challenges. By and large, the system we 
have today was designed for the analog era. It is organized around 
traditional wired telephony and does not fully reflect or feature the 
digital capabilities of modern networks. This needs to change.
    To be clear, we are taking some steps to update this system and 
move forward. For example, the Commission recently adopted rules to 
strengthen location accuracy for wireless calls--so first responders 
can better pinpoint the location of emergency calls made from mobile 
phones. In addition, the Commission put in place a framework for 
texting to 911 which, as you acknowledge, is now up and running in a 
handful of states--New Jersey included.
    To make real progress, however, more work is required. Three major 
challenges could slow down work in this area--so they need to be 
addressed.
    First, funding is a challenge. There is no annual Federal funding 
system for 911 service. Our nation's 911 systems are funded strictly at 
the state and local level. In fact, roughly $2.5 billion is collected 
each year by state and local jurisdictions to support 911 service. But 
as the Commission's report on 911 funding pursuant to the New and 
Emerging Technology 911 Improvement Act demonstrates, some states are 
diverting fees collected for 911 service for other purposes--including 
uses that have nothing to do with public safety. Stripping 911 service 
of funding will delay much-needed upgrades to our public safety system. 
It has to stop--and it is time to consider how Federal funding for 
other public safety purposes might be conditioned on a commitment to 
end fee diversion.
    Second, jurisdiction is a challenge. Federal authority over 911 is 
limited. State and local authorities have primary responsibility for 
our Nation's 911 systems--which include more than 6,000 public safety 
answering points. These systems, however, are different in different 
parts of the country. To illustrate this, consider Nevada and 
Mississippi. Both states have populations of just under 3 million. But 
while Nevada has 12 public safety answering points, Mississippi has 
375. In other words, we have very different ways of managing emergency 
calling in different parts of the country. It makes a uniform effort 
hard. Consequently, any Federal policy in this area must consider how 
implementation practices may vary from state to state.
    Third, we need a common definition of next-generation 911. We need 
to ensure that when we talk about next-generation 911 in one 
jurisdiction it means the same thing in another jurisdiction. That is 
not the case today. Federal policymakers can assist with this effort--
by developing nationally-accredited standards that promote 
interoperability between public safety answering points.

    Question 2. What can members of Congress do to support upgrading 
these systems so that our first responders and public safety facilities 
keep pace with modern technology?
    Answer. There are two things that can be done right now to support 
the update of our Nation's 911 systems--and improve public safety in 
the process.
    First, we need to end 911 fee diversion. As described above, state 
and local authorities are responsible for funding 911 services. Every 
year, they collect $2.5 billion in fees to support 911 facilities. This 
is typically accomplished through line items on wired and wireless 
phone bills that are identified as support for 911 service. However, 
not all states follow through and actually use these funds for 911 
purposes. Some use them for budget shortfalls and projects that have 
nothing to do with public safety. This is not right--and needs to stop. 
Congress can condition Federal funding for public safety projects on 
states agreeing to end 911 fee diversion.
    Second, we need to kick-start a special program that can help 
update our Nation's 911 systems that was included in the Middle Class 
Tax Relief and Job Creation Act of 2012. Section 6503 of this law re-
established a 911 Implementation Coordination Office that is jointly 
run by the National Telecommunications and Information Administration 
and the National Highway Traffic Safety Administration. Even better, it 
authorizes a one-time $115 million matching grant program to update 911 
service. But four years after Congress authorized its creation, this 
program is still not up and running. This is not acceptable--especially 
because it is the best near-term resource we have to get going on next-
generation 911. Congress can press the authorities responsible for this 
grant program to put it in place as soon as possible--and to structure 
the funding to support next-generation 911 projects that can be a 
blueprint for updating services in communities nationwide.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                        Hon. Jessica Rosenworcel
    Question 1. The Small Business Broadband Deployment Act would allow 
small businesses to focus on increased deployment, instead of overly 
burdensome reporting. Senator Daines and I worked with Senator Cantwell 
to reach a further bipartisan compromise that builds on the version of 
this bill that passed the U.S. House of Representatives by a vote of 
411-0. The further agreement we reached would benefit rural consumers 
in all of our states. You have previously stated that you believe small 
businesses should be exempted from these additional reporting 
requirements and receive a permanent exemption. Do you agree that the 
temporary exemption coupled with a report by the Commission in our bill 
is a reasonable path forward?
    Answer. Yes.

    Question 2. I applaud the Commission's continued efforts to promote 
competition in the set-top box marketplace. Getting rid of set-top 
boxes in favor of an ``apps-based'' approach should reduce direct 
consumer costs. But innovations available to urban and suburban 
consumers should be available to rural consumers as well. And I remain 
concerned about the West Virginians who still do not have access to 
affordable, reliable broadband service--or do not have broadband 
service at all. These West Virginians may be forced to keep a set-top 
box in their households.
    For these rural consumers, do you believe this proposal will meet 
the Communications Act's mandate to assure the commercial availability 
of competitive devices?
    Answer. The Commission is still in the process of evaluating the 
best path forward to bring much-needed competition to the set-top box 
marketplace. In my review of any proposal, I will carefully consider 
the Commission's legal authority as well as the impact on consumers in 
urban and rural areas. I believe any proposal that is adopted should be 
both legally sustainable and capable of benefiting consumers across the 
country.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Hon. Ajit Pai
    Question 1. In its Further Notice of Proposed Rulemaking in the 
Spectrum Frontiers proceeding, the Commission talked about following 
the 4G playbook in making available high band spectrum that we all hope 
will be a platform for global 5G leadership. At the same time, the FCC 
sought comment on ``use-it-or-share-it'' proposals that some argue may 
devalue high band licenses. Are you at all concerned that these types 
of sharing proposals could undermine investment in high band 
frequencies, potentially putting our Nation's leadership in 5G at risk?
    Answer. One of my key priorities in the FCC's Spectrum Frontiers 
proceeding is to ensure that our policies promote investment and 
innovation in these spectrum bands. As we move to the next phase of 
this proceeding, I will take the concern you have expressed to heart 
and support policies necessary for the U.S. to extend its 4G leadership 
into the 5G world.

    Question 2. As part of the Spectrum Frontiers Order, the FCC made 
available nearly 11 GHz of spectrum, but less than 4 GHz of that will 
be made available on a licensed basis. And a portion of that licensed 
spectrum will be allocated on a shared basis.
    A. I believe that there should be a balance between licensed and 
unlicensed spectrum. Does this Order strike the proper balance? If so, 
please explain why.
    Answer. I dissented in part from the FCC's 2015 Notice of Proposed 
Rulemaking in the Spectrum Frontiers proceeding because the FCC 
majority refused to seek comment on opening up over 12 GHz of 
additional spectrum--spectrum that could have been made available, at 
least in part, for licensed use. Because the Commission did not seek 
comment on freeing up those additional spectrum bands, the FCC was 
procedurally barred from including those spectrum bands in the Spectrum 
Frontiers Order we adopted earlier this year. I believe the agency 
would have been able to free up more licensed spectrum in that Order if 
the majority had agreed with me and Commissioner O'Rielly to seek 
comment on those additional spectrum bands in the 2015 Notice of 
Proposed Rulemaking.
    But thankfully, the FCC is now seeking comment on opening up those 
and other spectrum bands in the ongoing Further Notice of Proposed 
Rulemaking. That is due, in no small part, to your work on the MOBILE 
NOW bill, which calls for the FCC to examine many of these bands. I 
hope that the FCC strikes the right balance between freeing up licensed 
and unlicensed spectrum when it adopts an order involving these 
additional bands.

    B. Should the Commission look for more licensed spectrum as it 
considers additional high frequency bands in its further notice?
    Answer. Yes. I have long advocated for the agency to take an all-
of-the-above approach to spectrum. That includes making sure we 
identify spectrum in the Spectrum Frontiers proceeding for licensed 
use.

    Question 3. The Commission has proposed an exception to the local 
media cross-ownership ban that would allow a broadcaster to invest in a 
newspaper when it is ``failing.'' This exception for cases in which a 
newspaper is ``failing'' renders little value to a newspaper that needs 
investments now, well before it is ``failing.'' By the time a newspaper 
is ``failing,'' a local broadcaster may no longer see it as a 
worthwhile investment--particularly in light of the consumer trend 
toward digital and mobile applications for news and entertainment. 
Shouldn't the Commission be seeking ways to encourage investment in 
newspapers before they get to a state of ``failing,'' and before such 
newspapers may have to make the difficult decision to cut back on local 
reporting resources?
    Answer. Yes, I agree, and that is why the Newspaper Association of 
America told the Commission that the ``failing'' newspaper exception 
``will not open any opportunities for newspaper companies to obtain 
investment from the media industry, and certainly will not serve the 
public interest.'' Our goal should be to maintain newspapers as healthy 
and vibrant institutions. We shouldn't deprive them of the investment 
they need to thrive until they are at death's doorstep and then hope 
that someone will swoop in at the last minute to save them.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                             Hon. Ajit Pai
    Question 1. Commissioner Pai, in a state like Nebraska, the High 
Cost universal service programs are vital to ensure that carriers can 
build out infrastructure. However, the FCC seems to have prioritized 
resources for Lifeline and E-rate in recent years by increasing their 
budgets and indexing those programs to inflation. Conversely, the High 
Cost fund has been flat-lined since 2011. This makes it difficult for 
rural carriers to deploy the infrastructure that is used for the other 
universal service programs. Commissioner, what justification is there 
for not putting all universal service programs on equal footing if all 
are aimed at the same goal of getting broadband networks built and 
affordable services to users?
    Answer. I agree that the high-cost program is an essential means to 
ensure that every American has the opportunity to access 21st century 
communications networks, including high-speed broadband. Almost 34 
million Americans don't have access to the broadband networks needed to 
fully participate in today's digital economy. That is why I have pushed 
to reform and improve our high-cost program for the past four years.
    I also agree with you that spending dramatically more money on the 
Lifeline and E-Rate programs (without any meaningful spending 
constraint at all, in the case of the former program) was a mistake. 
First, the problem both programs faced was not a lack of funding, but 
poor design, which has led to improper administration. The Commission 
should have sought real reform of these programs rather than just 
increasing the budget for each. Second, you cannot have broadband 
Internet access without broadband networks; that would suggest putting 
a higher priority on the high-cost program, which promotes the build-
out of the networks upon which many low-income residents, schools, and 
libraries rely.

    Question 2. Small rural video providers face many challenges when 
providing service to customers. Prior to the FCC's set-top box Notice 
of Proposed Rulemaking, some of them had shut down their video 
operations or were assessing the cost effectiveness of continuing to 
provide such services to consumers. These are companies that are 
providing service to the communities where they live and work, to their 
neighbors and friends. So many of them continued offering video 
services because wanted to preserve their customers' access to 
terrestrial video offerings where they are often the only option. 
Chairman Wheeler's fact sheet on the set-top box item suggests that the 
order will exempt small providers with fewer than 400,000 subscribers, 
but that small providers can develop apps if they choose to do so. Can 
you clarify which, if any, aspects of the order will apply to small 
video providers? For example, will they be subject to the same 
licensing requirements as larger providers?
    Answer. The Commission has not yet adopted a set-top box order. But 
my position is that no aspect of the rules under consideration should 
apply to small video providers with fewer than 400,000 subscribers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ron Johnson to 
                             Hon. Ajit Pai
    Question. I have been told that it will cost a rural broadband 
provider in Wisconsin somewhere between $20,000 to $50,000 per year 
just on the training costs associated with the FCC's currently proposed 
privacy rules. Does the FCC recognize that money spent on training and 
compliance lawyers diverts money to rural broadband build out?
    Answer. The Commission's proposed privacy rules from March were a 
wild departure from the rules that applied to Internet service 
providers under the Federal Trade Commission's regime, and those rules 
would have imposed very large compliance costs on very small providers. 
I agree with you that such a radical departure from the FTC's 
successful framework makes no sense, and that small ISPs should be 
focused on what Americans so desperately want: higher-speed broadband 
throughout rural America.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                             Hon. Ajit Pai
    Question 1. As the Ranking Minority Member of the Senate Permanent 
Subcommittee on Investigations, and throughout my time in the Senate, I 
have advocated for oversight and transparency for the Federal 
Government, and I take serious Congress' responsibility to hold Federal 
agencies accountable. As such, I was concerned to hear that some 
members of the Commission have not complied with Congressional 
inquiries conducted by my Republican colleagues in the House and 
Senate. I understand that neither Commissioner Pai nor Commissioner 
O'Rielly has provided documents in response to separate requests from 
the Senate Committee on Homeland Security and Governmental Affairs and 
the House Committee on Oversight and Government Reform relating to the 
rulemaking process for the Open Internet Order, which was released 
publicly on March 12, 2015.
    Please explain all steps taken by you and your staff to respond to 
the inquiries by the Senate Committee on Homeland Security and 
Governmental Affairs and the House Committee on Oversight and 
Governmental Affairs into Federal Communications Commission's open 
Internet order.
    Answer. My office has fully cooperated with these congressional 
investigations into the White House's influence on the Federal 
Communications Commission's net neutrality proceeding. At the outset of 
these investigations, my office informed the Committees' staff that we 
had no involvement in the preparation or development of the 
Commission's net neutrality order. Rather, this work was exclusively 
carried out in the Office of Chairman Wheeler, the Wireline Competition 
Bureau, the Office of General Counsel, and other Bureaus and Offices 
within the Commission.
    My office therefore indicated to the Committees' staff in the first 
half of 2015 that we were poorly positioned to provide documents 
shedding any light on how the White House's intervention into the 
Commission's rulemaking proceeding impacted the development of the net 
neutrality order. In response, the Committees' staff told my office 
that they would be in touch with us if they wanted us to produce any 
documents and that they considered us to be in compliance with the 
Committee's request. We did not hear back from the Committees for the 
rest of the year. However, during this time, the Office of General 
Counsel provided the House Oversight and Governmental Reform Committee 
with documents from my office that we produced in response to a Freedom 
of Information Act request related to the FCC's net neutrality 
proceeding.
    In February 2016, my Chief of Staff and Commissioner O'Rielly's 
Chief of Staff had a phone conversation with both majority and minority 
House Committee staff. During this call, they reiterated to staff what 
we had told Committee staff in 2015. Following this call, they met on 
March 4 with a representative of the Office of General Counsel to learn 
about the process that the Commission had used to identify and review 
documents that had been turned over to the Committee. During that 
meeting, they learned that the Office of General Counsel, pursuant to 
conversations with the Committee, had only turned over Commission 
documents from between November 1, 2014 and December 15, 2014. It was 
also confirmed that the Office of General Counsel has refused to 
provide the Committee with internal drafts of the net neutrality order 
from those two months. It is disappointing that the Commission is 
withholding these highly relevant documents from the Committee--
documents that would show the changes that were made to the draft order 
following the White House's intervention into the rulemaking process. I 
can confirm that my office does not have a copy of any such drafts.
    Following that meeting with the Office of General Counsel, my Chief 
of Staff and Commissioner O'Rielly's Chief of Staff had another phone 
conversation with both majority and minority Committee staff. During 
this call, we indicated that we would search for documents from between 
November 1, 2014 and December 15, 2014, using the same search terms as 
had been used by the Office of General Counsel. We also indicated that 
because our offices had no involvement in the development and 
preparation of the net neutrality order during these two months, we 
were skeptical that our efforts would produce any documents that would 
assist the Commission's investigation. My office performed that search 
and, as expected, this search confirmed that my office had no 
involvement in the development or preparation of the net neutrality 
order in November or December 2014.
    Following those discussions, my office did not hear from the 
Committee for many months. On September 14, 2016, my office received a 
letter from Ranking Member Cummings of the House Committee. In response 
to this letter, I told Ranking Member Cummings that I did not believe 
that I had any documents pertinent to the Committee's investigation of 
the White House's influence over the development of the net neutrality 
order. Nevertheless, in the interests of transparency, my office 
produced or re-produced hundreds of pages of documents related to net 
neutrality from the time-frame between November 1, 2014 and December 
15, 2014. These documents confirmed that my office was not involved in 
developing the net neutrality order.

    Question 2. Please explain your views on the obligation of you and 
your office to comply with congressional requests and cooperate with 
congressional investigations.
    Answer. I believe that the FCC should fully cooperate with 
congressional investigations. That is why it is so disappointing that 
the Commission has refused to provide the Committee with internal 
drafts of the net neutrality order from November and December of 2014. 
These are highly relevant documents to the Committee's investigation 
because they would show the changes that were made to the draft order 
following the White House's intervention into the rulemaking process.
                               Attachment
                          Federal Communications Commission
                                 Washington, DC, September 16, 2016

Hon. Elijah E. Cummings,
Ranking Member,
Committee on Oversight and Government Reform,
U.S. House of Representatives,
Washington, DC.

Dear Ranking Member Cummings:

    I am responding to your September 14, 2016 letter regarding the 
Oversight Committee's request for documents pertaining to the issue of 
net neutrality.
    I sincerely apologize if there was a disconnect between my staff 
and the Republican or Democratic staff of the Oversight Committee. It 
is not my intention to delay or withhold any information from the 
Committee's review. Please know that any misunderstanding was 
unintentional, and I seek to remedy the situation immediately.
    Pursuant to the conference call between Republican and Democratic 
Oversight Committee staff, my Chief of Staff, and Commissioner Pai's 
Chief of Staff that occurred on March 7, 2016, my staff believed that 
the Committee staff was satisfied with our responses and no further 
information would be necessary. Specifically, during that call, my 
staff outlined the screening process that we were told was used by the 
FCC's Office of General Counsel (OGC) in producing its response to the 
Committee's February 6, 2015 request, a production which your letter 
seems to indicate was deemed in full compliance. Significantly, the 
time-frame was limited from the period initially requested (January 14, 
2014-February 6, 2015) to a six-week period from November 1 to December 
15, 2014, and after two separate automated searches were performed, the 
remaining documents were individually reviewed by OGC staff for 
responsiveness to the Committee's requests. The documents considered to 
be responsive were then provided to the Committee, except for drafts of 
the net neutrality order itself, which OGC withheld as they are 
considered by OGC to be highly sensitive documents critical to the 
internal deliberative process. Majority and minority Committee staff 
confirmed that this was an accurate description of the production 
process used. Further, my staff represented and Committee staff 
seemingly accepted that there would be no responsive documents from my 
office had we conducted a similar process. Accordingly, no further 
review was conducted, and my office has had no further contact with 
majority or minority Committee staff since that date.
    However, in response to your September 14, 2016 letter, my staff 
and I have individually reviewed each of our documents between November 
1 and December 15, 2014, and identified all documents that could be 
considered relevant in any way. These largely consist of e-mails sent 
within my office in the process of drafting speeches or talking points 
for public events in which I participated during that timeframe. In the 
interest of attempting to fully resolve any outstanding concerns you 
may have, I will provide these documents to the Committee next week.
    In terms of the lack of information filed with OGC, it has been 
Commission practice and precedent for minority Commissioners to file 
directly any materials or documents requested by a Congressional 
Committee. This is, in part, because the OGC has taken a much more 
active role in the policy of the agency, as opposed to strictly acting 
in the capacity of a non-partisan counsel. This explains the 
description of the February 18, 2016 conference call between Committee 
staff and OGC, in which it was indicated that my office had not 
supplied OGC with any documents.
    Lastly, I hope to clear up any misunderstanding regarding my May 5, 
2014 The Hill op-ed, which was reviewed and commented upon by select 
outside individuals prior to publication. The Committee's press release 
indicated that I tried to argue that I wrote the op-ed ``in [my] 
`personal' capacity despite using official FCC resources, e-mail, and 
staff.'' To clarify, I do not claim in any way that I wrote my op-ed in 
my personal capacity. Instead, I was indicating that my interactions 
with outside parties in this matter did not rise to the level of 
requiring ex parte filings, because the outside parties did not seek to 
influence FCC proceedings, but responded to my personal views provided 
in the draft version of the op-ed.
    I am hopeful that this will resolve any outstanding requests or 
concerns in this matter. Please do not hesitate to contact me directly 
or have your staff reach out to Robin Colwell in my office at (202) 
418-2300 with any questions or concerns.
            Sincerely,
                                          Michael O'Rielly,
                                                      Commissioner.
cc: The Honorable Jason Chaffetz, Chairman
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                             Hon. Ajit Pai
    Question. I applaud the Commission's continued efforts to promote 
competition in the set-top box marketplace. Getting rid of set-top 
boxes in favor of an ``apps-based'' approach should reduce direct 
consumer costs. But innovations available to urban and suburban 
consumers should be available to rural consumers as well. And I remain 
concerned about the West Virginians who still do not have access to 
affordable, reliable broadband service--or do not have broadband 
service at all. These West Virginians may be forced to keep a set-top 
box in their households.
    For these rural consumers, do you believe this proposal will meet 
the Communications Act's mandate to assure the commercial availability 
of competitive devices?
    Answer. This summer, I visited West Virginia and heard from many 
individuals who lack access to high-speed broadband. In my view, this 
situation is unacceptable and that is why I have been working at the 
FCC on a variety of initiatives to close the digital divide and expand 
broadband deployment in rural America. However, it is my understanding 
that consumers would not need to subscribe to broadband to take 
advantage of the ``apps-based'' approach currently under consideration 
in the set-top box proceeding.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Hon. Michael O'Rielly
    Question 1. In its Further Notice of Proposed Rulemaking in the 
Spectrum Frontiers proceeding, the Commission talked about following 
the 4G playbook in making available high band spectrum that we all hope 
will be a platform for global 5G leadership. At the same time, the FCC 
sought comment on ``use-it-or-share-it'' proposals that some argue may 
devalue high band licenses. Are you at all concerned that these types 
of sharing proposals could undermine investment in high band 
frequencies, potentially putting our Nation's leadership in 5G at risk?
    Answer. Generally, I support efforts to promote sharing of 
spectrum. However, I raised serious concerns about the sharing 
proposals in both the order and further notice in my statement on this 
item. The Commission is considering and seeking comment on ``use-it-or-
share-it'' mechanisms for all millimeter wave bands. And, it already 
mandated a sharing paradigm between Federal and commercial users in the 
lower 600 megahertz of 37 GHz band (37-37.6 GHz), but exactly how 
sharing will work is teed up for comment in the further notice. The 
further notice also seeks comment about whether Federal users should be 
able to share spectrum with licensees for additional access in the 
upper 37 GHz band. I am concerned that sharing--whether with commercial 
or Federal users--will reduce investment, decrease certainty, and slow 
deployment, which could jeopardize the U.S. role as the leader in 5G. 
It is one thing to allow unlicensed entities to use unoccupied spectrum 
until the license holder is ready to use it; it is quite another 
issue--and a problematic one--to undermine commercial licenses obtained 
at auction.

    Question 2. As part of the Spectrum Frontiers Order, the FCC made 
available nearly 11 GHz of spectrum, but less than 4 GHz of that will 
be made available on a licensed basis. And a portion of that licensed 
spectrum will be allocated on a shared basis.
    A. I believe that there should be a balance between licensed and 
unlicensed spectrum. Does this Order strike the proper balance? If so, 
please explain why.
    Answer. I am supportive of unlicensed spectrum and the innovation 
that it can bring; therefore, I did not object to the designation of 
the highest bands (64-71 GHz) for unlicensed use. But, I also agree 
that the proper balance must be struck, which is why I expressed 
concerns about the sharing proposals raised above. As I stated above, I 
would have preferred that the lower 600 megahertz of the 37 GHz band 
was licensed. Also, licensed spectrum should be truly exclusive, but 
with stringent buildout requirements, so that licensees have the 
incentive to innovate without the inherent concerns about sharing 
spectrum. Going forward, more spectrum must be licensed on an exclusive 
basis.

    B. Should the Commission look for more licensed spectrum as it 
considers additional high frequency bands in its further notice?
    Answer. Yes, additional licensed spectrum must be part of any 
future spectrum allocations.

    Question 3. In 2014, Chairman Wheeler said ``there is a new 
regulatory paradigm'' for cybersecurity characterized by reliance on 
private sector leadership and the market first, ``while preserving 
other options if that approach is unsuccessful.'' He also noted that 
``[t]he pace of innovation on the Internet is much, much faster than 
the pace of a notice and comment rulemaking.''
    Similarly, the Administration has stressed the importance of 
public-private partnerships to enhance security, believing that static 
mandates cannot keep pace with growing and evolving cybersecurity 
threats and technological developments. Indeed, this approach, which 
the FCC's Communications Security, Reliability, and Interoperability 
Council (CSRIC) has adopted, is helpful in tailoring guidance to small 
and mid-sized companies.
    Despite the foregoing, this year the Commission has adopted 
security measures and reporting requirements in a series of orders and 
notices of proposed rulemaking on consumer privacy, communications 
network outage reporting, technology transitions, emergency alert 
systems, and 5G wireless licensing. Addressing cybersecurity in this 
manner through prescriptive rulemaking appears contrary to the 
Commission's professed desire to pursue the cooperative approach of an 
industry-led, public-private partnership.

    A. Given the recent work of CSRIC IV, how do you account for this 
apparent shift from industry-led, public private partnership to 
prescriptive rulemakings?
    Answer. I, too, have observed that, despite assurances by the 
Commission that it would pursue a voluntary approach to security and 
risk management, including in a draft Policy Statement still on 
circulation, the Commission has repeatedly imposed or sought to adopt 
new requirements. The Chairman's office would be in a better position 
to account for this shift.
    Overall, I find the Commission's efforts to adopt prescriptive 
rulemakings to be troubling as it does so without sufficient authority 
provided by Congress. Substantively, the Commission lacks the larger 
perspective gained from entities outside our purview, potentially 
creating conflicting requirements and imposing unnecessary burdens.

    B. To your knowledge, has the Commission determined that the 
voluntary, market-based approach has proven to be unsuccessful?
    Answer. I am not aware of any such determination.

    Question 4. The Commission has proposed an exception to the local 
media cross-ownership ban that would allow a broadcaster to invest in a 
newspaper when it is ``failing.'' This exception for cases in which a 
newspaper is ``failing'' renders little value to a newspaper that needs 
investments now, well before it is ``failing.'' By the time a newspaper 
is ``failing,'' a local broadcaster may no longer see it as a 
worthwhile investment--particularly in light of the consumer trend 
toward digital and mobile applications for news and entertainment. 
Shouldn't the Commission be seeking ways to encourage investment in 
newspapers before they get to a state of ``failing,'' and before such 
newspapers may have to make the difficult decision to cut back on local 
reporting resources?
    Answer. While I support completely eliminating this particular 
cross-ownership restriction, to the extent that relief is going to be 
limited to an exception, I agree that the Commission should not require 
a newspaper to be ``failing'' before a partnership with a local 
broadcaster can even be considered. It is difficult to see this 
exception being of any value in today's fast-paced media environment.
                                 ______
                                 
    Response to Written Questions submitted by Hon. Deb Fischer to 
                         Hon. Michael O'Rielly
    Question 1. Commissioner O'Rielly, I want to thank you for your 
recent visit to Nebraska, where you got to see first-hand the 
importance of infrastructure deployment in a rural state like mine. As 
I'm sure you saw, there are still gaps in coverage that providers are 
working to close. I am concerned about the impact of the FCC's proposed 
privacy rules on broadband providers who serve rural areas of the 
state. Complying with these rules may be very costly and difficult, 
especially for providers with only a few employees and slim budget 
margins. I fear that these rules will require more money to be spent on 
regulatory compliance instead of deploying infrastructure to serve 
Nebraskans. Commissioner, do you agree?
    Answer. Yes, I agree. I have worked hard, along with my colleagues, 
to reform the high-cost universal service program to promote broadband 
deployment in rural areas that would not otherwise be served. Imposing 
new burdens on providers that divert limited resources away from 
deployment would run counter to this effort. The Commission is 
currently considering adopting broadband privacy rules and I hope it 
will carefully consider the costs and benefits of any new requirements, 
especially for smaller entities.

    Question 2. I am excited about the opportunities that 5G networks 
and services may bring for the U.S. and the citizens of Nebraska, and I 
understand that in addition to making more spectrum available, we will 
have to build out new wireless infrastructure to make 5G services a 
reality. I know that 5G networks will rely on equipment that is much 
smaller than traditional wireless towers, and that these small cells 
will need to be widely deployed. In August, the FCC's Wireless Bureau 
took positive steps to help streamline the deployment of small cell 
antenna systems. However, you have made it clear that the FCC needs to 
do more. What should the Commission do to address barriers to deploying 
small cells?
    Answer. The Commission's spectrum efforts will only benefit 
Americans if decision makers, such as private land owners and municipal 
managers, approve the placement of infrastructure under reasonable 
terms. Unfortunately, stories of barriers being placed in front of 
network deployments abound. As I stated in my testimony, some Tribal 
and local governments are seeking to extract enormous fees from 
providers and operating siting review processes that are not conducive 
to a quick and successful deployment schedule. More specifically, I 
have heard several experiences of localities using the permitting 
processes to slow or stop facilities siting in their rights of way. At 
some point, the Commission may need to use the authority provided by 
Congress to preempt the activities of those delaying 5G deployment 
without justifiable reasons. This could include proactively trying to 
help resolve disputes caused by locality inaction or hostility, and 
designating specific Wireless Bureau staff to travel, testify, and 
investigate instances of siting problems.
    Additionally, we must ensure that providers have the incentive to 
build backhaul. The Commission should remove barriers to deployment and 
not add unsubstantiated new burdens.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ron Johnson to 
                         Hon. Michael O'Rielly
    Question. The FCC claims it must act on its Privacy Proceeding 
because Internet Service Providers (ISPs) have a unique insight into a 
person's viewing habits. However, today, all of the top 10 websites 
either encrypt by default or upon user log-in, as do 42 of the top 50. 
An estimated 70 percent of traffic will be encrypted by the end of 
2016. So, with the rise of encryption, do ISPs really have this unique 
information?
    Answer. The increasing prevalence of encryption clearly undercuts 
claims that rules are needed to address ISPs' access to user 
information. The Commission is currently considering adopting broadband 
privacy rules, and I hope it will carefully consider such data in 
determining whether and to what extent new requirements are warranted 
and justified.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Cory Gardner to 
                         Hon. Michael O'Rielly
    Question. Commissioner O'Rielly, you've expressed support for the 
FCC's efforts to streamline the deployment of small cell antennas, but 
you've also stated that there remains much work to be done. 
Particularly given the new buildout required for the oncoming 5G 
revolution, what more can the FCC be doing to move this effort forward? 
Do you believe the FCC is capable of single-handedly addressing all 
remaining impediments to infrastructure buildout? If not, would 
legislation be helpful in this effort and what role do you believe is 
proper for Congress to play?
    Answer. As I stated in my testimony, the biggest impediment to 5G 
infrastructure that I hear about is that some Tribal and local 
governments are seeking to extract enormous fees from providers and 
operating siting review processes that are not conducive to a quick and 
successful deployment schedule. For instance, I have heard several 
accounts of localities using permitting processes to slow or stop 
facilities siting in their rights of way. At some point, the Commission 
may need to use the authority provided by Congress to preempt the 
activities of those delaying 5G deployment without justifiable reasons. 
While the Commission may take this step, legislation is always helpful 
to obtaining consensus and facilitating Commission action, but I leave 
the decision as to whether such action is appropriate or warranted to 
Congress.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. Michael O'Rielly
    Question 1. As the Ranking Minority Member of the Senate Permanent 
Subcommittee on Investigations, and throughout my time in the Senate, I 
have advocated for oversight and transparency for the Federal 
Government, and I take serious Congress' responsibility to hold Federal 
agencies accountable. As such, I was concerned to hear that some 
members of the Commission have not complied with Congressional 
inquiries conducted by my Republican colleagues in the House and 
Senate. I understand that neither Commissioner Pai nor Commissioner 
O'Rielly has provided documents in response to separate requests from 
the Senate Committee on Homeland Security and Governmental Affairs and 
the House Committee on Oversight and Government Reform relating to the 
rulemaking process for the Open Internet Order, which was released 
publicly on March 12, 2015.
    Please explain all steps taken by you and your staff to respond to 
the inquiries by the Senate Committee on Homeland Security and 
Governmental Affairs and the House Committee on Oversight and 
Governmental Affairs into Federal Communications Commission's open 
Internet order.
    Answer. I take very seriously my absolute obligation to respond 
fully to any Congressional request and to cooperate fully with any 
Congressional investigation. My staff and I reviewed each of our e-
mails and documents from the applicable time frames, and had no 
documents responsive either to the February 9, 2015 request of the 
Senate Committee on Homeland Security and Governmental Affairs, or to 
the February 6, 2015 request of the House Committee on Oversight and 
Governmental Affairs. Pursuant to discussions my staff had with House 
Committee staff, we believed that my responses had been satisfactory 
and that no further information would be necessary. However, in 
response to the September 14, 2016 letter from the House Committee on 
Oversight and Governmental Affairs Ranking Member Cummings, I sent a 
letter on September 16, 2016, which is attached for the record.

    Question 2. Please explain your views on the obligation of you and 
your office to comply with congressional requests and cooperate with 
congressional investigations.
    Answer. I consider myself obligated, and have repeatedly committed 
to respond fully and promptly to any Congressional request and to 
cooperate fully with any Congressional investigation. The Federal 
Communications Commission, and my position within it, was created by 
Congress and is accountable to Congress in every possible respect.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                         Hon. Michael O'Rielly
    Question. I applaud the Commission's continued efforts to promote 
competition in the set-top box marketplace. Getting rid of set-top 
boxes in favor of an ``apps-based'' approach should reduce direct 
consumer costs. But innovations available to urban and suburban 
consumers should be available to rural consumers as well. And I remain 
concerned about the West Virginians who still do not have access to 
affordable, reliable broadband service--or do not have broadband 
service at all. These West Virginians may be forced to keep a set-top 
box in their households. For these rural consumers, do you believe this 
proposal will meet the Communications Act's mandate to assure the 
commercial availability of competitive devices?
    Answer. While I am a proponent of an apps-based approach for 
consumer video access, the Commission's recent regulatory proposal has 
many serious flaws, one of which is its questionable technical 
feasibility. The ability of MVPD systems to support any given solution 
and deploy it to all of their customers should be a paramount 
consideration if the Commission ultimately moves forward with its 
efforts.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Hon. Mignon L. Clyburn
    Question 1. As part of the Spectrum Frontiers Order, the FCC made 
available nearly 11 GHz of spectrum, but less than 4 GHz of that will 
be made available on a licensed basis. And a portion of that licensed 
spectrum will be allocated on a shared basis.
    A. I believe that there should be a balance between licensed and 
unlicensed spectrum. Does this Order strike the proper balance? If so, 
please explain why.
    Answer. Thank you for the question, Mr. Chairman. The Commission's 
overall spectrum policy should seek to achieve a balance of licensed, 
unlicensed and shared access spectrum to enable established industry 
players as well as entrepreneurs to develop innovative service 
offerings for consumers. I believe that the Spectrum Frontiers Order 
and Further Notice, a bipartisan effort that was based on a fully 
developed record, did just that. Due to its propagation 
characteristics, the 64-71 GHz band is not well suited for licensed 
use; thus, it was allocated for unlicensed use.

    B. Should the Commission look for more licensed spectrum as it 
considers additional high frequency bands in its further notice?
    Answer. Yes. In the Further Notice, the Commission, recognizing the 
relative proportions of spectrum allocated for licensed and unlicensed 
use in the Order, proposed to make an additional 18 GHz of spectrum 
available for licensed use.

    Question 2. The Commission has proposed an exception to the local 
media cross-ownership ban that would allow a broadcaster to invest in a 
newspaper when it is ``failing.'' This exception for cases in which a 
newspaper is ``failing'' renders little value to a newspaper that needs 
investments now, well before it is ``failing.'' By the time a newspaper 
is ``failing,'' a local broadcaster may no longer see it as a 
worthwhile investment--particularly in light of the consumer trend 
toward digital and mobile applications for news and entertainment. 
Shouldn't the Commission be seeking ways to encourage investment in 
newspapers before they get to a state of ``failing,'' and before such 
newspapers may have to make the difficult decision to cut back on local 
reporting resources?
    Answer. Thank you for the question. My ultimate goal, consistent 
with the Commission's statutory mandate, is to ensure strong, local and 
diverse voices throughout the broadcast television, radio as well as 
newspaper industries. The Commission, as you know, adopted the failed 
or failing newspaper or broadcast station waiver as one way to inject 
new investment opportunities. I remain open to looking at other ways to 
support investment in the newspaper business. In assessing whether 
further changes should be made to the Commission's ownership rules, I 
would look to ensure we do not reduce the number of local voices; that 
we have a comprehensive picture of how the incentive auction has 
impacted local markets; and that we simultaneously address the dismal 
state of media ownership diversity.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                         Hon. Mignon L. Clyburn
    Question. What impact do you anticipate the FCC's proposed changes 
to existing rural wireless USF support mechanisms might have on 
critical services, like remote patient monitoring and precision 
agriculture applications, that rely on USF-supported wireless networks 
to function today? Can you assure me that the changes to wireless USF 
support mechanisms you are considering will do no harm to these 
existing services?
    Answer. Thank you for the question, Senator. As you know, I have 
been a vocal proponent of the Mobility Fund for years, and am looking 
forward to the day the Commission makes it permanent. I anticipate that 
changing these support mechanisms to better target the funding to where 
it is most needed means that more Americans will be able to take 
advantage of services you speak of that rely on mobile wireless. Sadly, 
according to recent FCC staff analysis, about 1.5 million Americans 
still have no access to 4G LTE where they live. Our ultimate goal is to 
make sure more Americans to have access to not only the critical 
applications and services of today, but those of tomorrow. Moving 
forward on the Mobility Fund will help bring that goal closer to 
reality.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                         Hon. Mignon L. Clyburn
    Question. We have a rapidly-changing media market. I think people 
still want local news and access to a variety of content. One key 
evolution is the method of consuming that content. Now we are as likely 
to read or watch the news on smart phones as we are to pick up a 
newspaper or turn on the TV. What are your thoughts on how the 
Commission can get better information to make the best public interest-
based decisions on media consolidation going forward?
    Answer. Thank you for the question, Senator. I wholeheartedly agree 
that local news and information from a variety of viewpoints is at the 
heart of a vibrant media landscape and it is what consumers expect. As 
I stated during the Commission's recent Quadrennial Review proceeding, 
to satisfy judicial scrutiny and demonstrate the Commission's 
commitment to ownership diversity that is so desperately needed, we 
need a robust record . . . in a word, data. I also believe that the 
completion of the incentive auction presents an opportunity to 
thoroughly assess the state of media ownership and determine whether 
the Commission's rules correctly align with recent changes.
    I stand ready to work with my fellow Commissioners and interested 
researchers to fulfill this goal so that the Commission has the 
information it needs to ensure that the right policies are in place to 
promote a vibrant and diverse media landscape.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                         Hon. Mignon L. Clyburn
    Question. I applaud the Commission's continued efforts to promote 
competition in the set-top box marketplace. Getting rid of set-top 
boxes in favor of an ``apps-based'' approach should reduce direct 
consumer costs. But innovations available to urban and suburban 
consumers should be available to rural consumers as well. And I remain 
concerned about the West Virginians who still do not have access to 
affordable, reliable broadband service--or do not have broadband 
service at all. These West Virginians may be forced to keep a set-top 
box in their households. For these rural consumers, do you believe this 
proposal will meet the Communications Act's mandate to assure the 
commercial availability of competitive devices?
    Answer. You raise an important question and one that I believe can 
be satisfactorily addressed through an ``apps-based'' approach. As you 
may know, today cable companies can deliver an app as a Title VI cable 
service or through the Internet as an over-the-top service. The cable 
industry has assured the Commission that they are able to deliver their 
app as a Title VI service, meaning that consumers could purchase a 
competitive device without needing an Internet connection. Similarly, 
it is my understanding that satellite providers also have the 
capability to deliver an apps-based approach to consumers without a 
broadband connection.
    Independent of this proceeding, your question reiterates to me why 
it is imperative that the Commission have a laser-focus on bringing 
robust, affordable broadband services to all Americans, whether they 
live in an urban or a rural area.

                                  [all]

                  This page intentionally left blank.
                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
